<html>
<title> - STATUS REPORT ON FEDERAL AND LOCAL EFFORTS TO SECURE RADIOLOGICAL SOURCES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




   STATUS REPORT ON FEDERAL AND LOCAL EFFORTS TO SECURE RADIOLOGICAL 
                                SOURCES

=======================================================================

                             FIELD HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                        THREATS, CYBERSECURITY,
                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2009

                               __________

                           Serial No. 111-34

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________






                  U.S. GOVERNMENT PRINTING OFFICE
54-223 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

                 Yvette D. Clarke, New York, Chairwoman
Loretta Sanchez, California          Daniel E. Lungren, California
Laura Richardson, California         Paul C. Broun, Georgia
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                      Jacob Olcott, Staff Director
       Dr. Chris Beck, Senior Advisor for Science and Technology
                         Daniel Wilkins, Clerk
               Coley O'Brien, Minority Subcommittee Lead











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Emerging 
  Threats, Cybersecurity, and Science and Technology.............     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Emerging Threats, Cybersecurity, and Science and Technology.     3

                               Witnesses

Mr. Craig Conklin, Director, Sector-Specific Agency Executive 
  Management Officer, Officer of Infrastructure Protection, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Kenneth Sheely, Associate Assistant Deputy Administrator for 
  Global Threat Reduction, National Nuclear Security 
  Administration, Department of Energy:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Robert J. Lewis, Director, Division of Materials Safety and 
  State Agreements (MSSA), Nuclear Regulatory Commission:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Captain Michael Riggio, Counterterrorism Division, New York 
  Police Department:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Gene Miskin, Director, Office of Radiological Health, New 
  York City Department of Health and Mental Hygiene:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Dr. Bonnie Arquilla, Director of Disaster Preparedness, SUNY 
  Downstate Medical Center:
  Oral Statement.................................................    34
  Prepared Statement.............................................    37
Mr. Gene Aloise, Director, National Resources and Environment, 
  Government Accountability Office:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42

                             For The Record

Submitted for the Record by Chairwoman Yvette D. Clarke:
  Statement of IP Radiation Security Associates..................    62

 
   STATUS REPORT ON FEDERAL AND LOCAL EFFORTS TO SECURE RADIOLOGICAL 
                                SOURCES

                              ----------                              


                       Monday, September 14, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to call, at 9:55 a.m., in 
the SUNY Downstate Alumni Auditorium, Brooklyn, New York, Hon. 
Yvette D. Clarke presiding.
    Present: Representatives Clarke, Sanchez, Richardson, and 
Lungren.
    Ms. Clarke. The subcommittee will come to order.
    Good morning. I would like to welcome you all to Brooklyn 
this morning and thank the Members of the subcommittee--Mr. 
Lungren, the Ranking Member; Ms. Sanchez; and Ms. Richardson--
for travelling from your own districts to participate in 
today's hearing.
    Today's hearing is entitled, ``Status Report on Federal and 
Local Efforts to Secure Radiological Sources.'' Radiological 
source security is essential in preventing a radiological 
dispersed device, or RDD, often called a ``dirty bomb.'' To put 
it simply: No radiological material, no dirty bomb.
    Two years ago, this subcommittee, along with members of the 
New York City delegation, came to New York to observe some of 
the early efforts to secure radiological sources, specifically 
those cesium chloride sources found in hospital blood 
irradiators.
    At that time, those early efforts were spearheaded by a 
partnership effort between New York City and the Brookhaven 
National Laboratory. Security measures, such as closed-circuit 
television cameras, keypad locking systems with alarms, and 
other access controls, were being put in place.
    Over the next 2 years, three Federal agencies--the 
Department of Homeland Security's Domestic Nuclear Detection 
Office, DNDO; the Department of Energy's National Nuclear 
Security Administration, NNSA; and the Nuclear Regulatory 
Commission, NRC--continued this idea by looking at the risk 
posed by the cesium chloride sources and proposing some 
solutions.
    These efforts became a little more sophisticated and 
brought the security focus closer to the source. The three 
agencies decided to take three actions to better secure 
radiological sources: No. 1, harden blood irradiators to make 
it more difficult to remove the CSCL sources called 
``engineering upgrades''; examine whether alternate sources 
besides cesium chloride could be used; and, No. 3, improve the 
licensing and tracking system for sources.
    So today we are here to get an update on these efforts, and 
we have an exceptional panel of witnesses to help us in our 
efforts.
    From the Department of Homeland Security, Mr. Craig Conklin 
is the director of the Sector-Specific Agency Executive 
Management Office, Office of Infrastructure Protection.
    Welcome.
    From the Department of Energy, Mr. Kenneth Sheely is the 
associate assistant deputy director for global threat 
reduction, National Nuclear Security Administration.
    Welcome.
    From the Nuclear Regulatory Commission, Mr. Robert Lewis is 
the director of the Division of Materials Safety and State 
Agreements, MSSA.
    Welcome.
    These three Federal witnesses will tell us about their 
current efforts, what has worked, what hasn't, and their future 
plans.
    Next we have Captain Michael Riggio, the director of 
counterterrorism at the New York Police Department.
    Welcome.
    We also have Mr. Gene Miskin, the director of the Office of 
Radiological Health for the New York City Department of Health 
and Mental Hygiene.
    Welcome.
    The New York Police Department and public health 
departments have been forward-thinking and aggressive in their 
efforts to secure these sources. They have also shown us that 
police and public health, two entities who don't see eye-to-eye 
very often, can work together to achieve a common goal. We are 
also interested in hearing from them how the various Federal 
agencies have worked with them.
    Also from New York is Dr. Bonnie Arquilla, who is the 
director of disaster preparedness here at SUNY Downstate 
Medical Center.
    Thank you for being here, and thank you to SUNY Downstate 
for allowing us to hold this hearing here.
    Finally, from the Government Accountability Office is Mr. 
Gene Aloise, the director of the Natural Resources and 
Environment Division.
    Dr. Arquilla and Mr. Aloise will not speak directly to the 
source security efforts specifically but will provide helpful 
context. Dr. Arquilla will explain the kinds of efforts and 
activities that would be necessary to respond to an RDD event. 
Mr. Aloise will discuss the activities that would be involved 
in recovering from such events.
    I think we will all see that both response and recovery are 
quite difficult and expensive. We should be doubly motivated to 
ensure that the radiological sources are as well-protected as 
possible.
    I believe in this mission. After the trip I mentioned 2 
years ago, I introduced the Radiological Materials Security 
Act, which was reintroduced in April of this year. The 
provisions of the bill provide for the three Federal agencies 
here to carry out the activities that they have been and 
continue to carry out in their trilateral efforts.
    Although the bill has not yet been passed, it has helped me 
to push for the appropriations to keep radiological source 
security and detection efforts going. I hope that the bill and 
this field hearing make it clear to the witnesses here today, 
as well as the agencies and departments that you represent, 
that Congress has an interest in your efforts. We will support 
you, and we want to see progress.
    Thank you for being here. I look forward to your testimony 
and the following discussion.
    I now recognize the Ranking Member, Dan Lungren of 
California, for an opening statement.
    Mr. Lungren. Thank you very much, Madame Chairwoman.
    In the interest of time, I would ask unanimous consent that 
my prepared opening statement be included in the record.
    Ms. Clarke. So ordered.
    Mr. Lungren. With that, I would just say, thank you, all of 
you, for being here. I appreciate it. One thing I have learned 
already is that, on the Federal level, we obviously have the 
corner on longer titles than the rest of the Government. It is 
a mouthful.
    I realize this is an extremely important issue. I thank all 
of you for being here. I particularly am interested not only in 
the prevention and the recovery, but also that we do a better 
job of getting information out to the public exactly what a 
dirty bomb is, so that we might be able to understand how to 
respond to that and also diminish some of the panic that seems 
to ensue with every discussion of dirty bombs.
    Not that they are not important, but that we understand 
what they can do and what they cannot do will help us to be 
able to respond in a far better way than I think we are 
prepared to do right now.
    With that, I would yield back the balance of my time.
    Ms. Clarke. I now recognize the gentlelady from California, 
Ms. Loretta Sanchez of California, for an opening statement.
    Ms. Sanchez. Madam Chairwoman, in the interest of time, we 
will submit something for the record.
    I just wanted to let you know that you have three 
Californians joining you today here in New York City, and that 
is because we share so much interest in this, as major 
metropolitan areas, both on the East and the West Coast.
    We look forward to the testimony. We think it is an 
important issue. So I thank you.
    Ms. Clarke. Thank you very much.
    I now recognize the gentlelady from California, Laura 
Richardson of California, for an opening statement.
    Ms. Richardson. Thank you, Madame Chairwoman.
    First of all, I would like to take this opportunity to 
thank you for convening this hearing. This is a very important 
subject that we need to stay diligent on. We do appreciate your 
leadership on this matter.
    I would like to briefly share with you, in addition to 
being on the committee, the reason why I found it of importance 
and wanted to participate. I represent the area of Long Beach, 
California, where one block out of my district is the entire 
port complex which is the port of Long Beach and the Port of 
Los Angeles, which is the largest port in the United States.
    When we consider this discussion, it is of much concern to 
us, of all the people, 16 million people, who live within a 
certain radius who could be very inevitably affected if we were 
to have a situation such as we are discussing this morning.
    But I just want to say thank you in advance to all the 
witnesses for coming and preparing and providing us with the 
information that we need so we can legislate in a more 
effective way.
    Thank you very much.
    Ms. Clarke. Thank you.
    In the interest of time, I will ask that each of you 
provide a brief biography of your work. Without objection, the 
witnesses' full statements will be entered into the record. 
Hearing no objection, so ordered.
    I now ask each witness to introduce yourself and summarize 
your statement for 5 minutes, beginning with Mr. Conklin.

 STATEMENT OF CRAIG CONKLIN, DIRECTOR, SECTOR-SPECIFIC AGENCY 
    EXECUTIVE MANAGEMENT OFFICER, OFFICER OF INFRASTRUCTURE 
          PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Conklin. Thank you. My name is Craig Conklin. I am 
director of the Sector-Specific Agency Executive Management 
Office within the Department of Homeland Security.
    Good morning, Chairwoman Clarke, Ranking Member Lungren, 
and distinguished Members of the subcommittee. I appreciate the 
opportunity to testify on the Department of Homeland Security's 
and the Federal Government's efforts to enhance the security of 
radiological sources and ensure that they are not used in a 
manner that is hostile to the United States.
    Under Homeland Security Presidential Directive 7, the 
Office of Infrastructure Protection leads a coordinated 
national program to reduce risk to the Nation's critical 
infrastructure and key resources and to strengthen National 
preparedness, timely response, and a rapid recovery of these 
assets in the event of an attack, natural disaster, or other 
emergency.
    These risk-mitigation efforts are accomplished using the 
partnership framework established in the National 
Infrastructure Protection Plan. This plan brings together all 
levels of government, the private sector, nongovernmental 
organizations, and international partners to enhance sector 
security resiliency.
    My office was assigned sector-specific agency 
responsibilities for six of the 18 critical infrastructure 
sectors, including the nuclear sector. The nuclear sector-
specific agency facilitates and implements programs that help 
achieve security by effectively reducing vulnerabilities and 
consequences of attack using risk-based assessments, industry 
best practices, protective measures, resiliency strategies, and 
comprehensively sharing information between industry and all 
levels of government.
    Our government partners include, among others, the National 
Nuclear Security Administration, the Nuclear Regulatory 
Commission, and the Federal Bureau of Investigation, as well as 
officials from the States of Delaware, Florida, Massachusetts, 
Pennsylvania, and Texas.
    Our private-sector partners include representatives from 
the commercial nuclear power industry, producers and users of 
radioactive sources, universities that operate research and 
test reactors, and radioactive material shippers.
    While our efforts run the gamut of the nuclear sector, 
today I will briefly describe four efforts to protect portable 
radioactive sources.
    First, in 2007, we formed a Radioisotope Subcouncil to 
address radioactive source security concerns. The purpose of 
the subcouncil is to identify and recommend measures to prevent 
sources of concern from being stolen and used as a radiological 
dispersal device or a radiological exposure device.
    In late 2008, the subcouncil conducted a radioactive source 
security workshop, which identified three issues for further 
examination: First, the potential risk presented by limited 
commercial disposition of sealed sources; second, the use of 
commercial, off-the-shelf technologies to track conveyances, 
packages, and sources during transport; and, third, 
reconciliation of the sometimes confusing regulations covering 
the transportation of radioactive sources.
    A focus group has been created to address each of these 
issues. The removal and disposal focus group will develop a 
concise message on the potential national security concerns 
caused by the lack of commercial disposition options for these 
sealed sources and will investigate immediate and long-term 
options to address that concern.
    The tracking focus group will develop a position paper on 
the pros and cons and cost-effectiveness of the identified 
tracking technologies. The transportation focus group will 
establish an approved definition for ``transit'' and 
``transshipments'' and develop an action plan for addressing 
any regulatory gaps and/or inconsistencies in the 
transportation regulations.
    Second, the Nuclear Sector-Specific Agency, in close 
coordination with its Federal partners, maintains and regularly 
updates a matrix of Federal programs and initiatives that are 
being implemented to enhance source security. The purpose of 
this matrix is to help reduce duplication of efforts, maximize 
the use of limited Federal resources, and identify gaps in 
Federal activities. The matrix currently tracks 26 Federal 
initiatives.
    Third, the Department of Homeland Security's Domestic 
Nuclear Detection Office is also actively engaged in a number 
of source security initiatives. DNDO is leading the Securing 
the Cities Initiative effort to design and implement 
architecture for a coordinated and integrated preventive 
detection and interdiction of illicit radiological materials 
that may be used a weapon within a high-risk urban area.
    It is also chairing the Public Education Subgroup of the 
NRC-led Radioactive Source Task Force designed to enhance the 
general knowledge of the public concerning radiological 
dispersal devices.
    Finally, DNDO is leading a small-business initiative 
research program to promote the design and production of non-
nuclear alternatives for industrial devices that use 
radioactive sources.
    The last effort I would like to describe is our information 
sharing through the trilateral meetings. The Department of 
Homeland Security, the NRC, and NSA participate in these 
meetings. The trilateral meetings provide an informal forum to 
discuss on-going projects regarding radioactive source 
security. The purpose is to avoid and minimize surprises with 
other agencies' activities and provide an efficient and 
effective path forward to enhance source security. We hold 
these meetings on a quarterly basis.
    In closing, the Office of Infrastructure Protection works 
closely with its Federal, State, local, territorial, and Tribal 
and private-sector partners within the nuclear sector to ensure 
the protection and resiliency of the sector.
    I will be glad to respond to any questions the subcommittee 
may have.
    [The statement of Mr. Conklin follows:]
                  Prepared Statement of Craig Conklin
                           September 14, 2009
    Good morning Chairwoman Clarke, Ranking Member Lungren, and 
distinguished Members of the subcommittee. As Director of the Sector-
Specific Agency Executive Management Office (SSA EMO) in the Department 
of Homeland Security's (DHS') Office of Infrastructure Protection, I 
appreciate the opportunity to discuss the Federal Government's 
coordinated effort to secure radioactive sources and ensure that they 
are not used in a manner hostile to the United States. I will also 
highlight how the Federal Government continues to work with our State, 
local, Tribal, and private sector partners to execute this important 
mission.
    Under Homeland Security Presidential Directive 7 (HSPD-7), Critical 
Infrastructure Identification, Prioritization, and Protection, the DHS 
Office of Infrastructure Protection leads a coordinated National 
program that aims both to reduce risks to the Nation's critical 
infrastructure and key resources (CIKR) as well as to strengthen the 
preparedness, response, and recovery of these assets in the event of an 
attack, natural disaster, or other emergency. These risk mitigation 
efforts are accomplished through the collaborative framework 
established in the National Infrastructure Protection Plan (NIPP), 
which brings together all levels of government, the private sector, 
non-governmental organizations, and international partners in support 
of this CIKR protection and response mission.
    In the context of the NIPP, CIKR protection includes actions to 
deter the threat, mitigate vulnerabilities, or minimize the 
consequences associated with a terrorist attack or other man-made or 
natural disaster. Protection can include a wide range of activities 
such as:
  <bullet> improving security protocols;
  <bullet> hardening facilities;
  <bullet> building resiliency and redundancy;
  <bullet> incorporating hazard resistance into facility design;
  <bullet> initiating active or passive countermeasures;
  <bullet> installing security systems;
  <bullet> leveraging ``self-healing'' technologies;
  <bullet> promoting workforce surety programs;
  <bullet> implementing cybersecurity measures;
  <bullet> training and exercises; and
  <bullet> business continuity planning.
    Recognizing that each CIKR sector possesses its own unique 
characteristics, HSPD-7 designates Federal Government Sector-Specific 
Agencies (SSAs) for each of the 18 CIKR Sectors. The SSAs are 
responsible for: Implementing the NIPP sector partnership model and 
risk management framework; developing protective programs and 
resiliency strategies; and providing sector-level CIKR protection 
guidance in line with the overarching NIPP framework established by DHS 
pursuant to HSPD-7.
    The SSA EMO was assigned SSA responsibilities for six of the 18 
CIKR Sectors: Chemical; Commercial Facilities; Critical Manufacturing; 
Dams; Emergency Services; and Nuclear Reactors, Material, and Waste. 
The SSA facilitates and implements programs that help achieve security 
by reducing vulnerabilities and consequences of attack through risk-
based assessments, industry best practices, protective measures, and 
comprehensive information sharing between industry and all levels of 
government. The remainder of this testimony will focus on the Nuclear 
Reactors, Material, and Waste Sector.
    The Nuclear Reactors, Material, and Waste Sector is comprised of:
  <bullet> Nuclear Power Plants--104 power reactors at 65 sites;
  <bullet> Research and Test Reactors--32 reactors in 22 States;
  <bullet> Radioisotopes--portable sources primarily for medical and 
        industrial use;
  <bullet> Twenty-eight irradiation facilities;
  <bullet> Twelve major manufacturers/distributors of radioactive 
        sources;
  <bullet> Eight major fuel fabrication and production facilities;
  <bullet> Six spent fuel storage facilities;
  <bullet> Four mixed-waste facilities; and
  <bullet> One uranium hexafluoride production facility.
    As the lead Federal coordinator, the role of the Nuclear SSA within 
the Nuclear Reactors, Material, and Waste Sector (herein referred to as 
the Nuclear Sector) is to build and sustain relationships with 
Government and private sector security partners to coordinate the 
identification, prioritization, and protection of Nuclear Sector CIKR. 
HSPD-7 directs the Secretary of Homeland Security to ``continue to work 
with the Nuclear Regulatory Commission (NRC) and, as appropriate, the 
Department of Energy in order to ensure the necessary protection [of 
the Nuclear Sector].'' This entails: Maintaining the Sector Specific 
Plans for CIKR Protection in the Nuclear Sector and submitting the 
corresponding Annual Sector CIKR Protection Report for the Nuclear 
Sector; assessing sector-level performance to enable protection-program 
gap assessments; identifying protection priorities; coordinating and 
supporting risk assessments and management programs for high-value 
CIKR; and supplying sector-specific CIKR information for incident 
response, among other responsibilities.
    Critical infrastructure protection and resiliency are the shared 
responsibilities of Federal, State, local, Tribal, and territorial 
governments, regional coalitions, and the private sector owners and 
operators of the Nation's CIKR. The NIPP relies on a partnership model 
as the primary organizational structure for coordinating CIKR efforts 
and activities, encouraging the formation of Sector Coordinating 
Councils (SCCs) and Government Coordinating Councils (GCCs). The SCCs 
and corresponding GCCs work in tandem to create a coordinated National 
framework for CIKR protection and resiliency within and across sectors.
    As Director of the SSA EMO, I chair the Nuclear Sector's Nuclear 
Government Coordinating Council (NGCC). The NGCC is the Principal 
Federal interagency body responsible for working with public and 
private partners to coordinate and implement civilian nuclear security 
strategies, activities, and policies; facilitate relevant 
communications across the Government and between the Government and the 
private sector; and coordinate with the emergency management and public 
health and safety communities regarding response and recovery issues 
associated with a terrorist act. The NGCC's membership consists of 
representatives from DHS, National Nuclear Security Administration 
(NNSA), Nuclear Regulatory Commission (NRC), Federal Bureau of 
Investigation (FBI), Department of Energy (DOE), Department of State, 
Department of Transportation, Environmental Protection Agency, along 
with officials from the radiation-control programs in the States of 
Delaware, Florida, Massachusetts, Pennsylvania, and Texas. The NGCC's 
work encompasses CIKR protection activities at the full range of 
Nuclear Sector assets.
    The role of the Nuclear Sector's Nuclear Sector Coordinating 
Council (NSCC) is to provide a mechanism through which the nuclear 
industry may provide input into nuclear CIKR protection policy 
development and implementation; further, it provides a forum for 
companies and key organizations involved in nuclear security issues to 
cooperate with Government on nuclear CIKR protection. The NSCC is 
comprised of representatives from nuclear power reactor operators, fuel 
manufacturing facilities, nuclear reactor manufacturers, nuclear waste 
management/transportation companies, nuclear trade associations, the 
Nuclear Energy Institute and the National Organization of Test, 
Research, and Training Reactors.
    The Critical Infrastructure Partnership Advisory Council (CIPAC) 
directly supports the sector partnership model by providing a legal 
framework that enables members of the NSCC and NGCC to engage in joint 
CIKR protection-related discussions. DHS published a Federal Register 
Notice on March 24, 2006, announcing the establishment of CIPAC as a 
Federal Advisory Committee Act-exempt body, pursuant to Section 871 of 
the Homeland Security Act.
    The Nuclear Sector's mission statement declares that ``the Nuclear 
Sector will support national security, public health and safety, public 
confidence, and economic stability by enhancing, where necessary and 
reasonably achievable, its existing high level of readiness to promote 
the security of the Nuclear Sector, and to lead by example to improve 
the Nation's overall critical infrastructure readiness.'' In 
furtherance of this mission, the Nuclear CIPAC agreed on eight security 
goals for the partnership to pursue above and beyond existing 
regulation:
Awareness
  <bullet> Goal 1.--Establish permanent and robust collaboration and 
        communication among all stakeholders having security and 
        emergency response responsibilities for the Nuclear Sector.
  <bullet> Goal 2.--Obtain information related to other CIKR assets' 
        dependencies and interdependencies with the Nuclear Sector and 
        share it with sector security partners.
  <bullet> Goal 3.--Increase public awareness of sector protective 
        measures, consequences, and proper actions following a release 
        of radioactive material.
Prevention
  <bullet> Goal 4.--Improve security, tracking, and detection of 
        nuclear and radioactive material in order to prevent it from 
        being used for malevolent purposes.
  <bullet> Goal 5.--Coordinate with Federal, State, and local law 
        enforcement agencies to develop protective measures and tactics 
        to deter, detect, and prevent terrorist attacks on nuclear 
        facilities and other Nuclear Sector assets.
Protection, Response, and Recovery
  <bullet> Goal 6.--Protect against exploitation of the Nuclear 
        Sector's cyber assets, systems, networks, and the functions 
        they support.
  <bullet> Goal 7.--Use a risk-informed approach that includes security 
        considerations to make budgeting, funding, and grant decisions 
        on all identified potential protection and emergency response 
        enhancements.
  <bullet> Goal 8.--Enhance the ability of Federal, State, territorial, 
        local, and Tribal governments and the private sector to 
        effectively respond to nuclear and radiological emergencies 
        that result from terrorist attacks, natural disasters, or other 
        incidents.
    DHS formed three Sub-councils within the NIPP Framework, meeting 
under the CIPAC, which are the Cyber, Research and Test Reactor, and 
Radioisotopes Sub-councils. I would like to take the opportunity to 
highlight a few examples of the public-private partnership under the 
NIPP.
Comprehensive Reviews
    Comprehensive Reviews (CRs) were security assessments conducted at 
all 65 nuclear power sites between May 2005 and September 2007, with 
the Final Integrated Protective Measures Analysis Report issued in 
March 2008. The process provided a vehicle for discussion with 
stakeholders on potential enhancements to security in and around the 
sites. This framework assisted in reducing vulnerabilities, 
implementing appropriate protective measures, and mitigating the 
potential consequences of a successful attack. The Office of 
Infrastructure Protection's Protective Security Coordination Division 
and the SSA EMO led the CR teams, which included representation from 
Federal agencies such as the U.S. Coast Guard (which participated in 
the 49 CRs that had a water nexus), Federal Emergency Management Agency 
(FEMA), FBI, Transportation Security Administration, DHS National Cyber 
Security Division, and NRC. The Federal teams worked cooperatively with 
the State Homeland Security Advisor; State, county, and local emergency 
managers and planners and emergency response agencies; and private 
representatives and associations. Following each visit, the CR team 
analyzed the information and shared it with appropriate stakeholders, 
which included Federal agencies, State and local law enforcement, 
emergency management organizations, and facility owners and operators.
Comprehensive Review Outcomes Working Network
    The Comprehensive Review Outcomes Working Network (CROWN) project 
was established to systematically follow up on the approximately 1,800 
potential enhancements identified during Nuclear Sector CRs. The 
process has resulted in tangible security improvements and has also 
enabled the Nuclear Sector partners to cultivate and sustain strong 
working relationships with the Office for Bombing Prevention, the 
Office of Emergency Communications, the Office of Interoperability and 
Capability, and FEMA's National Integration Center.
Research and Test Reactor Security Enhancement Project
    The Research of Test Reactor (RTR) Security Enhancement Project is 
a voluntary, cooperative initiative at the request of the RTR community 
to explore opportunities to perform security upgrades at RTR 
facilities. Physical security enhancements have been completed at the 
Universities of Missouri--Columbia and Oregon State nuclear research 
and test reactors. The security enhancement program originated in the 
NSCC and was implemented through partnership among the NRC, NNSA, DHS, 
and the RTR community. Improvements include installing new alarm 
communication systems, displays with closed-circuit television 
recording capability, airlock door enhancements, and hardened entry 
gates and access points. Due to the success of these first two pilot 
projects, the program will be expanded to include approximately eight 
additional facilities.
Blood Irradiator In-Device Delay Program
    The Blood Irradiator In-Device Delay (IDD) Program is an initiative 
to significantly increase the time needed for unauthorized removal of 
the radioactive source from blood irradiators, which represent 
significant sources of radioactive material. The scope of this 
initiative includes 843 of an estimated 1,000 cesium irradiators in the 
United States, with NNSA overseeing the IDD effort for all three major 
irradiator manufacturers (Best Theratronics, Ltd. (BTL)--GC40, GC1000, 
GC3000; Pharmalucence/CIS--IBL 437; and JL Shepherd & Associates 
(JLSA)--JL Mark 1). This initiative has been endorsed by the 
Organization of Agreement States, NRC, and DHS. National implementation 
of the IDD Program is presently under way. As of June 2009, 25 kits 
have been installed, with installations for existing devices projected 
through 2016. New blood irradiators will have the security enhancements 
installed at the factory before customer delivery.
    The Radioisotopes Sub-council specifically addresses radioactive 
source security concerns by developing and recommending policies, 
strategies, plans, and measures to enhance the physical security and 
emergency preparedness of the Nation's radioisotope sector. The 
Radioisotopes Sub-council focuses in particular on identifying and 
recommending measures to prevent radioisotopes of concern from being 
stolen, diverted, and used in Radiological Dispersal Devices, Radiation 
Exposure Devices, or for other malicious purposes. At the request of 
the NSCC Chair, the NGCC held a Radioactive Source Security Workshop 
Sept. 16-17, 2008, to prioritize and identify areas on which to focus 
the energy and resources of the Radioisotopes Sub-council. The 
facilitated workshop included over 50 public and private-sector 
attendees. Workshop participants identified three source security 
issues which warranted further examination:
    1. Potential national security concerns presented by the lack of 
        commercial disposition options for sealed radiation sources 
        (e.g., radiography sources).
    2. The capacity for existing commercially available off-the-shelf 
        technologies to physically track conveyances, packages, and 
        sources during transport.
    3. Reconciliation of the myriad, and sometimes confusing, relevant 
        regulatory authorities and associated security regulations 
        integral to the transport, transportation, and transshipment of 
        Category 1 and 2 sources as defined by the International Atomic 
        Energy Agency.
    Federal and State officials are now working through the 
Radioisotopes Sub-council and its private-sector equivalent to better 
understand the scope and scale of these issues. As a result, three 
Focus Groups have been created to address these three issues.
    The Removal and Disposal of Disused Sources Focus Group identifies 
removal and disposition options for disused sources. Currently, the 
limited number of commercial disposal pathways and recycling options 
could lead to sites stockpiling disused sources. The Focus Group will 
develop a concise message on the potential national security concern 
caused by the lack of commercial disposition options for disused sealed 
sources and investigate immediate and long-term options to address the 
concern (e.g., incentives to open commercial facilities to waste not 
generated within the boundaries of their waste compacts and incentives 
for consolidated interim storage) by October 2009.
    The Tracking of Radioactive Sources Focus Group compiles technical 
specifications of commercially available passive and active tracking 
systems and subsequently evaluates the identified technology relevant 
to its capability for tracking conveyances, packages, or sources. The 
Focus Group will culminate its initial efforts with a position paper by 
November 2009 on the pros, cons, and cost-effectiveness of each 
identified technology.
    The Transportation of Radioactive Sources Focus Group identifies 
relevant regulatory authorities and associated transportation security 
regulations to reconcile and analyze the overlaps, gaps, and potential 
inconsistencies in those Federal transportation security regulations. 
Additionally, this Focus Group will seek to establish an inter-
governmentally approved definition for transit and transshipment, to 
include an action plan with a set of recommendations for addressing any 
regulatory gaps and/or inconsistencies by December 2009.
    The Nuclear SSA, in close coordination with its Federal partners, 
maintains and regularly updates a matrix of Federal programs and 
initiatives to promote the security of radiation sources. The ``Source 
Security Matrix'' tracks dozens of Federal programs and initiatives to 
address the risk that domestic U.S. radioactive sources poses; it is 
updated monthly, issued quarterly, and remains a continuing agenda item 
at the Nuclear Sector's quarterly meeting. The purpose of this matrix 
is to help reduce duplication of effort, maximize the use of limited 
Federal resources, and identify gaps in Federal activities.
    In addition to the efforts described above, DHS' Domestic Nuclear 
Detection Office (DNDO) is actively engaged in a myriad of initiatives 
with the Nuclear Sector. The Mission of DNDO is to improve the Nation's 
capability to detect and report unauthorized attempts to import, 
possess, store, develop, or transport nuclear or radiological material 
for use against the United States.
    DNDO addresses source security through its Securing the Cities 
Initiative, which designs and implements architecture for coordinated 
and integrated preventative detection and interdiction of illicit 
radiological materials that may be used as a weapon within a high-risk 
urban area. The New York City (NYC) Tri-State Region Source Security 
Subgroup, chartered as part of the NYC Securing The Cities pilot 
effort, is focused on developing an effective, risk-based approach to 
increase the security of industrial and medical sources in NYC and the 
surrounding areas of New York, New Jersey, and Connecticut. The sub-
group is:
  <bullet> Developing a best practices in source security report;
  <bullet> Performing security reviews of high-risk materials 
        licensees; and
  <bullet> Evaluating the current notification and tracking system for 
        the movement of sources in the NYC Tri-State area.
    DNDO also chaired the Public Education Subgroup as part of the NRC-
chaired Radiation Source Security and Protection Task Force to enhance 
the general knowledge of the public concerning Radioactive Dispersal 
Devices (RDDs). The subgroup developed an action plan that, when 
implemented across the Nation, will raise public awareness of the 
effects of an RDD. It is hoped that this increased public awareness 
will lower the public panic in response to an actual or perceived RDD 
event. By mitigating fear and panic of RDDs, it is hoped that either 
RDDs will become a less attractive weapon of choice for terrorists, or, 
in the case of an RDD attack, will limit social and economic damage due 
to an informed public response.
    DNDO's Small Business Innovative Research Program (SBIR), 
implemented in coordination with the DHS Homeland Security Advanced 
Research Projects Agency, is an effort to promote the design and 
production of non-nuclear alternatives for industrial devices that use 
radioactive sources. This program gives seed money to companies who 
have shown promising designs through a Nation-wide competition. 
Currently, DNDO has three SBIR contracts.
    DNDO's State and Local Stakeholder Working Group supports non-
Federal members of the preventative radiological and nuclear detection 
(PRND) community. DNDO has developed a PRND Program Management 
Handbook, and over 7,400 law enforcement, first responder personnel, 
and public officials have completed the agency's five-course training 
curriculum.
    In an effort to share information on source security issues of 
mutual interest, DHS, NRC, and NNSA participate in what is known as 
Tri-Lateral Meetings. Tri-Lateral Meetings seek to:
  <bullet> Discuss issues of mutual interest to participating agencies 
        regarding radiological and nuclear material;
  <bullet> Avoid or minimize surprises about other agencies' 
        activities;
  <bullet> Develop an efficient and effective path forward to enhance 
        efforts on source security; and
  <bullet> Speak with one Federal voice, especially for Congressional 
        and media inquiries.
    The Tri-lateral Meetings are held on a quarterly basis, for 2 
hours, to share information and discuss agency programs on radiological 
source security and preparedness matters. The Tri-Lateral Meetings 
provide an informal information-sharing forum for DHS, NNSA and the NRC 
to synchronize radiological source security efforts that are not 
already covered through other established public-private and inter-
agency auspices (e.g., NGCC/CIPAC, Radiation Source Protection and 
Security Task Force). Both DNDO and Infrastructure Protection represent 
DHS at the Tri-Lateral Meetings, where each participating agency 
alternates chairing and coordinating the periodic meetings to include 
logistics and agenda development.
    In closing, the Office of Infrastructure Protection works closely 
with its Federal, State, local, territorial, and Tribal and private-
sector partners within the Nuclear Sector to ensure the protection and 
resiliency of the sector. I would be glad to respond to any questions 
the subcommittee may have.

    Ms. Clarke. Thank you, Mr. Conklin.
    Mr. Sheely.

    STATEMENT OF KENNETH SHEELY, ASSOCIATE ASSISTANT DEPUTY 
  ADMINISTRATOR FOR GLOBAL THREAT REDUCTION, NATIONAL NUCLEAR 
         SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Sheely. Yes, hi. My name is Ken Sheely, from the U.S. 
Department of Energy's National Nuclear Security 
Administration.
    Chairwoman Clarke and Members of the subcommittee, thank 
you for giving me this opportunity to testify today on the role 
that the NNSA Global Threat Reduction Initiative plays in 
improving security on high-risk radioactive sources.
    The GTRI mission is to reduce and protect vulnerable 
nuclear and radiological material located at civilian sites 
world-wide. To achieve this mission, GTRI is working in over 
100 countries to convert, remove, and protect nuclear and 
radiological materials. For today's hearing, I will focus my 
remarks on our efforts to enhance security of radioactive 
sources in the United States.
    To better understand the potential RDD risk, GTRI has 
completed three studies: One on the economic impacts of an RDD; 
one to determine the isotopes of concern in the threshold 
quantities of an RDD of national significance; and the third, 
co-sponsored with DNDO, to look at the vulnerabilities of 
cesium chloride irradiators.
    These findings, coupled with the open environments of 
hospitals and universities, make the security at these 
facilities challenging. To address these challenges, GTRI and 
the DOE laboratories provide technical expertised based on 
implementing security best practices at over 600 buildings 
world-wide.
    The GTRI voluntary secure enhancements complement and do 
not replace NRC's increased controls. In fact, NRC has issued 
regulatory information summaries to their licensees describing 
and endorsing GTRI's efforts. GTRI has also been endorsed by 
DHS, FBI, and the Agreement States.
    The first element of GTRI's voluntary security efforts are 
source recoveries. Since 1997, GTRI's Offsite Source Recovery 
Project has removed more than 22,000 unwanted sources, 
totalling more than 700,000 curies in the United States.
    The second component of GTRI's security efforts are delay 
enhancements. For example, as a result of the cesium chloride 
irradiator vulnerability study, GTRI, DNDO, and NRC, along with 
manufacturers, developed the in-device delay hardening kits. In 
August 2008, a pilot program was launched, and the first 
volunteers included the sites in New York, New Jersey, and 
Pennsylvania. In May 2009, DNDO transferred their portion of 
the project to GTRI in order to consolidate all activities 
under one Federal agency for national implementation since many 
of these sites have irradiators from more than one of the three 
vendors. To date, kits have been installed on 32 irradiators. 
In addition, the vendors have agreed that new kits coming off 
the production line will have the kits already installed.
    In addition to these hardening kits, GTRI enhancements also 
include other delay devices, such as tie-downs, locks, and 
hardened doors.
    Another component is detection, and the most important 
element of GTRI's detection features is remote monitoring. This 
is because, at many hospitals and universities, the alarms 
would be handled by 9-1-1 operators who would have lesser 
understanding of why a cesium irradiator warrants an emergency 
response. GTRI's remote monitoring addresses this by 
simultaneously sending prioritized alarms directly to multiple 
locations, such as the local law enforcement, to ensure timely 
response.
    GTRI security upgrades also include response training. GTRI 
has developed a unique training course to provide local law 
enforcement with hands-on training in a realistic setting with 
actual radioactive sources. To date, we have conducted over six 
training courses for 175 responders.
    As a capstone to our support, NNSA has partnered with the 
FBI to provide tabletop exercises. The purpose of these 
exercises is to provide a no-fault site-specific scenario to 
promote team building and to prepare integrated response plans 
with Federal, State, local, and private-sector partners. To 
date, four tabletop exercises have been conducted.
    The ultimate risk reduction would be to replace radioactive 
sources with nonradioactive alternatives. NNSA is currently 
funding research into technologies such as X-rays for blood 
irradiation.
    Through our security efforts world-wide, we have learned 
several important lessons. Paramount among them is that a well-
trained, well-equipped, and timely response is one of the most 
important elements in ensuring security. That is why GTRI has 
concentrated the majority of our voluntary security 
enhancements on helping these dedicated first responders, from 
our remote monitoring systems which ensure they receive timely 
alarms, to the realistic training which ensures they are 
prepared. In addition, GTRI serves as a conduit to share 
lessons learned from site to site, city to city, and State to 
State.
    In closing, I am proud to report that GTRI, working in 
concert with our Federal, State, local, and private-sector 
partners, has helped to further enhance the security of 
radioactive sources.
    [The statement of Mr. Sheely follows:]
                  Prepared Statement of Kenneth Sheely
                           September 14, 2009
                            i. introduction
    Chairwoman Clarke, Ranking Member Lungren and Members of the 
subcommittee, thank you for giving me the opportunity to testify on the 
role that the National Nuclear Security Administration's (NNSA) Global 
Threat Reduction Initiative (GTRI) plays in further improving the 
security on high-risk radioactive sources. GTRI's mission is to reduce 
and protect vulnerable nuclear and radiological materials located at 
civilian sites world-wide. These efforts are focused on the first line 
of defense, namely securing or removing vulnerable nuclear and 
radiological material at their source. GTRI has three goals that 
provide a comprehensive approach to achieving its mission and denying 
terrorists access to nuclear and radiological materials:
    1. CONVERT research reactors and isotope production facilities from 
        the use of highly enriched uranium (HEU) to low enriched 
        uranium (LEU);
    2. REMOVE and dispose of excess nuclear and radiological materials;
    3. PROTECT high-priority nuclear and radiological material from 
        theft and sabotage.
    To achieve its mission, GTRI is working in over 100 countries. For 
today's hearing I will focus my remarks on GTRI's efforts that are 
aimed at further enhancing the security of radioactive sources located 
in the United States that could potentially be used in a radiological 
dispersal device (RDD) or ``dirty bomb.'' I will begin by describing 
our approach to defining and prioritizing the risks from radiological 
materials. From there I will describe the programs GTRI is leading to 
mitigate these risks, our efforts to coordinate with Federal, State, 
and local agencies and the private sector, and lessons we have learned 
to improve radiological security.
                         ii. radiological risks
    The attacks of September 11, 2001, heightened the Nation's concerns 
regarding the potential use of radioactive materials in a terrorist 
act. The possibility of such an attack has been of particular concern 
because of the widespread use and availability of radioactive materials 
in the United States and abroad by industry, hospitals, and academic 
institutions. Loss or theft of such materials, in risk-significant 
quantities, could lead to their diversion for malicious use in an RDD.
    An RDD is a device or mechanism that is intended to spread 
radioactive material from the detonation of conventional explosives or 
other means. An RDD detonation would likely result in a few deaths 
(mainly from the explosion), but significant social and economic 
impacts could result from public panic, decontamination costs, and 
denial of access to the area for extended periods of time.
    To better understand the potential consequences of malevolent use 
of radiological materials, the specific isotopes of concern, and the 
vulnerabilities of devices using these materials, GTRI commissioned 
three key studies to examine these issues in depth. These studies 
formed the basis for GTRI's voluntary security enhancement efforts and 
have been shared with our Federal partners.
II.A Economic Impacts
    GTRI commissioned an economic impact study to better understand the 
likely economic disruption were an RDD to be detonated in a major 
metropolitan area. A joint study by Los Alamos National Laboratory and 
Sandia National Laboratory prepared for GTRI modeled the impacts of 
four specific radioactive sources in amounts normally found in devices 
commonly used in their respective industry. Even without weaponization 
of the radioactive materials or optimization of the device the study 
found that the economic cost to the Nation could be in the billions of 
dollars.\1\ Costs included evacuation, relocation, clean-up, and lost 
wages.
---------------------------------------------------------------------------
    \1\ Economic Impacts of Detonating Radiological Dispersion Devices, 
Los Alamos National Laboratory, February 15, 2008, LA-CP-08-00973.
---------------------------------------------------------------------------
II.B Material of Concern
    Although any amount of radioactive material could cause public 
panic, GTRI's focus is on radiation sources that could be used by a 
terrorist to cause a significant impact. A second GTRI study tasked 
Sandia National Laboratories with developing a down-selection 
methodology that used a rigorous and reproducible process to identify, 
prioritize, and determine threshold quantities of radioactive materials 
that could be used in a RDD of national significance.
    This ``down-selection study'' \2\ began by examining the 
comprehensive list of nuclides to ensure all were considered. The first 
step was to eliminate all stable, i.e., nonradioactive, nuclides. The 
list was then culled according to half-life and specific activity. 
Shorter-lived nuclides likely would not be effectively used in an RDD 
because they would decay away too quickly. Nuclides with half-lives 
greater than 100,000 years were also not of concern because the mass of 
material required for a significant RDD would be excessively large, 
making use and dispersion of these materials very difficult. The final 
step was to identify radionuclides that are commercially available to 
end-users world-wide or may be available in bulk quantities to a 
limited number of suppliers and manufacturers in quantities greater 
than 0.1 curie (alpha emitters) and 1 curie (beta/gamma emitters). The 
final result was 14 radionuclides and spent fuel that GTRI determined 
could be used to make a significant RDD and were candidates for 
voluntary security enhancements.
---------------------------------------------------------------------------
    \2\ Radioactive Material Downselection and Source Prioritization 
Methodology, Sandia National Laboratory, November 21, 2008.
---------------------------------------------------------------------------
    The 14 radionuclides documented in the down-selection report 
include isotopes in wide commercial and medical use in the United 
States. The GTRI-funded study was subsequently used by the Radiation 
Source Protection and Security Task Force, Chaired by the Nuclear 
Regulatory Commission (NRC), to develop the interagency cleared report 
of July 8, 2009, Reevaluation of the List of Radioactive Sources That 
Warrant Enhanced Security and Protection and Quantities of Radioactive 
Material Sufficient to Create a Significant Radiological Dispersal 
Device or Radiation Exposure Device. In addition, a study by the 
National Academy of Sciences identified Cesium Chloride (CsCl) as 
posing a greater concern than the other radionuclides because it is 
widely used in significant quantities and is soluble and 
dispersible.\3\
---------------------------------------------------------------------------
    \3\ Radiation Source Use and Replacement, National Academy of 
Sciences (February 20, 2008).
---------------------------------------------------------------------------
II.C Cesium Irradiator Vulnerabilities
    The third study sponsored by GTRI and co-sponsored by the 
Department of Homeland Security (DHS) Domestic Nuclear Detection Office 
(DNDO) and conducted by Sandia National Laboratory and the Southwest 
Research Institute looked at the specific vulnerabilities to devices 
commonly found in research and medical settings. These include blood 
and research irradiators which use Cs-137 and gamma knifes which use 
Co-60. These reviews improved our understanding of device vulnerability 
to theft or sabotage in the absence of any NRC security-increased 
controls or GTRI voluntary security enhancements.
    The key finding of this study was that the radioactive sources 
within self-shielded cesium irradiators could be extracted more quickly 
than initially thought. GTRI, DNDO, and NRC agreed that adding 
additional hardening to cesium irradiators was prudent. This study led 
to the cesium chloride In-Device Delay (IDD) effort that will be 
described in section III.B below.
II.D Multiple Open Sites
    Radiological sources are located at thousands of civilian sites 
across the United States and around the world. Medical, university, and 
research facilities are, by nature and design, ``open'' environments 
that allow a larger set of people access to these materials. These 
types of facilities are more difficult to secure than isolated military 
installations or nuclear power plants which are designed to be closed 
to all but a very limited number of personnel.
II.E Insider Threat
    It is important to not focus solely on attacks from outside 
terrorists attempting to penetrate and steal material. GTRI also looked 
at threats from the insider, i.e., someone who works at a facility and 
likely has intimate knowledge of security procedures and 
vulnerabilities. The possibility and probability of a passive insider, 
e.g., one who simply arranges access to the facility for the adversary, 
or an active insider, one who participates in the theft, diversion, or 
sabotage of radiological material, is greater given the ``open'' 
environment of a university campus or city hospital in which many 
radiological devices are used.
                iii. gtri's role in mitigation of risks
    GTRI works very closely with its Federal partners, each of which 
has a unique role ensuring a comprehensive system of oversight, 
prevention, and protection of civilian radiological sources. DHS's 
mission is to prevent terrorist attacks within the United States; 
reduce the vulnerability of the United States to terrorism; and, 
minimize the damage, and assist in the recovery, from any terrorist 
attacks that do occur within the United States across multiple sectors 
(e.g. nuclear, chemical, etc.), leading the Government Coordinating 
Council(s) (GCC) and collaborating with the industry-led Sector 
Coordinating Council(s) (SCC) to protect critical infrastructure and 
key resources. NRC's mission is to license and regulate the Nation's 
civilian use of by-product, source, and special nuclear materials to 
ensure adequate protection of public health and safety, promote the 
common defense and security, and protect the environment. The Federal 
Bureau of Investigation (FBI) is the lead Federal law enforcement 
agency and plays a significant role preventing, interdicting, and 
investigating potential acts of nuclear and radioactive theft, 
sabotage, or terrorism. NNSA brings the science and expertise of our 
National Laboratories to create innovative solutions to prevent the 
acquisition of nuclear and radiological materials for use in weapons of 
mass destruction (WMD) and other acts of terrorism. Specifically, GTRI 
and the DOE laboratories provide unique expertise to evaluate 
radiological issues and threats because of our significant work both 
internationally and domestically which allows us to identify ``best 
practices'' available in each circumstance.
    To address the risks outlined above, GTRI, in cooperation with its 
Federal partners, has initiated a number of voluntary security efforts 
to further mitigate these potential threats. These include eliminating 
unwanted sources, hardening kits for specific irradiators, facility-
wide voluntary security enhancements, specialized training courses for 
security and law enforcement personnel, and table top exercises for 
first responders. GTRI's voluntary security enhancements complement and 
do not replace NRC's increased controls requirements. When requested by 
the licensee, GTRI works to assess existing security conditions, 
provide recommendations on security enhancements, and when warranted, 
fund the procurement and installation of jointly agreed-upon security 
best practices. GTRI considers all 14 isotopes of concern above 
threshold quantities (10 Ci or greater), and addresses several areas of 
security including Deterrence, Control, Detection, Delay, Response, and 
Sustainability.
    GTRI's voluntary security enhancement efforts have been endorsed by 
the NRC, DHS, FBI, Organization of Agreement States (OAS), and 
Conference of Radiation Control Program Directors, Inc. (CRCPD). NRC 
has issued Regulatory Information Summaries (RIS) describing both the 
IDD and voluntary security enhancement efforts of GTRI and recommends 
that licensees volunteer for these GTRI efforts.\4\
---------------------------------------------------------------------------
    \4\ RIS 2008-17, July 18, 2008, ``Voluntary Security Enhancements 
for Self-Contained Irradiators Containing Cesium Chloride Sources'', 
and RIS 2008-23, October 3, 2008, ``The Global Threat Reduction 
Initiative (GTRI) Domestic Threat Reduction Program & Federally Funded 
Voluntary Security Enhancements For High-Risk Radiological Material''.
---------------------------------------------------------------------------
III.A Elimination--Removing Unwanted Sources
    Since 1997 GTRI's Off-Site Source Recovery Project (OSRP) operated 
by Los Alamos National Laboratory, Idaho National Laboratory and the 
CRCPD has reduced the radiological risk by recovering and eliminating 
disused and unwanted sealed sources. GTRI, in coordination with NRC, 
developed recovery prioritization criteria based on risk reduction. As 
of August 31, 2009, GTRI has recovered over 22,700 sources (totaling 
more than 720,000 curies) in 12 years.
    At present, only 14 States in the United States have access to 
commercial disposal for sealed sources (with the exception of Ra-226 
sources which have a commercial disposal pathway in all 50 States). 
With the decline in commercial disposal options, GTRI has seen an 
increase in the number of sources being registered as excess and 
unwanted. GTRI has found that without disposal access, source owners 
have no option other than long-term storage, which increases the 
vulnerability of becoming lost or forgotten.
III.B Delay--CsCl Irradiator In-Device Delay (IDD)
    A fundamental component of GTRI's voluntary security enhancements 
is delay. By increasing delay (the amount of time needed by the 
adversary to gain access to the radioactive sources) we give more time 
for law enforcement to interrupt the adversary before they can steal 
the radioactive source. As a result of the GTRI/DNDO cesium irradiator 
vulnerability study, NNSA, DNDO, and NRC along with cesium irradiator 
manufacturers developed In-Device Delay (IDD) hardening kits for the 
most widely used models of CsCl blood and research irradiators. The IDD 
kits make it orders of magnitude more difficult for an adversary to 
illicitly access and steal the radiological source.
    In cooperation with the three principal manufactures (Best 
Theratronics, LTD., JL Shepherd and Associates, Pharmalucence) and the 
NRC, GTRI, and DNDO developed these kits and in August 2008 launched a 
voluntary pilot program to install them. Some of the first sites to 
volunteer for the IDD kits included New York's Sloan-Kettering 
Institute for Cancer Research, Mt. Sinai School of Medicine, St. 
Vincent's Hospital and Medical Center, University of Pennsylvania, 
University of Rutgers, Wake Forest University, Baylor College of 
Medicine, University of Miami--Miller School of Medicine, and Geisinger 
Health System.
    The installation of these kits is often carried out in extremely 
sensitive and very busy research and hospital environments. This 
requires the installers to use special measures (e.g. sound dampening, 
exhaust and fume hoods, etc.) and that coordinate installation 
schedules in order to minimize the impact on these facilities. 
Installations generally take 8 to 16 hours depending on the type of 
device, and are usually scheduled during evening hours to minimize the 
impact on research or medical operations. In May 2009, DNDO transferred 
their portion of the IDD project to GTRI in order to streamline the IDD 
effort and consolidate all relevant voluntary source security 
activities under one Federal agency (many licensees have irradiators 
from more than one manufacturer at their site). This transfer of scope 
has allowed GTRI to standardize processes and procedures across all 
three manufacturers, and ensures that the project is coordinated with 
other GTRI source security efforts. The pilot project has been deemed a 
success and GTRI has initiated a national rollout plan to outfit all 
qualifying irradiators in the United States.
    The total number of cesium devices in the United States is about 
1,100. Nearly 260 of these devices are small calibration units or self-
contained irradiators located at nuclear power plants or other secure 
locations. The remaining 840 devices are self-contained irradiators 
located at universities, hospitals, and research institutes. Each one 
of these 840 CsCl irradiators has enough material that could be used in 
several RDDs of national significance.
    As of August 31, 2009 IDD kits have been installed on 32 
irradiators. The remaining 808 irradiators can be hardened by fiscal 
year 2016. The implementation schedule is primarily constrained by 
human resource needs, scheduling complexities, and budget. Each 
manufacturer has a limited staff of trained employees that are approved 
to work on these devices. Locating, hiring, and training additional 
staff to supplement this effort is a lengthy process. Scheduling the 
installations is also a rate-limiting factor. Critical research 
schedules and blood bank operations cannot be disrupted. Simply finding 
a time when both manufacturer and facility can accommodate the 
installation adds time to the process. Each kit costs between $4,000-
$8,000 in hardware and about $25,000 in installation labor and travel. 
The total estimated cost for 840 irradiators is $26 million. In 
addition, the manufacturers have agreed that starting in 2010 all new 
CsCl irradiators will have the IDD kits installed prior to sale and 
delivery.
    In addition to the IDD hardening kits for CsCl irradiators, GTRI 
voluntary security enhancements also include other delay elements such 
as device tie-downs, locks, hardened doors/windows, walls, cages, and 
safes. All of these elements increase the time it takes the adversary 
to gain access to and steal the radioactive source.
III.C Detection--Remote Monitoring Systems (RMS)
    A second fundamental component of GTRI's voluntary security 
enhancements is detection. Thirty minutes of delay with detection that 
allows responders to arrive in 20 minutes is considered to be 
effective. Thirty minutes of delay without detection that could allow 
the adversary to attack the source/device all weekend is considered to 
be not effective.
    GTRI detection upgrades include biometric access control devices, 
door alarms, motion sensors, cameras, wireless electronic tamper 
indicating seals, and area radiation monitors. Each of these 
technologies provides a specific deterrence, control, and/or detection 
function that, when integrated together and with delay, provides a 
significant security enhancement in a holistic manner.
    However, the most important feature of GTRI's detection 
enhancements is the remote monitoring system. This is because the 
remote monitoring system directly mitigates the two greatest 
vulnerabilities in securing an open civilian facility like a hospital 
or university: Which are (1) reliable transmission of alarms to the 
responders and (2) the insider threat.
    Reliable transmission of alarms to the responders.--At military 
facilities and nuclear power plans, there are highly-trained operators 
who are located in hardened central alarm stations (CAS) who monitor 
the detection devices 24/7. These detection alarms are hardwired into 
the CAS and if an alarm goes off or the power is turned off, there is 
nearly 100 percent probability that the CAS operator will receive the 
alarm and immediately notify the large, well-trained, well-armed on-
site response team as to the exact location and condition causing the 
alarm. In comparison, at many hospitals or universities, the alarms are 
not monitored by well-trained CAS operators sitting in a secure 
location. The alarms are instead sent to normal facility employees or 
unarmed guards on-site. Assuming the adversary hasn't already 
neutralized these lightly-armed on-site personnel, the emergency call 
will be handled by a 9-1-1 operator who will have little understanding 
of what an irradiator is or why cesium warrants an emergency response. 
The chances that a large, well-trained, well-armed off-site response 
will arrive in time from local law enforce under these conditions is 
greatly reduced due to the limited amount of reliable transmission of 
alarms.
    Insider threat.--The greatest potential threat at hospitals and 
universities is that an insider could be the guard or employee who is 
on duty during off-hours an merely turns off or ignores the alarms. No 
one will know the source is gone until the next shift begins perhaps 12 
hours or more later.
    The GTRI remote monitoring system directly mitigates both of these 
threats by:
  <bullet> Integrating alarms from multiple detection sensors and 
        prioritizing alarms to ensure that critical alarms receive 
        immediate attention even if the operator is not an expert in 
        alarm assessment. The GTRI remote monitoring system includes 
        statement of health and power level reports so external 
        responders know immediately if the system is turned off.
  <bullet> Alarms are simultaneously sent to multiple on-site and off-
        site locations such as ADT, local police departments, or 
        regional fusion/operation centers. This ensures a timely 
        response by sending a reliable transmission of alarms directly 
        to trained off-site experts and responders. It also prevents 
        against a single-point failure if the insider is the on-site 
        alarm monitor or guard.
    To address the sustainability portion of our security enhancement 
concept, GTRI provides a 3- to 5-year maintenance and warranty contract 
for each security enhancement device, contacts each site quarterly to 
follow-up on the status of the enhanced security system, and re-visits 
each site annually to determine if changes to the operating or threat 
environment warrant additional system enhancements.
    GTRI prioritizes which sites receive voluntary security 
enhancements by assessing the attractiveness of the site's materials 
for possible use in an RDD, the site's proximity to DHS Urban Area 
Security Initiative (UASI) locations, and the site's proximity to other 
volunteer sites. GTRI estimates that there are about 2,200 buildings in 
the United States that house IAEA Category I or II levels of 
radiological materials. As of August 31, 2009, 37 buildings have been 
completed with the remaining buildings to be complete by fiscal year 
2016.
    GTRI also provide responders with radios, repeaters, and personal 
detection devices.
III.D Response--Alarm Response Training
    The most important aspect of any security system is a timely, well-
equipped, well-trained response team of appropriate size to interrupt 
and neutralize the adversary before they gain access to the radioactive 
source. GTRI has therefore made a focused effort to provide security 
personnel and local law enforcement with the tools and training needed 
to adequately respond to a security incident.
    Most on-site guards at facilities with radioactive sources are not 
armed or large enough force strength to neutralize the threat. 
Therefore, the key responders are often off-site local law enforcement. 
Unfortunately, many local law enforcement officials are not made aware 
of the nature of the material which is in use at hospitals, blood 
banks, universities, oil fields, and manufacturing plants in their 
jurisdiction. It is important for their safety, and the safety of their 
communities, that they receive proper training about radiological 
sources. To ensure that both on-site and off-site responders understand 
how to respond to enhanced security system alarms, GTRI has developed 
an alarm response training course run by the Y-12 National Security 
Complex in Oak Ridge, TN.
    This alarm response training prepares responders to protect 
themselves and the public when responding to events involving 
radiological materials. The participants conduct hands-on training in a 
realistic setting using actual protection equipment and real 
radioactive sources. The courses include operational exercise scenarios 
that build on classroom instructions and allow response forces to 
exercise their own procedures during realistic alarm scenarios.
    As of August 31, 2009 we have conducted 6 training courses for 175 
responders from 7 cities.
III.E Table Top Exercises (TTX)
    As the capstone of GTRI's voluntary security enhancement support, 
GTRI has partnered with NNSA's Office of the Under Secretary for 
Counterterrorism and the FBI's Weapons of Mass Destruction Directorate 
to provide table top exercises at select nuclear and radiological 
sites. The purpose is to provide a no-fault, site-specific scenario 
where senior managers from various Federal, State, and municipal 
organizations can exercise their crisis management and consequence 
management skills in response to a terrorist incident. The overall 
objectives are:
  <bullet> Promote cross-sector communication, cooperation, and team-
        building among Federal, State, local, and private sector first 
        responders;
  <bullet> Exercise FBI lead responsibility for criminal investigation;
  <bullet> Examine newly developed tactics, techniques, and procedures 
        resulting from GTRI voluntary security enhancements;
  <bullet> Promote attack prevention through intelligence sharing and 
        coordinated approach to neutralize the threat;
  <bullet> Prepare site-specific integrated response plan with Federal, 
        State, local, and private sector partners.
    As of August 31, 2009 we have conducted 3 TTXs at facilities 
located in Honolulu, HI, Philadelphia, PA, and Manhattan, KS. A fourth 
TTX was recently completed in Houston, TX in early September.
III.F Transportation
    Radioactive sealed sources may be at their most vulnerable when in 
transit. Recognizing this, GTRI has begun to implement security 
upgrades beyond regulatory requirements on our own source recovery 
shipments. GTRI has undertaken a number of pilot projects testing 
existing security devices/systems and has found that there is not a 
commercially available system that meets all our needs. Therefore, we 
are putting the best available compatible equipment on our vehicles and 
will continue to improve our system as additional technology advances 
are made. Because we are looking for a system(s) that private industry 
can adopt, we are working with the DHS-lead interagency group and 
directly with some in industry to demonstrate a prototype system using 
the best available devices. GTRI is offering industry a test bed to 
evaluate their devices for compatibility and capability to operate in 
the harsh transit environment, (e.g., heat, cold, jarring, etc).
III.G Alternative Technologies
    The ultimate risk reduction would be to replace radioactive sources 
with non-radioactive alternative technologies. NNSA's Office of 
Nonproliferation Research and Development is currently funding research 
into technologies such as is X-ray for blood irradiation, which uses 
electricity to create X-rays and cannot be used in a dirty bomb.
    There have been recommendations to replace some radionuclides, 
particularly cesium chloride, with another form or radionuclide, e.g., 
cesium ceramic or cobalt. Caution must be given to ensure the new form 
will result in enough risk reduction to off-set the cost of developing 
the alternative and retrofitting/replacing current irradiators. GTRI is 
working with Sandia National Laboratories and Federal partners to 
perform a relative material risk reduction study to evaluate the amount 
of risk reduction that may be derived from an alternate form or 
alternate radionuclide to cesium chloride.
                    iv. coordination and cooperation
    In implementing these voluntary security enhancements, GTRI has 
maintained close coordination and cooperation with Federal, State, and 
local agencies and the private sector. In particular, we have 
established strong working relationships with the NRC, DHS, and the 
FBI.
    To coordinate these complementary efforts, GTRI participates 
regularly in meetings of the DHS-chaired Nuclear Sector Government 
Coordinating Council, the NRC-led Radiation Source Protection and 
Security Task Force, Tri-lateral meetings comprised of senior 
representatives from NNSA, DHS, and NRC, and many additional working 
level meetings. These coordination venues have helped ensure that 
officials throughout the Government are aware of new initiatives, on-
going implementation efforts, and challenges encountered with enhancing 
radiological source security.
                             v. conclusion
    I am proud to report that GTRI, working in concert with our 
Federal, State, local, and private sector partners, has helped to 
further enhance security on radioactive sources and reduce the risk of 
a dirty bomb.
V.A Lessons Learned
    Through our security efforts in the United States and overseas, we 
have learned several important lessons, paramount of which is that a 
well-trained, well-equipped, and timely response force is the single 
most important element in ensuring security. All the delay and 
detection in the world does not defeat the ``bad guys''--the response 
team does. Since most non-power plant commercial sites do not have 
armed, 24-hour, on-site security personnel, it is the off-site local 
law enforcement that becomes the defacto 24/7 response to an incident 
of radiological theft or sabotage. Local law enforcement officers are 
not full-time radiological police, they have much broader duties to 
serve and protect the public, and they are not regulated by a Federal 
agency for radiological response effectiveness. It is for these reasons 
that GTRI has concentrated the vast majority of our voluntary security 
enhancements on helping these dedicated first responders. From our 
remote monitoring (which ensures they receive timely alarms and 
knowledge of the threat environment they will face) to personal 
protection equipment (radios and radiation pagers) to the realistic 
training and exercises. In addition, GTRI serves as a conduit to share 
lessons learned because we learn as much from local law enforcement as 
they learn from us. GTRI is able to share these lessons from site to 
site, city to city, and State to State to improve the collective 
security preparedness.
V.B Should Voluntary Efforts Be Mandated?
    One of the most frequent questions we are asked is should these 
voluntary security enhancement be required? And if so when? These are 
very difficult questions to give specific answers to given the myriad 
of complex and interdependent risks that must be considered. For 
example:
  <bullet> Which approach results in the faster implementation of 
        effective security practices and risk reduction?
  <bullet> How flexible will regulations be to take into account 
        different industry sectors and the uniqueness of each site?
  <bullet> How would you regulate local law enforcement or other off-
        site response team?
  <bullet> What will be the cost burden imposed upon licensees and will 
        it impact their ability to provide other critical services?
  <bullet> How sustainable are voluntary upgrades that are not enforced 
        through inspections?
  <bullet> How do we encourage the licensees to ask security questions 
        and push for best practices?
    Our experience has shown that in most cases the fastest, most 
effective, and lasting way to improve security is to: (1) Fully engage 
the private sector, local law enforcement and the States in helping to 
create the appropriate security culture/program, and (2) by combining 
voluntary best practices to quickly and cost-effectively improve 
security at most sites and then follow that up in a few years with a 
new regulation to close the gaps.
    In closing, Madame Chairwoman, thank you for inviting us to 
participate in today's important hearing. The Department of Energy has 
a dedicated team focused on reducing domestic and foreign radiological 
threats. GTRI's voluntary program has had an effective beginning, and 
we believe is well-positioned to bring about comprehensive solutions in 
a timely manner to the potential threat posed by radiological sources 
used in vital civilian applications.

    Ms. Clarke. Thank you very much.
    Mr. Lewis.

 STATEMENT OF ROBERT J. LEWIS, DIRECTOR, DIVISION OF MATERIALS 
    SAFETY AND STATE AGREEMENTS (MSSA), NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Lewis. Good morning. Madame Chairwoman, Members of the 
subcommittee, my name is Robert Lewis, and I am NRC's director 
of Materials Safety and State Agreements. I thank you on behalf 
of the Nuclear Regulatory Commission for holding this hearing 
on the important subject of securing radioactive sources. The 
NRC recognizes the direct role that radioactive source security 
plays in the agency's mission to protect public health, safety, 
and the environment.
    On a personal level, I am a native New Yorker and a 
graduate of the SUNY system, so this venue I thank you for. It 
has particular significance to me.
    I will now highlight some of the regulatory programs and 
recent accomplishments to tighten security of radioactive 
sources. My written testimony provides additional details.
    The focus of Federal and State efforts to put in place 
tighter controls for security has been on radioactive sources 
that contain larger quantities, so-called Category 1 and 2 
quantities, of key radionuclides of concern used in civilian 
applications across America, nuclides such as cobalt-60, 
cesium-137, iridium-192, and americium-241.
    The civilian applications they are used for include food 
and medical equipment sterilization, medical research, cancer 
treatment, oil and gas exploration, and inspecting materials 
for hidden flaws during construction. Nation-wide, there are 
approximately 22,000 materials licensees, 1,300 of which 
possess Category 1 or 2 sources--approximately 1,300.
    In conducting its mission, NRC partners with 36 Agreement 
States that regulate the possession and use of certain 
radioactive material within their States. Under these 
agreements, NRC relinquishes all of its regulatory authority 
over most radioactive materials in the State. However, we do 
work closely with the States to implement consistent and 
compatible National programs.
    In addition, NRC oversees the Agreement State programs 
through periodic performance evaluations. New York is an 
Agreement State, and regulators for source licensing are the 
State health department and the New York City Department of 
Health and Mental Hygiene.
    A key piece of legislation that has enabled regulatory 
enhancements on radioactive material security was the Energy 
Policy Act of 2005. Consistent with that law, NRC and Agreement 
States have employed a variety of tools to strengthen the U.S. 
systems for regulatory controls. I will use the rest of my time 
to highlight four of these: Increased controls in 
fingerprinting; cesium chloride studies; the National Source 
Tracking System; and enhanced interagency communications.
    New security requirements, called increased controls, that 
were already mentioned have been issued in 2005 through 2006 by 
the NRC and the Agreement State regulators. Among other things, 
these require licensees to upgrade facilities and procedures to 
prevent and ensure detection of any unauthorized access to 
radioactive material. They also require advanced coordination 
with local law enforcement on security issues.
    In 2007 to 2008, these controls were supplemented by 
requirements for fingerprinting and Federal criminal history 
background checks of anyone with unescorted access to Category 
1 or 2 quantities of material. Licensees must establish and 
implement trustworthiness and reliability standards for such 
unescorted access.
    A first round of increased controls inspections for 
compliance has been completed by NRC and all the Agreement 
States. The increased controls and fingerprinting requirements 
have been implemented for all Category 1 and 2 quantities of 
radioactive material, including approximately 550 licensees in 
the United States that possess about 1,100 self-contained 
cesium chloride irradiators. These are used to irradiate blood, 
conduct research, and calibrate emergency response radiation 
detection equipment.
    They have long received--cesium chloride has long received 
increased attention from both a safety and security perspective 
because of its dispersible nature. Several studies, most 
recently and notably a 2008 National Academies report on source 
use and replacement, emphasize replacement technologies to be 
considered for cesium chloride, but also caution that any 
implementation consider preserving the essential functions of 
these devices.
    NRC hosted a widely attended workshop in September 2008 to 
obtain input on the use and potential phaseout of cesium 
chloride. From this outreach and its own analysis, NRC 
concluded that near-term replacement of cesium chloride in 
existing blood research and calibration irradiators is not 
practicable and would disproportionately be detrimental to 
medical care, continuity of research, and the provisions for 
emergency response capability.
    NRC believes it is imperative to develop a viable 
alternative technology and a disposal option for these sources 
before considering a phaseout. We are cooperating with the 
National Nuclear Security Administration program in which 
licensees voluntarily receive hardware improvements to the 
irradiators to enhance security beyond requirements.
    The Energy Policy Act also included a provision for the 
National Source Tracking System, a Web-based database to ensure 
and enhance accountability of radioactive sources. Since it was 
deployed in January of this year, all transactions including 
Category 1 and 2 sources have been reported into the system, 
and over 55,000 sources are currently tracked. This greater 
accountability directly strengthens the national security 
framework.
    Finally, I would like to mention that the level of 
interagency coordination on source security issues, from our 
perspective, has never been higher. This is the result of the 
Government-wide Radiation Source Protection and Security Task 
Force, established by the Energy Policy Act and chaired by the 
NRC; the Government coordinating councils that have been 
mentioned by DHS; and the trilateral meetings that have already 
been mentioned.
    That concludes my prepared remarks. Thank you for the 
opportunity to testify today at this hearing, and I look 
forward to responding to your questions.
    [The statement of Mr. Lewis follows:]
                 Prepared Statement of Robert J. Lewis
                           September 14, 2009
    Chairwoman Clarke, Members of the subcommittee, Members of the 
House from the New York City area, I am here today representing the 
Nuclear Regulatory Commission (NRC) staff to provide a status report 
that describes our approach to improving safety and security of 
radioactive sources and our recent accomplishments in this important 
area. Thank you for the opportunity to provide you with an overview of 
the Nation's regulatory programs to tighten security requirements for 
the highest risk radioactive sources.
                               background
    To put the radioactive source security improvement efforts into 
context, it is important to first provide some background on the 2003 
International Atomic Energy Agency (IAEA) Code of Conduct on the Safety 
and Security of Radioactive Sources, which Congress, in the Energy 
Policy Act of 2005, directed NRC to implement. The NRC's program to 
tighten security and controls on the highest risk radioactive sources 
is founded in and consistent with the United States Government's 
commitment to the Code of Conduct. The Code of Conduct identifies 16 
radionuclides of concern, along with a categorization by radioactivity 
levels for each radionuclide, based upon the relative health hazards 
each radionuclide would present if not kept under adequate controls. 
Sources and devices containing Category 1 and 2 quantities of these 
materials are the most dangerous, and have been the focus of Federal 
and State efforts to put in place tighter controls for security. Of the 
16 radionuclides, only four are widely used in civilian applications in 
this country: Cobalt-60, cesium-137, iridium-192, and americium-241. 
Civilian applications include food and medical equipment sterilization, 
medical research, cancer treatment, oil and gas exploration, and 
inspecting materials for hidden flaws.
    NRC has been a world leader in applying the Code of Conduct through 
strengthening the U.S. system of regulatory controls, including: 
Imposing enhanced import/export controls in 2005; requiring users of 
the sources to upgrade their facilities, information controls, and 
control of personnel access to the radioactive sources since 2005; 
establishing and using an Interim Inventory of Nationally Tracked 
Sources since 2004, and upgrading the Interim Inventory via the 
deployment of the National Source Tracking System in 2009. In these 
initiatives, however, NRC coordinates in partnership with the 36 
Agreement States that regulate the possession and use of certain 
radioactive material in their States pursuant to agreements between the 
NRC and the Governor of each State. These agreements are provided for 
by section 274 of the Atomic Energy Act, as amended. Under these 
agreements, NRC relinquishes its regulatory authority over radioactive 
materials in that State; NRC does retain responsibility for nuclear 
reactors, nuclear fuel cycle facilities, as well as for Federal 
facilities' material licensees, such as military and veterans 
hospitals. NRC and the Agreement States work very closely to implement 
consistent and compatible programs for regulating radioactive materials 
safety and security across the country. In addition, NRC provides 
oversight of each Agreement State program through a periodic 
performance evaluation program. New York is an Agreement State, and the 
regulators are the State Health Department and the New York City Health 
Department.
    Nation-wide, there are a total of 22,000 U.S. materials licenses. 
Of these, less than 10 percent (approximately 1,300 licensees) possess 
IAEA Category 1 or 2 sources. There are also an estimated 30,000 active 
general licenses that permit possession of smaller quantities of 
radioactive material in devices (e.g. industrial gauges), which do not 
require a specific license application or regulatory review process 
because of the inherent safety of the devices and resulting low risk of 
an accident.
    A key piece of legislation that has enabled regulatory enhancements 
to radioactive materials security is the Energy Policy Act of 2005. 
This law included provisions that expanded NRC's fingerprinting and 
background check authority, required study of radiation source use and 
replacement, mandated the creation of a National source tracking 
system, and created an interagency Radiation Source Protection and 
Security Task Force. I will use the remainder of my statement to 
address the progress made and continuing work in each of these areas.
                 increased controls and fingerprinting
    The licensees that possess Category 1 or 2 materials as defined by 
the IAEA Code of Conduct have all had to comply with new requirements 
called ``increased controls,'' which were issued in 2005-2006 by the 
NRC or Agreement State regulators. The increased controls have required 
licensees to upgrade their facilities and procedures to ensure 
detection and prevention of unauthorized access to radioactive 
material, advance coordination with local law enforcement, enhanced 
security during transportation, and enhanced and frequent accounting of 
sources. These measures also require licensees to establish and 
implement trustworthiness and reliability standards to determine who 
will have unescorted access to the radioactive material. Those that are 
not approved to have unescorted access must be within line of sight of 
an approved individual when accessing the material. NRC and Agreement 
States verify compliance through inspections of licensees. The first 
round of increased controls inspections for all licensees has been 
completed and compliance issues corrected.
    From 2007-2008, the increased controls were supplemented by 
additional requirements for fingerprinting and Federal criminal history 
records checks of all individuals with unescorted access to Category 1 
or 2 quantities of radioactive material to further improve the tools 
available to determine trustworthiness and reliability. The NRC and all 
of the Agreement States are now in the process of verifying compliance 
through the inspection process. Since December 2007, an estimated 
90,000 fingerprint forms have been submitted and processed.
    The NRC and Agreement States are jointly developing new materials 
security regulatory requirements that reflect the experience gained 
through implementation of the increased controls and fingerprinting 
requirements. Draft regulatory text was made available for public 
review on Regulations.gov and we expect a proposed rule to be published 
in the Federal Register for public comment by early 2010.
      strategy for the security and use of cesium chloride sources
    In 2006, the Radiation Source Protection and Security Task Force 
provided the President and Congress a report, as mandated by the Energy 
Policy Act of 2005. One of the key recommendations in the report 
focuses on the security of radioactive sources containing cesium 
chloride in a highly dispersible form. Since that time, there have been 
a number of recent Federal studies to assess options for the continued 
use of cesium chloride as the chemical form for radioactive cesium-137 
sources. Cesium chloride is a salt that is sealed into a welded, doubly 
encapsulated stainless steel capsule, and used to irradiate blood and 
tissue, conduct bio-medical and materials science research, and 
calibrate emergency response radiation detection equipment. Cesium 
chloride has long received increased attention from both a safety and 
security perspective because of its potential dispersibility if removed 
from the irradiator and the source capsule, which could spread 
radioactivity. Approximately 550 licensees in the United States possess 
about 1,100 self-contained cesium chloride irradiators. These devices 
contain a Category 1 or 2 quantity of cesium-137 as defined by the IAEA 
Code of Conduct. The NRC's and Agreement States' increased controls and 
fingerprinting requirements have been implemented for all of these 
devices.
    In February 2008, the National Academies issued a report on Source 
Use and Replacement that emphasized replacement technologies should be 
considered for cesium chloride because the National Academies 
considered this radioactive source a greater concern under certain 
attack scenarios than others based on its dispersibility, solubility, 
penetrating radiation, source activity, and presence in population 
centers across the country. In light of multiple views on alternative 
technologies and replacement, NRC convened a public workshop on 
September 29-30, 2008, to obtain input on the use and potential phase-
out of cesium chloride. The workshop had 210 participants and we 
received 141 written comments after the workshop. We also asked NRC's 
Advisory Committee on Medical Uses of Isotopes (ACMUI) to complete a 
study comparing cesium chloride blood irradiation to other 
technologies, particularly X-ray irradiation.
    In light of the various stakeholder comments, the ACMUI study, and 
its own analyses, NRC concluded that near-term replacement of cesium 
chloride sources or devices in existing blood, research, and 
calibration irradiators is not practicable and would be 
disproportionately detrimental to the delivery of medical care, the 
continuity of longstanding research, and the provision of emergency 
response capabilities. Therefore, NRC believes it is imperative to 
develop a viable alternative technology and a disposal option for these 
sources before considering a phase-out.
    Research to develop an alternative chemical form for large activity 
cesium-137 sealed sources could provide a pathway to long-term phase-
out of these sources in favor of those with diminished utility in a 
radiation dispersal device. While it is not the NRC's role to conduct 
such research, we are engaging our Federal partners in efforts to 
identify a lead agency or agencies to conduct research and/or to 
provide incentives to facilitate development of alternative chemical 
forms for cesium-137. Because all cesium-137 chloride is currently 
produced at one facility overseas and given the extensive use of 
irradiators outside of the United States, international engagement and 
cooperative efforts towards exploring new international standards for 
such sources are a necessary part of any long-term solution.
    The NRC and Agreement States, along with the Department of Homeland 
Security's (DHS) Domestic Nuclear Detection Office, are working in 
close cooperation with the Department of Energy's National Nuclear 
Security Administration's (NNSA) voluntary program to install hardware 
improvements that are retrofitted to existing irradiators and 
incorporated into the designs of newly manufactured irradiators. These 
modifications to enhance security extend beyond current regulatory 
requirements. Also, these efforts are often complemented by expert 
security guidance to licensees (called assist visits) and table-top 
exercises with a view towards sharing best practices.
    The NRC is continuing to work with Federal, State, and 
international partners to assess the risk environment and to encourage 
further technological developments for alternative forms of cesium-137. 
The increased controls required by the NRC and Agreement States and 
implemented by licensees, along with voluntary additional facility and 
device hardening measures, have significantly improved the security of 
these sources.
                    national source tracking system
    NRC has maintained an Interim Inventory of Nationally Tracked 
Sources since 2004, which was an annual accounting of licensees 
authorized to possess Category 1 and 2 sources. The Energy Policy Act 
of 2005 included a provision for the National Source Tracking System 
(NSTS), which supersedes the interim inventory. The NSTS is a secure, 
Web-based database that is readily accessible to appropriate personnel 
and is designed to enhance the accountability for radioactive sources. 
The NSTS directly enhances the ability of the NRC and Agreement States 
to: (1) Verify legitimate ownership and use of nationally tracked 
sources; (2) conduct inspections and investigations; and (3) 
communicate information to other Government agencies. Since NSTS was 
deployed in January of this year, all transactions involving Category 1 
or 2 sources, such as manufacture, transfer, and disassembly, have been 
required to be reported to this system. Over 55,000 sources are 
currently tracked in the system. This greater accountability for these 
sources helps strengthen the national security framework from initial 
production through final disposition of these sources.
    The NSTS also directly demonstrates our leadership to other 
countries in applying the IAEA Code of Conduct by complying with its 
recommendations to have a national registry of radioactive sources. In 
the coming years, the NRC is planning to further improve the 
functionality of the NSTS. We will integrate NSTS data with Nation-wide 
licensing information to further enhance our capabilities to track 
compliance and authorize transfers of radioactive material.
interagency cooperation and complementary efforts on radioactive source 
                                security
    The NRC has several major efforts underway with regard to U.S. 
interagency coordination.
    The Government-wide Radiation Source Protection and Security Task 
Force, which was established by the Energy Policy Act of 2005, has been 
one of the primary vehicles for discussing and addressing issues 
relating to the security of radiation sources. This Task Force has 
senior representatives from 14 Federal and State agencies that have a 
role in radiation source security. In August 2006, the Task Force 
delivered a report to the President and to Congress that included 10 
recommendations and 18 actions, addressing areas such as alternative 
technologies, cesium chloride, public communications, and the use of 
better tools to identify sources of concern. Progress has been made on 
each of these recommendations and actions. The next report is due to 
the President and Congress in August 2010, and will provide an 
integrated view of the various activities that have been completed 
within the last 4 years or are underway.
    DHS is responsible for convening Government Coordinating Councils 
for critical infrastructure, including the nuclear sector. NRC 
routinely coordinates with, and provides updates of agency activities 
to, Federal partners through the Nuclear Government Coordinating 
Council. Both the Agreement States and the non-Agreement States also 
participate.
    NRC also participates in periodic trilateral meetings with DHS and 
NNSA to coordinate source security activities. These trilateral 
meetings enhance coordination and awareness of each agency's activities 
and initiatives regarding source security.
    The activities described above demonstrate that there is a 
coordinated U.S. Government approach to source security.
                               conclusion
    The NRC recognizes the direct role that radioactive source security 
plays in the agency's mission to protect public health, safety, and the 
environment. NRC and Agreement State requirements serve as a firm 
foundation for security that ensures that all licensees provide a 
common baseline level of security that is adequate to protect public 
health, safety, and the environment. The application of increased 
controls, the deployment of the National Source Tracking System, and 
the NRC's cooperative efforts across the Federal community have 
comprehensively and significantly improved the security of radioactive 
sources.
    Thank you for the opportunity to testify today at this hearing. I 
look forward to responding to your questions.

    Ms. Clarke. Thank you, Mr. Lewis.
    Captain Riggio, I would like to just ask your indulgence 
and the rest of the panel and my colleagues. You know, when you 
enter into someone's house, it is really important that they 
welcome you there. I neglected to have the chief executive 
officer, Debra Carey, greet us and would like to do so at this 
time.
    So, Ms. Carey, would you please join us here?
    Ms. Carey. Good morning. Thank you, Madame Chairwoman.
    So I just wanted to take a minute. You are already very 
much into a very, very important topic, in terms of the 
emerging threats, cybersecurity, and science and technology. It 
was kind of a test to see if I could remember the subcommittee.
    But I would also like to welcome the Honorable Congressman 
Lungren, the Honorable Congresswoman Sanchez, and the Honorable 
Congresswoman Richardson. Welcome so much to Brooklyn. 
Definitely, we are so pleased to have you here at SUNY 
Downstate Medical Center.
    I will not take but a second, really, because it is a very 
important topic here and I don't want to delay the subcommittee 
hearing any longer, but we are so pleased that you have chosen 
us to actually have the hearing here, because we are in a 
unique position because not only are we an educational 
institution, which many of you know us as a college of 
medicine, but basically we are also a hospital, which is what I 
run. So, therefore, we are a user of radiological materials. We 
also clearly are responders. You have one of our outstanding 
members of our faculty and the leader of our disaster 
preparedness efforts here at the hospital and the campus, Dr. 
Arquilla, who is one of the witnesses. But, also, we have a 
special goal and mission of protecting the community.
    So all of this is so relevant for us. What we want to thank 
you for is coming and making us a partner in this. Anything 
that we can do to facilitate and help, such as this, having 
hearings, even having other public hearings, we are more than 
happy to provide the location. So, again, thank you so much, 
and I hope it is a wonderful hearing.
    Thank you.
    Ms. Clarke. Thank you, Ms. Carey. We appreciate your 
hospitality and lending us of your faculty and facilities here.
    We are going to return now to our proceedings with Captain 
Riggio of the New York Police Department.

STATEMENT OF CAPTAIN MICHAEL RIGGIO, COUNTERTERRORISM DIVISION, 
                   NEW YORK POLICE DEPARTMENT

    Mr. Riggio. Thank you, Madame Chairwoman, Ranking Member 
Lungren, Ms. Sanchez, Ms. Richardson. Good morning. Welcome to 
Brooklyn.
    As the Chairwoman said, my name is Michael Riggio. I am the 
commanding officer of the NYPD's CBRNE--Chemical, Biological, 
Radiological, Nuclear and Explosives--Countermeasures Section. 
On behalf of Deputy Commissioner Richard Falkenrath, our 
commissioner for counterterrorism, I thank you, and I am 
grateful for this opportunity to speak with you this morning.
    At the NYPD, as you probably know, we are proactively 
engaged in a multifaceted approach to combating terrorism; that 
being nuclear threats and radiological threats, as well. We 
dedicate a variety of resources to combating those, which 
include personnel, technology, training, and equipment. In 
speaking of terms that we are here for, we do a variety of 
things to combat the threat of an RDD and that of an IND as 
well.
    The Counterterrorism Division began conducting radioactive/
radiological source security assessments in 2003. Those efforts 
quickly progressed as we were preparing for the Republican 
National Convention here in the city in the summer of 2004.
    The Department, the Counterterrorism Division, in 
cooperation with the New York City Department of Health, the 
NRC, and the Department of Energy, began conducting numerous 
security vulnerability assessments at several facilities here 
in New York City that contained high-consequence radioactive 
sources. These assessments revealed to us that a large amount 
of these sources were stored at medical facilities.
    As a result of these assessments, recommendations were made 
to enhance the security posture at each of these facilities. 
After the Republican National Convention and as a result of the 
NRC's increased controls imposed on Agreement States in 2005, 
the Division began working with many of the city's medical and 
industrial facilities to work on hardening and securing.
    Today, the Division, as a stand-alone unit and in 
partnership with the New York City Department of Health, we 
conduct vulnerability assessments and do security 
recommendations to approximately 100 facilities here in the 
city.
    In the summer of 2006, NYPD began working with the 
Department of Homeland Security's Domestic Nuclear Detection 
Division on a multi-State program called Securing the Cities. 
As was mentioned earlier, the goal of the Securing the Cities 
program is to create an architectural framework, a foundation 
in and around New York City and this region to interdict an RDD 
or IND or the materials that are used to assemble such devices.
    The NYPD has 12 principal partners in the Securing the 
Cities program, which represents over 150 law enforcement 
agencies across three States: New York, New Jersey, and 
Connecticut.
    The Securing the Cities partners realize that, while New 
York City remains the top terrorist target, planning, 
preoperational surveillance, and bomb making will likely occur 
outside of New York City in these partners' jurisdictions. For 
this reason, the New York-area Securing the Cities program has 
greatly enhanced the detection and interdiction capabilities of 
the States of New York, New Jersey, and Connecticut by 
providing local law enforcement agencies with several thousand 
pieces of radiological interdiction/detection equipment, which 
is deployed in the tri-State area daily.
    To do its part, we, the New York City Police Department, 
deploy over 1,000 radiological detection and interdiction 
assets on a daily basis. They are deployed by routine patrol 
officers, specialized patrol officers, and those on assignments 
in strategic locations. They include the use of checkpoints, 
chokepoints, mobile detection systems, handheld detection 
systems, and personal radiological detection systems.
    Within the Securing the Cities program, there are six 
subcommittees that help run day-to-day operations, each of them 
with a specific measure of how do we interdict a radiological 
device.
    One of those such subcommittees, the Source Security 
Subcommittee, is specifically dedicated to ensuring that 
facilities that use or store materials within the New York 
region are visited and surveyed. The goal is to ensure that 
source security is conducted regionally and that a consistent 
security posture exists within the region for all locations 
where radiological sources of concern are located.
    Additionally, the NYPD ensures a high level of security for 
those radioactive sources that are moving through or within the 
city. Our Operations Division is tasked with making sure that 
we have uniformed personnel assigned to cover these 
deployments, which include vehicle escorts, plain-clothed and 
uniformed officers on the scene.
    The NYPD conducts several counterterrorism deployments on a 
daily basis. These deployments all have a radiological 
interdiction component to them. They include critical response 
vehicles, Operation Hercules, Operation TORCH, and radiological 
chokepoints. These deployments consist of multiple vehicles on 
a daily basis, at least 75, that go to many of the city's 
critical locations.
    In addition, the Operation Hercules and the Operation TORCH 
use ESU officers with heavy weapons and tactical gear, combined 
with K-9 officers, to sensitive locations and transportation 
hubs. Many of the personnel involved in these deployments have 
personal radiation detection devices on them.
    Additionally, we set up several radiological chokepoints 
daily throughout locations in the city for the purpose of 
choking traffic down to one lane and screening every vehicle 
that goes by.
    Recently, an industrial radiograph which possessed a 
radioactive source was reported missing from an industrial 
radiography company located in one of the city's five boroughs. 
This type of device and others like it which are inside these 
facilities are used to inspect metals and light alloys for 
structural defects.
    Members of the NYPD and the FBI conducted an investigation 
into the missing device. The device, which was ultimately found 
and returned, was found to be during the course of interviews 
that were conducted--it was claimed by some employees in this 
industry that these devices are often removed after-hours for 
personal matters.
    While the NYPD at this point cannot confirm how widespread 
this practice is, it should be noted that the insider threat 
poses a great risk to the security of this industry. The NYPD 
is currently working with the New York State Department of 
Health to investigate this matter further and remedy it.
    Finally, the NYPD supports any efforts to increase and 
toughen the NRC's regulation and oversight authority to ensure 
that every facility in this great Nation that handles 
radiological sources is as tightly monitored and secured as 
those here in New York City.
    While we, the New York City Police Department, never take a 
moment off to prevent an attack here in New York City, we have 
no ability to prevent the theft of dangerous radiological and 
nuclear materials at facilities and locations that are outside 
of our control. We hope that the NYPD's efforts will serve as a 
model for other cities.
    Members of the committee, I thank you for your time. I 
apologize; the red light has been on for a little while.
    [The statement of Mr. Riggio follows:]
                  Prepared Statement of Michael Riggio
                           September 14, 2009
    Good morning Chairwoman Clarke, Ranking Member Lungren, and Members 
of the House Committee on Homeland Security's Subcommittee on Emerging 
Threats, Cybersecurity, and Science and Technology. My name is Captain 
Michael Riggio, and I am the Commanding Officer of the NYPD 
Counterterrorism Bureau's Chemical, Biological, Radiological, and 
Nuclear Section. On behalf of Dr. Richard Falkenrath, the New York City 
Police Department's Deputy Commissioner of Counterterrorism, I am 
grateful for this opportunity to address you.
    The NYPD is proactively engaged in a multi-faceted approach to 
protecting the city from terrorism, including radiological and nuclear 
terrorism. The NYPD has dedicated a variety of resources to combating 
the threat posed by radiological sources and radiological and nuclear 
weapons, including: Personnel, technology, equipment, and training. We 
are particularly concerned with two threats: Radiological dispersal 
devices (RDD), such as ``dirty bombs'', and improvised nuclear devices 
(IND).
                       background and beginnings
    The NYPD's Counterterrorism Division began conducting radiological 
source security assessments in 2003. Those efforts quickly progressed 
as the city prepared for the Republican National Convention in the 
summer of 2004. The NYPD, in partnership with the New York City 
Department of Health and Mental Hygiene, the Department of Energy, and 
the Nuclear Regulatory Commission (NRC), conducted security 
vulnerability assessments of several facilities that contained high-
consequence radioactive sources. These assessments revealed that large 
amounts of materials were stored in New York City hospitals and medical 
research facilities. Most of these sources were in moderately secure 
locations and were used for medical therapy (e.g., oncology, X-rays, 
and sterilization of blood supplies, etc.). As a result of these 
assessments, recommendations were made to enhance the security posture 
of each facility.
    After the Republican National Convention, and as a result of the 
NRC's Increased Controls (IC) imposed on Agreement States in 2005, the 
Counterterrorism Division began working with many of the city's medical 
and industrial facilities that have radiological sources that meet the 
IC's quantity threshold. Today, the Counterterrorism Division, as a 
stand-alone unit and in partnership with the New York City Department 
of Health and Mental Hygiene, conducts site surveys and provides 
security recommendations to almost 100 facilities within the city of 
New York. These security recommendations include, among other things: 
Limiting access to rooms that contain equipment with radiological 
sources by requiring a personal code or key card; and monitoring access 
with CCTV cameras and other access-tracking technology.
                          securing the cities
    In the summer of 2006, the NYPD began working with the Department 
of Homeland Security's Domestic Nuclear Detection Office (DNDO) on a 
multi-state regional partnership called Securing the Cities. The goal 
of the Securing the Cities program is to create a layered architectural 
framework, or foundation, in and around the city of New York to detect 
and interdict an RDD, an IND, or the radiological materials needed to 
assemble such devices. The NYPD has 12 principle partners in this 
effort, representing over 150 agencies, in three States--New York, New 
Jersey, and Connecticut.
    The Securing the Cities partners realize that while New York City 
remains a top target for terrorist groups, planning, pre-operational 
surveillance, and bomb-making may occur outside of the city, in partner 
jurisdictions.
    For this reason, the New York Area Securing the Cities program has 
greatly enhanced the detection and interdiction capabilities of the 
States of New York, New Jersey, and Connecticut, providing local law 
enforcement agencies with thousands of pieces of radiological detection 
and interdiction equipment. This equipment is deployed daily by 
personnel in the tri-State area.
    To do its part, the NYPD deploys over 1,000 radiological detection 
and interdiction assets on a daily basis. These assets are deployed by 
patrol officers performing routine duties, specialized duties, and 
those on assignment at strategic locations. We use checkpoints, 
chokepoints, mobile detection systems, and handheld detection.
    Within the Securing the Cities program, there are six subcommittees 
that help run day-to-day operations, each of which oversees an 
important aspect of the radiological interdiction mission. The ``Source 
Security Subcommittee'' is specifically dedicated to ensuring that 
facilities that use or store radiological materials within the New York 
region are visited and surveyed. The goal is to ensure that source 
security is conducted regionally, and that a consistent security 
posture exists within the region for all locations where radiological 
sources of concern are located. This subcommittee is also preparing a 
best-practices document to ensure that consistent and easily identified 
standards are instituted and practiced within the region.
                            source movement
    Additionally, the NYPD ensures that a high level of security is 
maintained during the movement of sources of concern. The NYPD's 
Operations Division is notified any time a radiological source is being 
transported into or through New York City. The Operations Division 
coordinates the Department's response and patrol deployments during 
these transports. This may include vehicle escorts and uniformed and 
plainclothes on-scene security.
                 counterterrorism strategic deployments
    The NYPD conducts several counterterrorism deployments on a daily 
basis. They include: Critical Response Vehicle (CRV) surges; Operation 
Hercules; Operation Transit Operational Response Canine Heavy Weapons 
(TORCH); and Radiological Chokepoints.
    A CRV deployment consists of over 75 marked police cars on a single 
tour of duty that deploy to sensitive locations based on daily 
intelligence. This deployment is highly flexible so that personnel can 
be redeployed during operations as events unfold locally and globally. 
The supervisors who oversee these deployments are all equipped with 
personal radiation detection devices.
    Operation Hercules deploys Emergency Services Unit (ESU) officers 
with heavy weapons and tactical gear, canine officers, highway patrol 
officers, and detectives from the NYPD Intelligence Division, to 
sensitive locations throughout the city on a daily basis. Similarly, 
Operation TORCH deploys ESU officers with heavy weapons and tactical 
gear, canine officers, and a counterterrorism liaison officer, to the 
city's critical transportation hubs. Each of the ESU officers involved 
in these deployments is equipped with a personal radiation detector, 
and some are trained to use advanced radiation detection equipment.
    Finally, radiological chokepoints are set up to interdict 
radiological sources at several locations throughout the city each day. 
At these chokepoints, uniformed personnel operate advanced detection 
vehicles and equipment. They also scan each vehicle that passes through 
a single lane of traffic at approximately 5 miles per hour. At all of 
these deployments, all alarms are investigated and resolved.
                   recently discovered vulnerability
    Recently, an industrial radiograph, which possessed a radioactive 
source, was reported missing from an industrial radiography company 
located in one of the city's five boroughs. This type of device is used 
to inspect metals and light alloys for structural defects. Members of 
the NYPD and the FBI's Joint Terrorism Task Force conducted an 
investigation into the missing device. The device was ultimately 
returned to the company. In the course of interviews conducted during 
the investigation, it was claimed that some employees in this industry 
remove these devices after hours.
    While the NYPD cannot confirm how widespread this practice is, it 
should be noted that the insider threat presents a security risk to the 
industry. The NYPD is currently working with the New York State 
Department of Health to investigate this incident and to develop 
strategies that will help prevent this from happening again.
                               conclusion
    Finally, the New York City Police Department supports any efforts 
to increase and toughen the NRC's regulations and oversight authority 
to ensure that every facility in the United States that handles 
radioactive sources is as tightly monitored and secure as those in New 
York City. While we never stop working to prevent an attack within New 
York City, we have no ability to prevent the theft of dangerous 
radiological and nuclear materials at facilities and locations that are 
outside of our jurisdiction. We hope that the NYPD's efforts to secure 
radiological sources will serve as a model for other cities.
    Members of the Committee on Homeland Security and the Subcommittee 
on Emerging Threats, Cybersecurity, and Science and Technology, I thank 
you for your time this morning and I look forward to working with you 
to protect our country from radiological and nuclear threats. Thank 
you.

    Ms. Clarke. Thank you. You had a very compelling testimony. 
We appreciate that, Captain.
    Mr. Miskin.

  STATEMENT OF GENE MISKIN, DIRECTOR, OFFICE OF RADIOLOGICAL 
 HEALTH, NEW YORK CITY DEPARTMENT OF HEALTH AND MENTAL HYGIENE

    Mr. Miskin. Thank you, Madame Chairwoman and distinguished 
Members of the committee. I am pleased to have this opportunity 
to discuss the efforts the New York City Department of Health 
and Mental Hygiene in conjunction with its Federal, State, and 
local partners have made to ensure the security of radioactive 
materials in the city.
    As mentioned, New York State is an Agreement State, but it 
is unique in that there are three regulatory agencies in the 
State that are responsible for the agreement, one of which is 
the Department of Health and Mental Hygiene in the city.
    The department's regulatory oversight of radioactive 
materials allows it to expand upon Federal security 
requirements and foster on-going working relationships among 
the regulative community, the NYPD, and other first-responder 
agencies. This collaboration could serve as a National model 
for how to approach radioactive material security.
    The department has taken a comprehensive approach to 
improving security for both large and small quantities of 
radioactive material. We work cooperatively with the NYPD to 
address law enforcement aspects of security, along with the 
public health and safety issues involved.
    The department also works with the regulative community, 
providing information on best practices for security by 
bringing in highly trained experts from outside of the 
regulatory environment. This approach takes general security 
requirements and makes them specific to individual licensed 
facilities.
    I will highlight now the department's oversight of 
compliance with the Nuclear Regulatory Commission initiatives 
and our efforts to augment and support Federal regulatory 
framework.
    We instituted the Increased Control Program in 2005 by 
issuing commissioner's orders to facilities that met the 
criteria for increased controls. We did our first round of IC 
inspections, completed by 2007, and currently are on our third 
round of IC inspections, almost completed.
    For the fingerprinting requirement under section 652 of the 
Energy Policy Act, we informed our licensees, our IC licensees, 
that we would be making rulemaking and including that language 
in our health code for the city and gave them a heads-up, told 
them it was coming. By October 2008, the Board of Health had 
approved that language, and it is now sitting in our 
regulations.
    In December 2008, we issued 39 license amendments to those 
facilities that had sources that fit reporting requirements for 
the National Source Tracking System.
    So the department has had substantial and timely compliance 
with these Federal regulatory mandates dealing with security of 
radioactive materials, but we have developed several important 
local initiatives that support and augment these requirements.
    Using Department of Homeland Security Urban Area Security 
Initiatives and CDCBT grants, plus using city tax levy funds, 
the department has developed and is in the testing phase of its 
New York City Radiation Data System, or NYCRADDS. The system 
serves as a single data repository for all activities dealing 
with ionizing radiation in the city. One part of NYCRADDS is an 
almost real-time inventory of all radioactive material located 
at our various licensees' facilities. Licensees report using a 
secure website and include radionuclides on hand, the 
activities of these radionuclides, and their specific location 
on-site.
    In 2004, the department, with the assistance of the U.S. 
Department of Homeland Security, visited seven large licensees 
to assess security programs in place and then to make 
recommendations for security updates. The effort was well-
received by our licensees and indicated the value of expanding 
these reviews to other licensees. The Department of Homeland 
Security then provided a grant to the department to widen the 
security assessment visits, and we contracted with Brookhaven 
National Laboratory to support our efforts.
    The review team itself was comprised of a department staff 
person, an NYPD officer from the counterterrorism bureau, a 
private security specialist, and a health physicist from 
Brookhaven. This project has provided detailed security 
assessments to 80 licensed facilities in the city. Twenty of 
these facilities included increased control facilities, and 60 
that did not meet the IC radioactive requirements but had 
various amounts of radioactive material on-site.
    All licensees received radioactive material security self-
audit checklists, training materials for security staff, and 
guidance representing radioactive material security best 
practices. The department is working with Brookhaven to 
complete a written guidance document, ``Best Practices for the 
Security of Radioactive Materials,'' and will distribute it to 
most of our 360 licensed facilities.
    In 2007, the department conducted a training session for 
the radiation safety officers of our large facilities on the 
use of the NYCRADDS radioactive material inventory website. 
Testing of this system is almost complete, and the final 
training package is being prepared for the remainder of our 
licensees.
    In 2008, the department participated in a pilot project 
sponsored by the Department of Homeland Security in which three 
of our hospital licensees had security enhancements made to 
their cesium-137 irradiators. On April 1, 2008, the department 
hosted a symposium entitled, ``Radiation Security: Preventing 
Radioactive Materials from Getting Out and Preventing 
Radioactive Contamination from Getting In.'' There were 110 
attendees, including radiation safety officers, security 
personnel, the NYPD, and FDNY.
    In conclusion, the department has made and continues to 
make the security of all radioactive materials in the city a 
high priority. The regulatory and nonregulatory approaches we 
have taken have resulted in improved security at all of our 
licensed facilities and have reduced the probability, we feel, 
of domestic radiological threat from materials that are used in 
this city.
    Again, thank you for the opportunity to let you know what 
we are doing, and I will be happy to answer your questions.
    [The statement of Mr. Miskin follows:]
                   Prepared Statement of Gene Miskin
                           September 14, 2009
    I am pleased to have this opportunity to discuss the efforts the 
New York City Department of Health and Mental Hygiene (the department), 
in conjunction with its Federal, State, and local partner agencies, has 
made to ensure the security of radiological materials.
    The department plays a unique role in regulating radiological 
sources. New York City is one of only a few cities that have direct 
regulatory oversight of nearly all radiological sources. New York State 
is an Agreement State, which means that the State and the United States 
Nuclear Regulatory Commission (NRC) have entered into an agreement 
under the former Atomic Energy Act to delegate authority to New York 
State (NYS) to regulate radioactive material at non-reactor sites 
within its jurisdiction. The New York State Agreement comprises three 
regulatory programs--administered by the New York State Department of 
Health, New York State Department of Environmental Conservation, and 
New York City Department of Health and Mental Hygiene. Under this 
structure, the department, through the Office of Radiological Health 
(ORH), regulates radioactive material for medical, research, and 
academic purposes within the five boroughs of the city. The 
department's regulatory requirements for radioactive material are 
contained in Article 175 of the New York City Health Code.
    The department has taken a comprehensive approach to improving 
security for both large and small quantities of radioactive materials. 
First, the department is responsible for regulating the public health 
and safety aspects related to the use of radioactive materials. This 
includes all non-exempt radioactive materials, not just materials in 
quantities of concern. Second, the department works cooperatively with 
the New York Police Department (NYPD) to address law enforcement 
aspects of security and public safety. Third, the department works 
cooperatively with the regulated community, providing information on 
best practices and facilitating access to highly-trained experts 
outside the regulatory environment.
    The department's regulatory oversight of radiological materials 
allows it to expand upon Federal requirements and foster on-going 
working relationships among the regulated community, the NYPD, and 
other first responders; this collaboration could serve as a National 
model for how to approach radioactive materials security. While placing 
appropriate priority upon resources and efforts to secure the 
facilities with the highest-risk materials, New York City's approach 
has been to take a more expansive view of potential risks and provide 
multiple avenues to help the regulated community to understand the 
measures it can take to properly secure radioactive material.
    In addition to inspecting the regulated communities for compliance 
with Federal standards, the department has developed new systems to 
track the location, quantities, and types of radiological materials 
located in New York City; provided local facilities with access to 
security experts to evaluate their security measures; and sponsored 
symposia and educational forums for the regulated community and first 
responders. By ensuring regulatory compliance as well as augmenting the 
best industry practices for physical security, we can reduce the risk 
of criminal activity involving any amount of radioactive material.
    I will now highlight critical aspects of the department's oversight 
of compliance with NRC-required security initiatives and efforts to 
augment and support the Federal regulatory framework:
                   nrc required security initiatives
Increased Control
    In 2005, the NRC required that Agreement States initiate the 
Increased Control (IC) requirements for their licensees that have 
certain radionuclides in quantities of concern. The department 
identified 32 facilities representing 47 licenses that met this 
criterion or could meet the criterion based on the limits on 
radiological materials in their licenses. On October 20, 2005, the 
department held a meeting to educate and inform its largest licensees 
about IC requirements. This meeting was also attended by the NYPD.
    In December 2005, the department issued a Commissioner's Order to 
those licensees meeting the NRC's criterion to institute the Increased 
Controls (IC) by June of 2006. Since that time, the number of licensees 
subject to the IC requirements has been reduced to 20 facilities 
because some either legally disposed of radioactive materials or 
amended their licenses to reduce their possession limits for the 
radionuclides of concern.
    In preparation for the expanded inspection of IC facilities, three 
department staff members attended an NRC-sponsored IC training in 2006. 
In compliance with NRC inspection mandates, the department inspected 
all of the facilities required to meet the IC requirements. These 
inspections, performed jointly with the NYPD Counter Terrorism 
Division, were completed by March 2007. The second round of joint IC 
inspections was completed by August 2008, and the NYPD also 
participated in these inspections. The third round of IC inspections is 
under way, and the department is well ahead of NRC time frames.
    The department's inspections indicated that while all facilities 
inspected were in substantial compliance with the NRC's IC 
requirements, violations--either of rules and regulations or of 
security requirements in need of upgrading--were found in about 25 
percent of inspected facilities.
Fingerprinting and Criminal History Check Requirements
    The NRC also requires fingerprinting and criminal background checks 
for all individuals with unescorted access to radioactive materials in 
quantities of concern, under authority granted by Section 652 of the 
Energy Policy Act of 2005 (EPAct). Criminal histories obtained from the 
Federal Bureau of Investigation are used, along with other factors, to 
determine whether these individuals should continue to have such 
access. The NRC has imposed this fingerprinting requirement upon all 
licensees who are subject to Increased Controls, including Agreement 
State Licensees. Background checks were to be completed by June 2, 
2008.
    On April 25, 2008 the department's Office of Radiological Health 
advised its IC licensees of this requirement, and that we would be 
initiating appropriate rule-making to include it in Article 175 of the 
New York City Health Code. In September, 2008, the NYC Board of Health 
approved the addition of the fingerprinting language to Article 175, 
and it became effective in October, 2008.
    While the department's inspections have found that all facilities 
have made substantial progress toward compliance with the 
fingerprinting requirements, many facilities require improvement in 
documentation.
National Source Tracking System
    NRC initially deployed the National Source Tracking System (NSTS) 
in December 2008 to track the deployment of Category 1 and 2 sealed 
sources from cradle to grave. Category 1 and 2 sealed sources are 
listed in 10 CFR 20 Appendix E. Agreement State licensees are required 
to use the system to report inventories of these sealed sources 
directly to NRC and to update the inventories as needed. The department 
issued 39 license amendments to licensees that possessed these 
categories of sealed sources, requiring them to use the NSTS for 
reporting purposes, between March and June 2009.
    Overall, we find substantial compliance with Federal regulatory 
mandates, but we have developed several important local initiatives 
that support and augment the Federal regulatory framework, which I will 
now describe.
    new york city department of health and mental hygiene security 
                              initiatives
    The department has initiated a series of efforts that support and 
augment the Federal regulatory framework for ensuring the security of 
radioactive materials, as briefly described at the opening of my 
statement. I will highlight several of these efforts.
NYCRADDS
    Using Federal grant monies from the Center for Disease Control and 
Prevention and city tax levy funds, the department is developing the 
New York City Radiation Data System (NYCRADDS). The system serves as a 
single repository of all licensing, permitting, inspectional activity 
and radioactive materials inventory in New York City. Included in 
NYCRADDS is the ability for a facility, through a secure website, to 
report radionuclides on hand, their activities, and specific on-site 
locations of the material. Facilities are requested to make quarterly 
reports so that it is a near real-time inventory of radioactive 
material in New York City that can be shared with our partner local, 
State, and Federal agencies as needed.
Grant-funded Security Reviews of New York City Hospitals
    In 2004, with the assistance of the U.S. Department of Homeland 
Security (DHS), the department visited seven IC facilities in New York 
City, and made recommendations for security upgrades to the licensees. 
The results of these visits indicated the value of expanding these 
reviews to other licensees. DHS provided a grant to the department to 
widen the security assessment visits and we contracted with Brookhaven 
National Laboratory to support our efforts. A security review team 
consisting of a staff person from the department, an NYPD officer from 
the Counter Terrorism Bureau, a private security specialist, and a 
health physicist from Brookhaven National Laboratory, visited licensed 
facilities. This project provided detailed security assessments to 80 
facilities, including 20 licenses that are required to comply with the 
Increased Controls. In addition to the on-site consultations performed, 
licensees were also given a Radioactive Materials Self Audit Checklist 
to use for self audits, training materials for security staff, and 
written guidance representing radioactive materials security best 
practices. The department is presently working with Brookhaven National 
Laboratory to complete a written guidance document Best Practices for 
the Security of Radioactive Materials, and will distribute this 
guidance to all or most of the approximately 360 licensed facilities in 
New York City.
DOHMH Sponsored Meetings and Symposia
    In September 2007, the department conducted a training session for 
the radiation safety officers of our larger facilities on use of the 
NYCRADDS Radioactive Materials Inventory website. Testing of this 
system is almost complete, and a final training package is being 
prepared for the remainder of our licensees.
    In 2008, the department participated in a pilot project sponsored 
by DHS in which three of our hospital licensees had security 
enhancements made to their Cesium-137 irradiators.
    On April 1, 2008, the department hosted a symposium entitled 
``Radiation Security: Preventing Radioactive Materials from Getting Out 
and Preventing Radioactive Contamination from Getting In.'' There were 
110 attendees, including radiation safety officers, security personnel, 
NYPD, and FDNY. The purpose of the symposium, funded by the DHS Urban 
Areas Security Initiative, was twofold: (1) To reiterate the security 
requirements for those institutions subject to the U.S. Nuclear 
Regulatory Commission's Increased Controls Program; and, (2) to provide 
an update and highlight best practices of a department grant-funded 
program that provided participating hospitals with area monitors 
capable of detecting radioactively-contaminated persons entering their 
facilities. NYPD's Counter Terrorism Bureau discussed protocols to be 
followed in the event of equipment alarms going off. The department 
plans to pursue additional Federal funding for future programs dealing 
with security and detection of radioactive materials in the city.
Non-regulatory Approaches To Augment Federal Regulatory Efforts
    The department has initiated non-regulatory reviews of security 
efforts at IC and non-IC facilities, providing facilities with access 
to a team made up of a regulator, a physical security expert, an NYPD 
officer, and a specialist in radiation protection. This effort has 
provided direct assistance and educational materials to foster the 
development of best practices among facilities managing smaller 
quantities of radiological materials of concern, such as research labs 
that are not required to meet enhanced Federal security mandates. The 
department believes that the incorporation of non-IC facilities into 
its security efforts is critically important to ensure the security of 
radioactive materials in New York City.
    By conducting these visits outside the regulatory process, the 
department gained voluntary access to these facilities, and could 
facilitate improvements at many IC and non-IC facilities in New York 
City. These detailed on-site evaluations employed a graded approach to 
security for these materials, which helped facilities identify 
typically inexpensive physical security upgrades and/or changes to 
administrative procedures. For example, the department has developed a 
best practices manual that provides easy-to-follow security check-
lists, which facilities can use to evaluate their own security measures 
and to self-identify enhancements.
    The department has emphasized reducing vulnerabilities by 
increasing controls and administrative improvements, such as improved 
access control, background checks, enhanced material control and 
accountability, coordination with local law enforcement agencies, 
proper display of picture identification badges, background checks for 
unescorted access to materials, key control and accountability, and 
discontinued dual use of space for radioactive sources. The 
department's approach has resulted in documented improvements in 
controls, and has had a positive influence on facilities with both 
high-activity and low-activity radioactive sources.
    In conclusion, the department believes that its strategic vision, 
employing an asystematic approach, has reduced the probability of 
domestic radiological threat from materials used in New York City.
    Thank you for the opportunity to testify on the department's 
radioactive materials security initiatives. I will be pleased to answer 
any questions you may have.

    Ms. Clarke. Thank you, Mr. Miskin.
    Dr. Arquilla.

      STATEMENT OF BONNIE ARQUILLA, DIRECTOR OF DISASTER 
          PREPAREDNESS, SUNY DOWNSTATE MEDICAL CENTER

    Dr. Arquilla. I would like to thank the committee for 
inviting me to speak. My background is in emergency medicine, 
with an emphasis on disaster preparedness at SUNY Downstate 
Medical Center. We have created a number of guidelines and 
full-scale exercise drills to examine disaster preparedness. As 
an emergency medicine physician, I do clinical work at 
University Hospital-Brooklyn and Kings County Medical Center.
    The two hospital facilities I mentioned on Clarkson Avenue 
see the majority of patients in central Brooklyn. We have a 
special research interest in vulnerable populations, such as 
pediatrics and geriatrics. Obviously, my primary viewpoint is 
around the preparations that hospitals can make to provide 
better care for the neighborhoods they serve in addition to 
hospital care of the sick or injured.
    We are also acutely aware that we are the safety net for 
disaster relief in central Brooklyn and New York City. So what 
would happen if there were a dirty bomb, a nuclear explosion or 
covert release of radiological material? Database and exercises 
we at SUNY have conducted in collaboration with other 
organizations tell us that we are not adequately prepared to 
respond to the expected overwhelming influx of patients seeking 
medical evaluation and assurances. However, it must be noted 
that most of these patients would not be at immediate medical 
risk.
    For the purposes of this testimony I have been asked to 
address the following issues: A basic review of radiation; a 
few scenarios where the population might be exposed to 
radiation; acute medical issues around radiation exposure; the 
response framework established at SUNY, while identifying 
important gaps; and the necessity of securing potential 
radiation sources.
    For the interest of time, although I submitted it in 
writing, the basic review of radiation I will skip at this 
time.
    Scenarios where the population might be exposed to 
radiation: While most us are familiar with dirty bombs, another 
type of attack, the ``I-cubed''--for ingestion, inhalation, and 
immersion--these attacks are not accompanied with a flash and 
bang.
    Fortunately, it is hard to kill a lot of people with an 
ingestion attack. Contaminating a reservoir or even a water 
main is ineffective because radioactivity is quickly diluted. 
However, the population knowing that an attempt has been made 
may be enough to create a disaster. This is an important issue 
that should have Government attention. Training and education 
and risk communication must be better to help our population 
better cope with their fears.
    An inhalation attack, sometimes called a smoky bomb, uses 
radioisotopes that can be burned, vaporized, or aerosolized in 
a confined space to contaminate the air. The subway, for 
example, is an ideal location. The population inhales the 
contaminated air, with the effect of either killing quickly by 
radiation poisoning or slowly by causing cancer.
    Obviously, this type of event detection is an area of 
importance, but it is not enough simply to detect and measure; 
we need a health care workforce that is trained to manage this 
type of exposure. I refer to Dr. Steven Becker's work. He shows 
a lack of understanding by many emergency department physicians 
of radiologic events and effects.
    An immersion attack, or radioactive spray of hazardous 
material, is also very dangerous, because people wipe their 
faces and transfer the isotope to their mouth.
    In a dirty bomb attack, health care workers are more 
concerned about the actual explosion rather than the 
radioactive effects of the blast. Blast injuries themselves 
kill more people and cause greater morbidity than the release 
of a nuclear agent.
    Delays brought about by the need for screening of a 
hysterical population seeking to see if they are okay can wreak 
havoc on the system. Look at last spring with the flu. Many 
people presented for evaluation to either their private 
physician's offices or hospitals just wanted to be sure that 
they either had the swine flu or not. Under regular 
circumstances, they would not have sought medical attention, 
and especially not emergency care. The hospitals in New York 
City were overwhelmed with ambulatory patients seeking 
reassurances.
    The most important indicator of exposure of a patient is 
the time of onset of symptoms following irradiation. Vomiting 
within 2 to 4 hours is an indication of high-dose radiation. 
This is an emergency consideration. The greatest potential 
morbidity can be determined by the symptoms, where the patient 
was, the time of onset of symptoms, the point or source of 
contamination, what is the isotope--alpha, beta, or gamma--and 
length of exposure, external, and/or internal contamination.
    The initial symptoms of acute radiation sickness include 
redness of skin, nausea, vomiting, and depressed white blood 
cell count. These are the effects we worry about predominantly 
for first responders and in major accidents with very high 
levels of radiation.
    The prodromal phase is the phase after exposure to 
radiation with several vague, nonspecific symptoms. The latent 
phase: Patients appear asymptomatic typically for 2 to 4 weeks; 
then patients begin to develop infections. Usually, they 
require prophylactic antibiotics, antiviral, or antifungal 
agents. The illness phase is expressed by the damage to the 
specific organ system and depends on the level of whole-body 
exposure received by the patient.
    Other effects of dirty bombs include traumatic injuries. 
This is thought to be a bigger killer in the short-term. The 
associated trauma that accompanies a dirty bomb attack presents 
the greatest risk to our emergency departments. Prolonged 
mental health problems are also an issue: Fear and panic, 
demand for medical resources, post-traumatic stress disorder, 
and stigmatization of those who are exposed. Often, these 
mental health after-effects of an event go untreated. This is a 
critical area for the Government to provide aid, focusing on 
first aid, mental first aid, screening, and long-term 
treatment.
    The response framework established at SUNY Downstate: 
Preventing unnecessary exposure is the best defense, as my 
esteemed colleagues have already described. This is achieved 
also after the event by personal protective equipment such as 
gloves, over-garments, and respirators. Additional important 
safety measures include time, limiting the time of exposure; 
distance, maintaining a distance from the radioactive sources, 
which in our case would be contaminated patients or their 
clothing; and shielding, the use of PPE. Patients should be 
screened, stripped of all clothes that may hold radiation, 
showered, and rescreened.
    Let me bring to your attention that I am not aware of any 
hospital that has a fully trained decontamination team in 
place, available 24 hours a day, 7 days a week. This type of 
specialized work is beyond the scope of the average health care 
worker. Currently, most decontamination teams are made up of 
volunteers, yet most health care workers are afraid to 
volunteer because they lack training.
    Ideally, what is needed to rectify this situation is: 
Education of radiologic events and practices for health care 
workers; decontamination training for health care workers, 
staff, and professionals, and with regular practice and 
recertification--many of our health care workers were trained 
4, 5, 6 years ago and have not had retraining since then; 
Government support of the above, which includes funding.
    Facility preparation and planning. I only have a second 
more. Important areas every facility should really look at is, 
where should the screening be done? Who should do the 
screening? Who needs to be screened? Noninjured, injured, and 
dead, personnel working in and around the event. Where should 
the radiation screening be done? The emergency department, the 
operating room, the decontamination area, the dressout areas, 
and any other area where contamination might occur. Radiation 
screening should also be done for personal belongings of 
victims, medical instruments, equipment, and waste.
    Ms. Clarke. Dr. Arquilla, can you summarize at this point?
    Dr. Arquilla. Yes, that is why I turned the 3 pages. 
Thanks. Sorry.
    In conclusion, National Opinion Research shows from the 
University of Chicago that, if a dirty bomb goes off, 65 
percent of an urban population will self-evacuate without being 
informed to do so by the Government. They plan on going to 
emergency departments. This is 25 times the amount that we 
normally see, and we are already at 100 percent of our 
capacity.
    As I mentioned earlier, risk communication training would 
be very important. Disaster preparedness training for emergency 
responders, emergency departments, and hospitals are also of 
vital importance.
    Thank you. I am sorry I went over.
    [The statement of Dr. Arquilla follows:]
                 Prepared Statement of Bonnie Arquilla
   assessment of preparedness in the event of a radioactive disaster
    I would like to thank the committee for inviting me to speak. My 
background is in Emergency Medicine with an emphasis in Disaster 
Preparedness at SUNY Downstate Medical Center. We have created a number 
of guidelines and full-scale exercise drills to examine disaster 
preparedness. As an Emergency Medicine physician, I do clinical work at 
University Hospital, Brooklyn and Kings County Hospital Center. I have 
been the Director of Emergency Preparedness for both institutions since 
2001. When I took over this post, it was chiefly a ``regulatory 
position'' to help the hospitals with JOINT commission inspections. 
With the September 11 and the anthrax terrorists attacks, that all 
changed.
    Globally, we saw a critical need for preparedness. Medical 
professionals went about changing the culture of their hospitals; 
indeed all institutions and organizations address the need for a higher 
level of preparedness. It takes a generation to change cultural 
attitudes and so far, with regard to disaster preparedness, we've made 
good progress, but as with any ambitious goal or cultural shift, 
there's still more work to be done.
    The two hospital facilities I mentioned earlier on Clarkson Avenue, 
see a majority of the patients in central Brooklyn. We have a special 
research interest in vulnerable populations such as pediatrics and 
geriatrics. Obviously, my primary viewpoint is around the preparations 
that hospitals can make to provide better care for the neighborhoods 
they serve, in addition to hospital care of the sick or injured. We are 
also acutely aware that we are the safety net for disaster relief in 
central Brooklyn and New York City . . . So what would happen if there 
were a dirty bomb, a nuclear explosion, or covert release of 
radioactive material?
    Data based on exercises that we at SUNY have conducted in 
collaboration with other organizations, tells us that we are not 
adequately prepared to respond to the expected overwhelming influx of 
patients seeking medical evaluation and assurances. However, it must be 
noted that most of these patients would not be at immediate medical 
risk!
    For the purposes of this testimony I've been asked to address the 
following issues and concerns:
  <bullet> A basic review radiation;
  <bullet> A few scenarios where populations might be exposed to 
        radiation;
  <bullet> Acute medical issues around radiation exposure;
  <bullet> The response framework established at SUNY, while 
        identifying important gaps;
  <bullet> The necessity to secure potential radiation resources.
                      a basic review of radiation
    The following are types of non-ionizing, harmless, radiation: 
Microwaves; Radio waves; Infra-red rays; Laser.
    For the purposes of this inquiry, let's take a closer look at 
Ionizing Radiation.
    What Is Ionizing Radiation? It is the spontaneous emission of 
``fragments'' or ``bundles'' of energy from unstable nuclei creating 
more stable nuclei.
    Ionizing radiation can rip off electrons from other atoms. It then 
attacks the atoms in living cells creating free radicals that damage 
our DNA. This is how it damages our cells. ``The Cell/DNA itself is 
directly ionized by the radiation.'' This attack causes genetic 
mutation and the cells die from necrosis.
    Following are Forms of Ionizing Radiation: Alpha particles; Beta 
particles; Gamma photons or gamma rays.
    Alpha Particles are made up of two protons and two neutrons.
    It's a helium nucleus, only with lots of kinetic energy. They are 
positively charged, physically large on the atomic scale--the heaviest 
and most highly charged.
    Alpha Particles can normally be stopped by the dead layer of skin 
on the body or a sheet of paper.
    Beta Particles are high-speed electrons stripped free from their 
atomic parent and sent off with kinetic energy. They are smaller and 
travel much faster than Alpha Particles. They may be positively or 
negatively charged.
    Beta Particles can be stopped by 1 cm of plastic, wood, or paper. 
Like Alpha Particles, Beta Particles can cause damage to skin and other 
cells.
    However, beta particles are not typically involved in acute 
radiological events.
    Gamma Rays are packets of energy in the form of Photons, much like 
the visible light in this room, forming Electromagnetic Radiation (EMR) 
of high energy. Their interaction with materials is energy dependent. 
They can travel up to 1 mile in open air.
    Gamma Rays are very penetrating and can pass right through the 
body. They are stopped best with lead or concrete. In high 
concentrations, they can penetrate to the bones and marrow and depress 
production of red blood cells. This is usually the type of radiation of 
most concern in disasters.
       scenarios where populations might be exposed to radiation
    While most of us are familiar with dirty bombs, another type of 
attack is the I-cubed (for ingestion, inhalation and emersion) these 
attacks are not accompanied with a flash and bang. Fortunately, it is 
hard to kill a lot of people with an ingestion attack. Contaminating a 
reservoir or even a water main is ineffective because the radioactivity 
is quickly diluted. However, the population knowing that the attempt 
has been made may be enough to create a disaster. This is an important 
area that should have Government attention. Training and education in 
``risk communication'' must be better, to help our population better 
cope with their fears.
    An inhalation attack, sometimes called a smoky bob, uses 
radioisotopes that can be burned, vaporized, or aerosolized in a 
confined space to contaminate the air. The subway, for example, is an 
ideal location. The population inhales the contaminated air, the effect 
either killing quickly by radiation poisoning, or slowly by causing 
cancer. Obviously, in this type of event detection is an area of 
importance, but it is not enough to simply detect and measure, we need 
a health care workforce that is trained to manage this type of 
exposure. Refer to Dr. Steve Becker's work. He shows a lack of 
understanding by many emergency department physicians of radiological 
events and effects.
    An immersion attack, or radioactive spray, is hazardous because 
people wipe their face and then transfer isotope to the mouth.
    In a Dirty Bomb attack health workers are more concerned about the 
actual explosion, rather that the radioactive effects of the blast. 
Blast injuries themselves will kill more people and cause greater 
morbidity than the release of the nuclear agent. Delays brought about 
by the need for screening of a hysterical population, seeking to know 
if they are OKAY, and wreak havoc on the system! Look at last spring 
with the flu, many people who presented for evaluation to either 
private physician's offices or hospitals, just wanted to be sure that 
they had swine flu or did not. Under regular circumstances, they would 
not have sought medical attention and especially not emergency care. 
The hospitals in New York City were overwhelmed with ambulatory patents 
seeing reassurances.
             acute medical issues around radiation exposure
    The most likely radioactive materials to be used in a terrorist 
attack are cobalt, strontium, cesium, and americium. All are poorly 
protected and readily available in medical, military, research, and 
industrial resources.
    Cobalt is used in food irradiators and americium in used in smoke 
detectors and oil exploration.
Emergency Considerations
    THE MOST IMPORTANT INDICATOR TO EXPOSURE OF A PATIENT IS THE TIME 
OF ONSET OF VOMITING FOLLOWING IRRADIATION. Vomiting within 2 to 4 
hours is an indication of a high dose of radiation.
    The greatest potential morbidity can be determined by:
  <bullet> Symptoms?
  <bullet> What are they?
  <bullet> Time of onset?
  <bullet> Point Source or Contamination?
  <bullet> What is the isotope (alpha, beta, or gamma)?
  <bullet> Length of exposure?
  <bullet> External and/or internal contamination?
    The initial symptoms to Acute Radiation Sickness include; skin 
redness, nausea, vomiting, and depressed white blood cell counts. These 
are the effects we worry about predominantly for first responders and 
in major accidents with very high levels of radiation.
    The Prodromal Phase, is the phase after exposure to radiation with 
several vague, nonspecific symptoms.
    In the Latent Phase patients appear asymptomatic typically for 2 to 
4 weeks. Then patients begin to develop infections, usually require 
prophylactic antibiotics, antiviral agents, or antifungal agents.
    The Illness Phase is expressed by damage to the specific organ 
system and depends on the level of ``whole body'' exposure received by 
the patient.
     Other effects of Dirty Bombs include Traumatic injuries. This is 
thought to be a bigger killer in the short term. The associated trauma 
that accompanies a Dirty Bomb attack, presents the greatest risk.
    Prolonged mental health problems:
  <bullet> Fear/Panic;
  <bullet> Demand for medical resources;
  <bullet> Post Traumatic Stress Disorder;
  <bullet> Stigmatization.
    Often these mental ``after effects'' of an event go untreated. This 
is a critical area for the Government to provide aide, focusing on 
first aid, screening, and long-term treatment.
               the response framework established at suny
    Preventing unnecessary exposure is the best defense! This is 
achieved through Personal Protective Equipment (PPE) such as:
  <bullet> Gloves;
  <bullet> Over garments;
  <bullet> Respirators.
    Additional important safety measures include:
  <bullet> Time--limiting the time of exposure;
  <bullet> Distance--maintaining a distance from radioactive sources;
  <bullet> Shielding--the use of PPE.
    Patients should be screened, stripped of all clothes (they hold 
radiation), showered, and re-screened.
    Let me bring to your attention, that I am not aware of any hospital 
that has a fully trained decontamination team in place and available 24 
hours per day, 7 days per week. This type of specialized work is beyond 
the scope of the average health care worker. Currently, most 
decontamination teams are made up of volunteers. Yet, most health care 
workers are afraid to volunteer, because they lack training! Ideally, 
what is needed to rectify this situation is:
  <bullet> Education--of radiological events and practices for health 
        care workers;
  <bullet> Decontamination training for health care staff and 
        professionals as a regular part of their job;
  <bullet> Government support of the above, including funding.
Facility Preparation & Planning
    Important questions every facility should ask when responding are:
    Who should get radiation screening?
  <bullet> Patients that require monitoring and or admission to 
        hospital.
  <bullet> Non-injured, injured, dead.
  <bullet> Personnel working in and around the event.
    Where should radiation screening be done?
  <bullet> ED, OR, decontamination area, dress out areas.
  <bullet> Any other area where contamination might occur.
    What other radiation screening should be done?
  <bullet> Personal belongings of victims.
  <bullet> Medical instruments, equipment.
  <bullet> Waste.
    How should radiation screening be handled? Or, what is the 
hospital's disaster procedure?
  <bullet> Who will do screening?
  <bullet> How will screening be done?
  <bullet> How much equipment/PPE is needed to fulfill this mission?
    Additional planning considerations:
  <bullet> Pressure on normal ER staff;
  <bullet> Press coverage;
  <bullet> Psychological reaction of patients, public, and hospital 
        staff;
  <bullet> Prioritize areas, facilities, and equipment to be recovered:
    <bullet> What is needed ASAP?
    <bullet> What can wait?
  <bullet> Establish a checklist for recovery.
         the necessity to secure potential radiation resources
    Once radioactive materials are no longer needed and the costs of 
appropriate disposal are high, security measures become lax, and the 
likelihood of abandonment or theft increases. We need to allocate funds 
for the safe disposal and storage of our radioactive materials.
    In conclusion, the National Opinion Research Center at the 
University of Chicago reports that, ``In the event of a dirty bomb 
explosion 65 percent of urban residents expect that they would evacuate 
after learning from the media that a dirty bomb has exploded, but 
without receiving any directive or information regarding the event from 
local government officials.'' Alarmingly, current guidelines say that 
people who received more that 25 times the threshold dose for 
evacuation would have to be taken into medical supervision. This would 
be an overwhelming number of people to evaluate and then follow for at 
least 25 years.
    As I mentioned earlier, most medical facilities are simply not 
equipped to handle the large influx of ``potential'' patients who 
require reassurances. Our best defense against the effects of an I-
cubed attack is to inform and educate the populace regarding their risk 
as soon after the attack as possible. Additionally, medical personnel 
and facilities should be prepared to deal with the specifics of such an 
attack. Currently, they are not. This can only be achieved through 
disaster preparedness training, the need for which cannot be 
overemphasized. It is my hope that the Homeland Security committee 
considers disaster preparedness training as part of their defense 
strategy in managing our country's safety against terrorists' attacks.
    Thank you.

    Ms. Clarke. Thank you.
    Mr. Aloise from GAO.

  STATEMENT OF GENE ALOISE, DIRECTOR, NATIONAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Gene Aloise from GAO. Thank you, Madame 
Chairwoman.
    Madame Chairwoman, Ranking Member Lungren, and Members of 
the subcommittee, we are pleased to be here today to discuss 
how well-prepared we are as a Nation to recover from attacks 
using dirty bombs or an improvised nuclear device, otherwise 
known as an IND.
    A terrorist's use of a dirty bomb or IND could have 
devastating consequences. Responding to such attacks is 
different than recovering from them. Response would include 
immediate actions as evacuations and providing medical 
treatment. Recovery includes cleaning up radioactive 
contamination from an attack so that people can return to their 
homes and businesses. Importantly, being prepared to recover 
from these attacks may even provide an element of deterrence if 
an adversary perceives less potential for lasting harm.
    My remarks today will focus on Federal planning and clean-
up capabilities and suggestions to improve our ability to 
recover from an attack. I will also discuss the United 
Kingdom's handling of the 2006 polonium incident and how that 
event has helped the United Kingdom better prepare for an 
attack.
    Our work shows that most cities and States would be so 
overwhelmed by a dirty bomb or IND attack that they would rely 
on the Federal Government to conduct almost all clean-up 
activities that are an essential first step to recovery.
    FEMA is responsible for developing a system to respond to 
and recover from terrorist attacks. However, planning by FEMA 
and other Federal agencies for recovering from such attacks is 
lacking. FEMA has not issued a national disaster recovery plan 
for dirty bomb or IND attacks. Also, existing Federal guidance 
provides little direction for agencies to develop their own 
recovery activities and test how well-prepared they are to 
implement recovery efforts. In fact, out of the 70 dirty bomb 
and IND exercises conducted over the last 5 years, only three 
have included a recovery component.
    Regarding clean-up of radiation-contaminated areas, 
although research is under way, not much is known about how 
available technologies could be applied to an attack. The lack 
of guidance for identifying cost-effective clean-up methods in 
the event of an attack might mean that the clean-up approach 
taken could increase recovery costs. Experience has shown that 
using the wrong approach can generate waste types more 
difficult to remove than the original material.
    In addition, limitations in testing thousands of material 
samples during clean-up after an attack and uncertainty about 
where to dispose of radioactive waste could also slow recovery. 
About two-thirds of the city, State, and Federal officials we 
surveyed expressed concern about the capability to provide the 
necessary clean-up actions to recover from an attack.
    Furthermore, nearly all the cities and States we surveyed 
stated the need for a national disaster recovery strategy to 
address gaps in Federal guidance. Additional Federal guidance 
is needed in such areas as monitoring radiation levels, clean-
up standards, and management of radioactive waste. In addition, 
most cities and States wanted more interaction with Federal 
agencies to test recovery preparedness.
    Cities and States also expressed the need for intelligence 
information on dirty bomb and IND threats. They said that 
sharing information with law enforcement agencies is vital to 
planning. Only about one-half of the officials from States 
considered at risk of an attack felt that they were getting 
sufficient intel information.
    As part of our work, we also met with U.K. officials to 
discuss their handling of the 2006 polonium incident resulting 
from the murder of Alexander Litvinenko. While more limited in 
scope than what is envisioned by a dirty bomb, it had many of 
the characteristics of such an attack. Specifically, 47 sites 
across London had to be checked for radiological contamination, 
and about 20 were contaminated. Nine hundred people might have 
been exposed, and 20 showed signs of contamination, some 
significant. All of this from a gram of polonium-210 the size 
of a grain of salt.
    According to U.K. officials, this incident proved the value 
of recovery planning. In particular, through this incident, 
U.K. officials gained an appreciation for the need to have an 
established clean-up plan, including a process for determining 
clean-up levels, sufficient laboratory capacity to analyze 
large quantities of samples for radiation, and procedures for 
handling radioactive debris. Furthermore, they found that the 
action taken as a result of this incident and other actions 
they have taken has better prepared the United Kingdom for 
dirty bomb or IND attacks.
    Madame Chairwoman, that concludes my remarks. I would be 
happy to address any questions you may have.
    [The statement of Mr. Aloise follows:]
                   Prepared Statement of Gene Aloise
                           September 14, 2009
                             gao highlights
    Highlights of GAO-09-996T, a testimony to Subcommittee on Emerging 
Threats, Cybersecurity, and Science and Technology, Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    A terrorist's use of a radiological dispersal device (RDD) or 
improvised nuclear device (IND) to release radioactive materials into 
the environment could have devastating consequences. The timely clean-
up of contaminated areas, however, could speed the restoration of 
normal operations, thus reducing the adverse consequences from an 
incident.
    This testimony examines: (1) The extent to which Federal agencies 
are planning to fulfill their responsibilities to assist cities and 
their States in cleaning up areas contaminated with radioactive 
materials from RDD and IND incidents; (2) what is known about the 
Federal Government's capability to effectively clean up areas 
contaminated with radioactive materials from RDD and IND incidents, and 
(3) suggestions from Government emergency management officials on ways 
to improve Federal preparedness to provide assistance to recover from 
RDD and IND incidents. We also discuss recovery activities in the 
United Kingdom. This testimony is based on our on-going review of 
recovery preparedness issues for which we examined applicable Federal 
laws and guidance; interviewed officials from the Department of 
Homeland Security (DHS), Federal Emergency Management Agency (FEMA), 
Department of Energy (DOE), and Environmental Protection Agency (EPA); 
and surveyed emergency management officials from 13 large cities and 
their States, as well as FEMA and EPA regional office officials.
combating nuclear terrorism.--preliminary observations on preparedness 
    to recover from possible attacks using radiological or nuclear 
                               materials
What GAO Found
    DHS, through FEMA, is responsible for developing a comprehensive 
emergency management system to respond to and recover from natural 
disasters and terrorists attacks, including RDD and IND attacks. The 
response phase would involve evacuations and providing medical 
treatment to those who were injured; the recovery phase would include 
cleaning up the radioactive contamination from an attack in order to 
permit people to return to their homes and businesses. To date, much 
Federal attention has been given to developing a response framework, 
with less attention to recovery. Our survey found that almost all 
cities and States would be so overwhelmed by an RDD or IND incident 
that they would rely on the Federal Government to conduct almost all 
analysis and clean-up activities that are essential first steps towards 
recovery. However, we found that the Federal Government has not 
sufficiently planned to undertake these activities. For example, FEMA 
has not issued a national disaster recovery strategy or plans for RDD 
and IND incidents as required by law. Existing Federal guidance 
provides only limited direction for Federal agencies to develop their 
own recovery plans and conduct exercises to test preparedness. Out of 
over 70 RDD and IND exercises conducted in the last 5 years, only three 
have included interagency recovery discussions following a response 
exercise.
    Although DOE and EPA have experience in the clean-up of small-scale 
radiation-contaminated areas, their lack of knowledge and capability to 
apply approaches to address the magnitude of an RDD or an IND incident 
could increase recovery costs and delay completion. According to an 
expert at Idaho National Laboratory, experience has shown that not 
selecting the appropriate decontamination technologies can generate 
waste types that are more difficult to remove than the original 
material and can create more debris requiring disposal-leading to 
increased costs. Limitations in laboratory capacity to rapidly test 
thousands of material samples during clean-up, and uncertainty 
regarding where to dispose of radioactive debris could also slow the 
recovery process. At least two-thirds of the city, State, and Federal 
respondents expressed concern about Federal capability to provide the 
necessary analysis and clean-up actions to promote recovery after these 
incidents.
    Nearly all survey respondents had suggestions to improve Federal 
recovery preparedness for RDD and IND incidents. For example, almost 
all the cities and States identified the need for a national disaster 
recovery strategy to address gaps and overlaps in Federal guidance. All 
but three cities wanted additional guidance, for example, on monitoring 
radioactivity levels, clean-up standards, and management of radioactive 
waste. Most cities wanted more interaction with Federal agencies and 
joint exercising to test recovery preparedness. Finally, our review of 
the United Kingdom's preparedness to recover from radiological 
terrorism showed that that country has already taken actions similar to 
those suggested by our survey respondents, such as issuing national 
recovery guidance, conducting a full-scale recovery exercise, and 
publishing a national handbook for radiation incidents.
    Madame Chairwoman and Members of the subcommittee: I am pleased to 
be here today to discuss preliminary observations from our on-going 
work reviewing the Federal Government's preparedness to assist 
localities in recovering from a terrorist attack involving either a 
radiological dispersal device (RDD)--frequently referred to as a dirty 
bomb--or an improvised nuclear device (IND). Responding to such an 
attack would involve evacuations, providing medical treatment to those 
who were injured, and protecting property; recovery would include 
cleaning up the radioactive contamination from an attack in order to 
permit people to return to their homes and businesses.\1\ A terrorist's 
use of an RDD or IND to release radioactive materials into the 
environment could have devastating consequences. However, quickly 
analyzing and cleaning up contaminated areas after a deliberate release 
of radioactive materials could speed the recovery from such an attack 
by restoring normal operations of critical infrastructure, services, 
businesses, and public activities, and thus reducing the many adverse 
consequences from an attack. According to a recent report of the 
National Science and Technology Council, which coordinates science and 
technology policy within the Executive Office of the President, the 
ability of Government to quickly and decisively respond to and recover 
from an RDD or IND incident is key to national resiliency.\2\ 
Importantly, the Council noted that being prepared to recover from 
these incidents may even provide an element of deterrence if the 
adversary perceives less potential for long-lasting harm.
---------------------------------------------------------------------------
    \1\ For the purpose of this testimony, analysis activities include 
efforts to sample and analyze affected areas to determine the type and 
location of contamination, and clean-up activities include efforts to 
contain radioactive materials, decontaminate affected areas, and manage 
the radioactive waste.
    \2\ National Science and Technology Council, Roadmap for Nuclear 
Defense Research and Development: Fiscal Years 2010-2014 (Washington, 
DC: July 2008).
---------------------------------------------------------------------------
    The consequences of a terrorist attack using an RDD or IND would 
not only include loss of life but also enormous psychological and 
economic impacts. An RDD would disperse radioactive materials into the 
environment through a conventional explosive or through other means. 
Depending on the type of RDD, the area contaminated could be as small 
as part of a building or city block or as large as several square 
miles. An IND would create a nuclear explosion producing extreme heat, 
powerful shockwaves, and intense radiation that would be immediately 
lethal to individuals within miles of the explosion, as well as 
radioactive fallout over thousands of square miles. Thus, the 
consequences of RDD and IND incidents would vary in magnitude, with an 
RDD expected to cause few deaths but produce significant economic and 
psychological impacts, and an IND causing thousands of deaths and more 
extensive destruction. An RDD is thought to be a more likely terrorist 
weapon than an IND given the prevalent commercial use of radioactive 
source material--for example, in some medical and industrial 
equipment--and the relatively uncomplicated way in which this material 
could be dispersed. In contrast, detonating an IND would require a 
terrorist group to obtain nuclear weapons material--which is generally 
heavily secured--and have highly sophisticated expertise and equipment 
to fabricate this material into a weapon.
    If an RDD or IND incident occurred, a number of Federal, State, and 
local government departments and agencies would be involved in the 
analysis and clean-up of areas contaminated with radioactive material 
as part of the recovery process.\3\ Generally, State and local 
governments have primary responsibility for recovering from disasters, 
but the Federal Government may provide assistance when an incident 
exceeds State and local resources or when an incident is managed by 
Federal agencies under their own authorities. The Department of 
Homeland Security (DHS) is the principal Federal agency for domestic 
incident management. The primary mission of its Federal Emergency 
Management Agency (FEMA) is to develop a comprehensive emergency 
management system of preparedness, protection, response, recovery, and 
mitigation. For an RDD or IND incident, DHS would be the lead agency in 
coordinating Federal assistance to State and local governments. For 
these incidents, DHS would rely on other Federal agencies that have 
more experience with the analysis and cleanup of areas contaminated 
with radioactive materials. For example, in certain circumstances, the 
Department of Energy (DOE) would have primary responsibilities for the 
initial analysis of areas contaminated with radioactive materials, and 
the Environmental Protection Agency (EPA) would have primary 
responsibility for cleaning up the radiation-contaminated areas.\4\ The 
Department of Defense (DOD) would act in support of the primary Federal 
agencies. Federal agencies, including EPA, DOE, the Nuclear Regulatory 
Commission, as well as State regulatory agencies have set various 
clean-up standards for decontaminating affected areas.
---------------------------------------------------------------------------
    \3\ The Robert T. Stafford Disaster Relief and Emergency Assistance 
Act primarily establishes the programs and processes for the Federal 
Government to provide major disaster and emergency assistance to State 
and local governments, as well as to Tribal nations, individuals, and 
qualified non-profit organizations. Pub. L. No. 100-107, 102 Stat. 4689 
(1988) (codified as amended at 42 U.S.C.  5121 et. seq.).
    \4\ The Federal Radiological Monitoring and Assessment Center 
(FRMAC) is a DOE-led interagency asset that is available on request to 
respond to an RDD or IND incident. The FRMAC is responsible for 
coordinating all environmental radiological monitoring, sampling, and 
assessment activities for the response. DOE leads the FRMAC for the 
initial response phase and EPA assumes leadership for the clean-up 
phase.
---------------------------------------------------------------------------
    The risk of terrorists using an RDD or IND is, in large part, 
determined by their ability to gain access to the materials needed to 
construct these devices. Over the past few years, we have issued a 
number of reports on the security of nuclear and radiological 
materials, and facilities that house them. Overall, our work has shown 
that despite investing billions of dollars in new technology to upgrade 
security procedures, gaps continue to exist in our Nation's ability to 
prevent terrorists from accessing or smuggling dangerous quantities of 
radioactive material into the country. For example, in 2007, we 
testified before Congress that our own investigators were able to set 
up phony businesses and obtain a legitimate NRC license that would have 
permitted us to obtain dangerous quantities of radioactive material.\5\ 
Our investigators were able to obtain this NRC license just months 
after NRC had completed a lengthy process to strengthen its licensing 
procedures. In 2008, we reported that NRC, in developing its security 
requirements for research reactors, had not fully considered the risks 
associated with terrorists attacking these facilities--many of which 
are located on college campuses.\6\ Such an attack could involve 
terrorists sabotaging a reactor in order to disperse radioactive 
material over neighboring communities--similar to an RDD. We have also 
reported on DHS's and FEMA's preparedness for, response to, and 
recovery from disasters in 2007, 2008, and 2009.\7\
---------------------------------------------------------------------------
    \5\ GAO, Nuclear Security: Actions Taken by NRC to Strengthen Its 
Licensing Process for Sealed Radioactive Sources Are Not Effective, 
GAO-07-1038T (Washington, DC: July 12, 2007).
    \6\ GAO, Nuclear Security: Action May be Needed to Reassess the 
Security of NRC-Licensed Research Reactors, GAO-08-403 (Washington, DC: 
Jan. 31, 2008).
    \7\ GAO, Observations on DHS and FEMA Efforts to Prepare for and 
Respond to Major and Catastrophic Disasters and Address Related 
Recommendations and Legislation, GAO-07-1143T (Washington, DC: July 31, 
2007); Actions Taken to Implement the Post-Katrina Emergency Management 
Reform Act of 2006, GAO-09-59R (Washington, DC: Nov. 21, 2008); and 
National Preparedness: FEMA Has Made Progress, but Needs to Complete 
and Integrate Planning, Exercise, and Assessment Efforts, GAO-09-369 
(Washington, DC: Apr. 30, 2009).
---------------------------------------------------------------------------
    Our testimony today presents preliminary observations from our on-
going effort to examine: (1) The extent to which Federal agencies are 
planning to fulfill their responsibilities to assist cities and their 
States in cleaning up areas contaminated with radioactive material from 
RDD and IND incidents; (2) what is known about the Federal Government's 
capability to effectively clean up areas contaminated with radioactive 
material from RDD and IND incidents; and (3) suggestions from 
Government emergency management officials on ways to improve Federal 
preparedness to assist State and local governments in recovering from 
RDD and IND incidents. In addition, we are providing information on our 
review of actions taken in the United Kingdom to prepare for recovering 
from RDD and IND incidents. We expect to issue our final report on this 
topic in November 2009.
    To address these objectives, we examined pertinent Federal law, 
Presidential directives, and other executive guidance; interviewed 
cognizant officials from DHS, DOE, EPA, FEMA, NRC, and National 
laboratories; and conducted a survey of emergency management officials 
in 13 cities considered to be at high or medium risk of such attacks, 
officials in these cities' States, and similar officials in all Federal 
FEMA and EPA regional offices.\8\ We also reviewed information on the 
number and type of RDD and IND response and recovery exercises that 
have been conducted in the last 5 years. Finally, we visited the United 
Kingdom to review its preparedness to recover from RDD and IND 
incidents at the suggestion of EPA officials and because it has 
addressed a fairly recent radiological release incident in a large 
urban area.
---------------------------------------------------------------------------
    \8\ The high- and medium-risk cities are Boston, Chicago, Dallas, 
Denver, Detroit, Houston, Los Angeles, Miami, New York, Philadelphia, 
San Francisco, Seattle, and St. Louis. While Washington, DC, is 
considered a high-risk city, we excluded it from our survey because it 
is unlike other cities in its reliance on the Federal Government and 
the Federal agencies that would take over analysis and clean-up 
activities.
---------------------------------------------------------------------------
                               background
    In the aftermath of September 11, 2001, there is heightened concern 
that terrorists may try to smuggle nuclear or radiological materials 
into the United States. These materials could be used to produce either 
an IND or an RDD. An IND is a crude nuclear bomb made with highly 
enriched uranium or plutonium. Nonproliferation experts estimate that a 
successful IND could have a yield in the 10 to 20 kiloton range (the 
equivalent to 10,000 to 20,000 tons of TNT). An IND with a 20-kiloton 
yield would have the same force as the equivalent of the yield of the 
bomb that destroyed Nagasaki; it could devastate the heart of a medium-
sized U.S. city and result in thousands of casualties and radiation 
contamination over a wide area.
    Security experts have also raised concerns that terrorists could 
obtain radioactive material used in medicine, research, agriculture, 
and industry to construct an RDD, or dirty bomb. This radioactive 
material is encapsulated, or sealed in metal, such as stainless steel, 
titanium, or platinum, to prevent its dispersal and is commonly called 
a sealed radioactive source. These sealed sources are used throughout 
the United States and other countries in equipment designed to, among 
other things, diagnose and treat illnesses, preserve food, detect flaws 
in pipeline welds, and determine the moisture content of soil. 
Depending on their use, sealed sources contain different types of 
radioactive material, such as strontium-90, cobalt-60, cesium-137, 
plutonium-238, and plutonium-239. If these sealed sources fell into the 
hands of terrorists, they could use them to produce a simple, but 
potentially dangerous weapon, by packaging explosives, such as 
dynamite, with the radioactive material, which would be dispersed when 
the bomb went off. Depending on its type, amount, and form (powder or 
solid), the dispersed radioactive material could cause radiation 
sickness in people nearby and produce serious economic costs and the 
psychological and social disruption associated with the evacuation and 
subsequent clean-up of the contaminated area. While no terrorists have 
detonated a dirty bomb in a city, Chechen separatists placed a canister 
containing cesium-137 in a Moscow park in the mid-1990s. Although the 
device was not detonated and no radioactive material was dispersed, the 
incident demonstrated that terrorists have the capability and 
willingness to use radiological materials as weapons of terrorism.
    Another form of nuclear terrorism occurred with the release of 
radioactive materials in London. In November 2006, Alexander 
Litvinenko, a former officer of the Russian Federal Security Service, 
was poisoned with a gram of polonium-210--about the size of a grain of 
salt.\9\ His poisoning was detected only after he was hospitalized for 
a few weeks and tested for symptoms of radiation exposure because of 
hair loss. Following the poisoning, forensic investigators identified, 
with the help of the victim, 47 sites across London where he had been 
during the few days between his poisoning and death. Of these 
locations, about 20 showed signs of this radioactive material. 
Investigators identified over 900 people who might have been exposed to 
the polonium, including some who may have been exposed while aboard 
airplanes. After a thorough examination, a few of these individuals 
turned out to have significant exposure levels. The decontamination 
activities at these sites, including a hotel room, spanned 19 days, 
involved a number of methods and technologies, and cost in excess of 
$200,000.
---------------------------------------------------------------------------
    \9\ Investigators believe that this pure polonium was probably 
produced in a Russian research reactor.
---------------------------------------------------------------------------
cities and states would likely request federal assistance for clean-up 
   of radiation-contaminated areas after rdd and ind incidents, but 
   limited federal planning exists for recovering from such incidents
    While State and local government responders would be expected to 
respond first to a terrorist incident within their jurisdiction, they 
would also expect that the Federal Government would be prepared to 
provide the necessary assistance for them to expedite the recovery from 
such an incident. Emergency management officials from 13 cities and the 
majority of their respective States indicated in our survey that they 
would rely on the Federal Government to conduct and fund all or almost 
all analysis and clean-up activities associated with recovering from an 
RDD or IND incident of the magnitude described in the National Planning 
Scenarios.\10\ However, when asked which Federal agencies they would 
turn to for this assistance, city and State respondents replied 
inconsistently and frequently listed several Federal agencies for the 
same activity. In our view, these responses indicate that there is 
confusion among city and State officials regarding Federal 
responsibilities for these activities in the event of a terrorist 
incident. This confusion, if not addressed, could hamper the timely 
recovery from an RDD or IND incident. Emergency management officials 
from all the cities and most of their respective States told us they 
would rely on the Federal Government because their technical and 
financial resources would be overwhelmed by a large RDD incident--and 
certainly by an IND incident. Most of these officials believe they 
could adequately address a smaller RDD incident, such as one that is 
confined to a city block or inside a building.
---------------------------------------------------------------------------
    \10\ The National Preparedness Guidelines (Sept. 2007) developed 15 
national planning scenarios, including scenarios for RDD and IND 
incidents. The scenarios form the basis for coordinated Federal 
planning, training, exercises, and grant investments to prepare for 
emergencies of all types.
---------------------------------------------------------------------------
    Despite this anticipated reliance on the Federal Government, we 
obtained mixed responses as to whether these RDD and IND recovery 
activities should be primarily a Federal responsibility. Fewer than 
half of the respondents from the cities (6 of 13), but most of those 
from States (8 of 10) indicated that it should be primarily a Federal 
responsibility. The others stressed the need for shared 
responsibilities with the Federal Government. Despite the anticipated 
reliance by city and State governments on the Federal Government for 
analysis and clean-up activities following an RDD or IND incident, FEMA 
has not developed a National disaster recovery strategy or related 
plans to guide involvement of Federal agencies in these recovery 
activities, as directed by Federal law and executive guidance.\11\ To 
date, much Federal attention has been given to developing a response 
framework, with less attention to recovery. The new FEMA coordinator 
for the development of a National disaster recovery strategy told us 
that while the previous administration had drafted a ``white paper'' 
addressing this strategy, the new administration has decided to rethink 
the entire approach.\12\ She also told us that FEMA recognizes its 
responsibility to prepare a National disaster recovery strategy but she 
could not provide a time frame for its completion. However, she stated 
that when a recovery strategy is issued it should provide guidance to 
revise State, local, and other Federal agency operational plans to 
fulfill their respective responsibilities. Moreover, the FEMA official 
in charge of planning told us that the agency has put on hold issuing 
component plans that describe how Federal capabilities would be 
integrated to support State and local planning for response to and 
recovery from RDD and IND incidents.
---------------------------------------------------------------------------
    \11\ The Post-Katrina Emergency Management Reform Act requires FEMA 
to report back to the Congress within 270 days of enactment of this 
2006 legislation describing the details of a national disaster recovery 
strategy. Pub. L. No. 109-295,  682, 120 Stat. 1355, 1445-46 (2006). 
In addition, the National Security Council, National Strategy for 
Homeland Security (Washington, DC, Oct. 2007), states that the Federal 
Government will prepare a framework for recovery.
    \12\ In our November 21, 2008 report (GAO-09-59R), we found that 
FEMA had drafted a national disaster recovery strategy but that it was 
under review at the time with no time frame for completion.
---------------------------------------------------------------------------
    Some existing Federal guidance documents addressing the assets and 
responsibilities of Federal agencies for both response and to a lesser 
extent recovery-related activities have been issued as annexes to the 
National Response Framework and in other documents.\13\ For example, 
there is a nuclear and radiological incident annex, which describes the 
policies, situations, concept of operations, and responsibilities of 
the Federal departments and agencies for the immediate response and 
short-term recovery from incidents involving the release of 
radiological materials. There are also emergency support function 
annexes that provide a structure for coordinating Federal interagency 
support in response to domestic incidents.
---------------------------------------------------------------------------
    \13\ DHS, National Response Framework (Washington, DC, Jan. 2008). 
This document provides a guide for how the Nation should conduct all-
hazards response, including the roles and responsibilities of agencies 
involved in response efforts. It does not address long-term recovery 
issues, including cleaning up areas contaminated with radioactive 
materials.
---------------------------------------------------------------------------
    In addition, two other sources of guidance have been issued that, 
according to FEMA officials, represent stop-gap measures until it can 
issue more integrated planning guidance. In 2008, FEMA issued updated 
guidance for protection and recovery following RDD and IND 
incidents.\14\ This guidance was to provide some direction to Federal, 
State, and local emergency response officials in developing operational 
plans and response protocols for protection of emergency workers after 
such an incident. In regard to recovery, this document recommended a 
process to involve the affected public, State and local officials, and 
other important stakeholders in the identification of acceptable clean-
up criteria, given the specifics of the incident. The other document, 
issued by the Homeland Security Council, pertains to responding to an 
IND in the first few days prior to the arrival of other necessary 
Federal resources. This document was prepared because the prior FEMA 
guidance did not sufficiently prepare State and local emergency 
response authorities for managing the catastrophic consequences of a 
nuclear detonation.\15\ Moreover, DOE, EPA and DOD are developing more 
detailed operational guidance on their own based on the existing 
Federal guidance. For example, DOE has supported research on 
operational guidelines for implementation of protective actions 
described in the FEMA guidance,\16\ EPA has drafted guidance for the 
optimization process following RDD and IND incidents,\17\ and DOD has 
established operational plans for consequence management following 
terrorist incidents, including RDD and IND attacks.\18\
---------------------------------------------------------------------------
    \14\ DHS, Planning Guidance for Protection and Recovery Following 
Radiological Dispersal Device (RDD) and Improvised Nuclear Device (IND) 
Incidents, 73 Fed. Reg. 45,029 (Aug. 1, 2008).
    \15\ Homeland Security Council, Planning Guidance for Response to a 
Nuclear Detonation (Washington, DC: Jan. 16, 2009).
    \16\ C. Yu, et al. Preliminary Report on Operational Guidelines 
Developed for Use in Emergency Preparedness and Response to a 
Radiological Dispersal Device Incident, DOE/HS-0001 (Washington, DC: 
DOE, Office of Health Safety, and Security, February 2009). This 
document does not represent official policy, methods, or agency 
guidance.
    \17\ EPA, EPA Guidance on the Optimization Process Following a 
Radiological Dispersal Device or Improvised Nuclear Device Incident 
(Washington, DC: September 2009 Draft).
    \18\ We provided testimony on this DOD initiative in GAO, Homeland 
Defense: Preliminary Observations on Defense Chemical, Biological, 
Radiological, Nuclear, and High-Explosive Consequence Management Plans 
and Preparedness, GAO-09-927T (Washington, DC: July 28, 2009).
---------------------------------------------------------------------------
    Federal agencies and local jurisdictions have been using the 
available guidance as a basis for planning RDD and IND exercises to 
test the adequacy of their plans and skills in a real-time, realistic 
environment to evaluate their level of preparedness. We identified more 
than 70 RDD and IND response exercises planned and carried out by 
Federal, State, and local agencies since mid-2003. However, officials 
with FEMA's National Exercise Directorate told us that only three of 
the RDD response exercises had a recovery component. According to these 
officials, recovery discussions following an RDD or IND response 
exercise have typically not occurred because of the time needed to 
fully address the response objectives of the exercise, which are seen 
as a higher priority. The most recent response exercise, based in 
Albany, New York, and planned by DOE, set aside 2 days for Federal, 
State, and local agencies to discuss operational recovery issues. One 
unresolved operational issue discussed during this exercise pertained 
to the transition of the leadership of the Federal Radiological 
Monitoring and Assessment Center (FRMAC) from the initial analysis of 
the contaminated area, led by DOE, to the later clean-up phase, led by 
EPA. For example, there are remaining questions regarding the level and 
quality of the monitoring data necessary for EPA to accept the 
leadership of FRMAC. While we were told that this transitional issue 
has been discussed in exercises dating back to the development of the 
Federal Radiological Emergency Response Plan in 1984, it has only 
recently been discussed in RDD or IND response exercises. Another 
unresolved operational recovery issue pertains to the distribution of 
responsibilities for the ownership, removal, and disposal of 
radioactive debris from an RDD or IND incident. Both of these 
operational issues are to be examined again in the first full-scale RDD 
recovery exercise, planned and led by EPA, to take place April 2010.
 insufficient knowledge and capability to use available approaches for 
   clean-up of radiation-contaminated areas could impede efforts to 
                   recover from rdd and ind incidents
    Although some Federal agencies, such as DOE and EPA, have 
substantial experience using various clean-up methods and technologies 
to address radiation-contaminated areas, little is known about how 
these approaches might be applied in an RDD or IND incident. For 
example, DOE has invested hundreds of millions of dollars in research, 
development, and testing of methods and technologies for cleaning up 
and decommissioning contaminated structures and soils--legacies of the 
Cold War. In addition, since the passage of the Comprehensive 
Environmental Response, Compensation, and Liability Act in 1980, which 
established the Superfund program, EPA has undertaken significant 
efforts to study, develop, and use technologies that can address 
radioactive contamination. DOD has also played a major role in studying 
potential applications for innovative technologies for its Superfund 
sites.
    Not much is known, however, about the application to RDD and IND 
incidents of available clean-up methods and technologies because such 
an incident has never occurred in this country, although research is 
currently underway to gain a better understanding of potential 
applications. According to decontamination experts at Lawrence 
Livermore National Laboratory, current research has focused on 
predicting the effects of radiation release in urban settings through 
simulation, small-scale testing, and theory. In addition, researchers 
at EPA's National Homeland Security Research Center informed us that 
while there are standard methods and technologies for cleaning up 
radiation-contaminated areas, more research is needed to develop 
standard National guidance for their application in urban environments. 
The lack of guidance for identifying cost-effective clean-up methods 
and technologies in the event of an RDD or IND incident might mean that 
the clean-up approach taken could unnecessarily increase the cost of 
recovery. According to a decontamination expert at Idaho National 
Laboratory, for example, experience has shown that not selecting the 
appropriate decontamination technologies can generate waste types that 
are more difficult to remove than the original material and can create 
more debris requiring disposal--leading to increased costs. Moreover, 
he told us that without guidance and discussion early in the response 
phase, a contractor might use an approach for no other reason than it 
was used before in an unrelated situation. In addition, the Lawrence 
Livermore National Laboratory decontamination experts told us that 
decontamination costs can increase dramatically depending on the 
selection of an initial approach and the length of time before 
remediation actions are taken. For example, they said that the 
conventional use of high pressure water hosing to decontaminate a 
building is effective under normal conditions but could be the wrong 
clean-up approach for an RDD using cesium-137 because the force of the 
water would actually cause this radioactive isotope to penetrate even 
further into porous surfaces. A senior EPA official with the Office of 
Radiation and Indoor Air told us that studies are currently underway to 
determine the efficacy of pressure-washing for removing contamination 
from porous urban surfaces.
    In addition to the lack of knowledge about the application of 
clean-up methods and technologies for wide-area urban contamination 
from an RDD or IND incident, there are also limitations in Federal 
capabilities to handle in a timely manner the magnitude of tasks and 
challenges that would be associated with these incidents. For example, 
we found that limitations in Federal capabilities to complete some 
analysis and clean-up activities might slow the recovery from an RDD or 
IND incident, including: (1) Characterizing the full extent of areas 
contaminated with radioactive materials; (2) completing laboratory 
validation of contaminated areas and levels of clean-up after applying 
decontamination approaches; and (3) removing and disposing of 
radioactive debris and waste. Respondents representing most of the 
cities (9 of 13) and States (7 of 10), and respondents from most FEMA 
regional offices (6 of 9) and almost all EPA regional offices (9 of 10) 
expressed concerns about the capabilities of Federal agencies to 
provide the assistance needed to complete the necessary analysis and 
clean-up activities in the event of an RDD or IND incident.
 city, state, and federal emergency management officials have several 
 suggestions to improve federal recovery preparedness for rdd and ind 
                               incidents
    Respondents from nearly all the cities and States we surveyed 
expressed the need for a National disaster recovery strategy to address 
gaps and overlaps in current Federal guidance. According to one city 
official, ``recovery is what it is all about.'' In developing such a 
recovery strategy, respondents from the cities, like those from their 
States, want the Federal Government to consult with them in the initial 
formulation of a recovery strategy through working and focus groups, 
perhaps organized on a regional basis. Respondents representing most 
cities (10 of 13) and States (7 of 10) also provided specifics on the 
type of planning guidance necessary, including integration and 
clarification of responsibilities among Federal, State, and local 
governments. For example, respondents from some of the cities sought 
better guidance on monitoring radioactivity levels, acceptable clean-up 
standards, and management of radioactive waste. Most respondents from 
cities expressed the need for greater planning interactions with the 
Federal Government and more exercises to test recovery plans. One city 
respondent cited the need for recovery exercises on a regional basis so 
the cities within the region might better exchange lessons learned. 
Respondents from most cities (11 of 13) and their States (7 of 10) said 
that they planned to conduct RDD and IND recovery exercises in the 
future. Finally, emergency management officials representing almost all 
cities and States in our survey offered some opinions on the need for 
intelligence information on RDD and IND threats. They said that sharing 
information with law enforcement agencies is necessary for appropriate 
planning for an RDD or IND incident--which they generally consider as 
low-level threats--but only half of the respondents indicated that they 
were getting sufficient intelligence information. Emergency management 
officials from FEMA and EPA regional offices generally concurred with 
these observations and suggestions of the city and State respondents.
    the united kingdom's handling of the 2006 polonium incident and 
    subsequent actions to better prepare for an rdd or ind incident
    While it was more limited in scope than what is usually envisioned 
as an RDD incident, the aftermath of the 2006 polonium poisoning 
incident in London had many of the characteristics of an RDD including 
testing hundreds of people who may have been exposed to radiation and a 
clean-up of numerous radiation-contaminated areas. All this activity 
resulted from an amount of radioactive material the size of a grain of 
salt--many times smaller than the amount of radioactive material found 
in certain common medical devices that could be used in an RDD. Because 
of its experience in dealing with the clean-up from the 2006 polonium 
incident and other actions the United Kingdom has taken to prepare for 
an RDD or IND attack, we visited that country to examine its recovery 
preparedness programs. United Kingdom officials told us that the 
attention to recovery in their country is rooted in decades of 
experience with the conflict in Northern Ireland, dealing with 
widespread contamination from the Chernobyl nuclear power plant 
accident, and a national history of resilience--that is, the ability to 
manage and recover from hardship. We found that actions the United 
Kingdom reported taking to prepare for recovery from RDD and IND 
incidents are similar to many of the suggestions for improvement in 
Federal preparedness that we obtained through our survey of city, 
State, and Federal regional office emergency management officials in 
the United States. For example, we found that the United Kingdom 
reported taking the following actions:
  <bullet> Enacted civil protection legislation in 2004, with 
        subsequent non-statutory emergency response and recovery 
        guidance to complement this emergency preparedness legislation. 
        The emergency response and recovery guidance describes the 
        generic framework for multi-agency response and recovery for 
        all levels of government. The guidance emphasizes that response 
        and recovery are not discrete activities and do not occur 
        sequentially, rather recovery should be an integral part of 
        response from the very beginning, as actions taken at all times 
        can influence longer-term outcomes of the communities.
  <bullet> Developed on-line, updatable national recovery guidance in 
        2007. This guidance reinforces and updates the early emergency 
        response and recovery guidance by establishing, among other 
        things, a recovery planning process during the response phase 
        so that the potential impacts of early advice and actions are 
        explored and understood for the future recovery of the affected 
        areas.
  <bullet> Issued a national handbook for radiation incidents in 2008. 
        This handbook provides scientific information, including 
        checklists for planning in advance of an incident, fact sheets 
        on decontamination approaches, and advice on how to select and 
        combine management of these approaches.
  <bullet> Conducted a full-scale RDD recovery exercise in 2008. This 
        exercise, involving several hundred participants, provided a 
        unique opportunity to examine and test the recovery planning 
        process within the urgency of a compressed time frame. The 
        lessons learned from this exercise were incorporated into the 
        United Kingdom's recovery strategy.
  <bullet> Issued updated nuclear recovery plan guidance in 2009. This 
        guidance provides direction on recovery from events involving a 
        radiological release from a civil or defense nuclear reactor, 
        as well as the malicious use of radiological or nuclear 
        materials. Among other things, it requires that all high-risk 
        cities in the United Kingdom prepare recovery plans for such 
        incidents.
    In addition to these initiatives, in 2005, the United Kingdom 
established a special Government Decontamination Service. This 
organization was created out of recognition that it would not be cost-
effective for each entity--national, regional, and local government--to 
maintain the level of expertise needed for cleaning up chemical, 
biological, radiological, and nuclear materials, given that such events 
are rare.\19\
---------------------------------------------------------------------------
    \19\ The Government Decontamination Service is similar in size and 
responsibilities to EPA's National Decontamination Team, which became 
fully operational in August 2007.
---------------------------------------------------------------------------
    Finally, according to United Kingdom officials, the 2006 polonium 
incident in London showed the value of recovery planning. In 
particular, through this incident United Kingdom officials gained an 
appreciation for the need to have an established clean-up plan, 
including a process for determining clean-up levels, sufficient 
laboratory capacity to analyze a large quantity of samples for 
radiation, and procedures for handling the radioactive waste. 
Furthermore, they found that implementing clean-up plans in the 
polonium poisoning incident and testing plans in the November 2008 
recovery exercise have helped the United Kingdom to better prepare for 
a larger RDD or IND incident.
    Madame Chairwoman, this completes my prepared statement. I would be 
happy to respond to any questions that you or other Members of the 
subcommittee may have at this time. For further information about this 
testimony, please contact me.

    Ms. Clarke. Thank you very much, Mr. Aloise.
    We are going to break with the protocol. One of my 
colleagues has to leave a bit earlier. I would like to then 
recognize for 5 minutes the gentlewoman from California, Ms. 
Laura Richardson, for her questions at this time.
    Ms. Richardson. Thank you, Madam Chairwoman and also 
Ranking Member Lungren, for allowing me to kick off first. I 
have a 1 o'clock flight, and I have to get to the airport, so I 
appreciate it. Thank you.
    You know, I am a relatively new Member on the Homeland 
Security Committee, even though my district is very rich in 
targets. When I first heard the initial testimony of Mr. 
Conklin, when you said we need a coordinated Nation-wide 
program, I was somewhat surprised, given, you know, how many 
years now we have been working in this effort.
    Would you like to expand further on what you would more 
like to see? I thought Mr. Aloise's comments were excellent.
    Mr. Conklin. Well, the program that I am talking about is a 
program that was established by HSPD-7 for addressing the 
security of the Nation's critical infrastructure and key 
resources. That program was kicked off about 5 years ago in 
formality with the HSPD-7, but it started well before that.
    In the nuclear section, in particular, we have established 
a partnership framework that involves what we call a Government 
Coordinating Council of the Federal departments and agencies, 
as well as State representation. We work with a private-sector 
coordinating council, which has representatives from the power 
plants, manufacturers of portable sources, the representatives 
from the research and test reactors, from the universities and 
things like that. So that is the framework that I am talking 
about.
    Now, if you are talking about a bigger framework, the 
Federal Government has been involved in radiation protection 
issues, emergency response issues for years. Following TMI, for 
example, FEMA was assigned responsibilities to establish a 
Federal Radiological Preparedness Coordinating Committee. Their 
initial focus was the commercial power plants, but over the 
years they have expanded that focus into foreign accidents 
involving radioactive material, lost or orphan sources of 
radioactive material.
    So there has been a fair amount of effort going on to 
address these issues. Now, are we there yet? Do we have a 
system in place that we can point to that says we can answer 
all the questions and do everything that is going to be needed? 
I would have to agree with the gentleman at the other end of 
the table that that is not the case.
    There are still significant areas that need improvement 
with regard to risk communication, the ability to detect the 
material once it has been used, and then the follow-on and 
clean-up. It is going to be a massive effort to do that clean-
up and recovery; there is no question that.
    Ms. Richardson. Okay. Thank you.
    Mr. Sheely, as I was listening to your testimony and also 
reading the GTRI remote monitoring system, and when I looked 
under the initiatives it said that, ``Upon request, perform 
security assessments and upgrades.'' This is all to be done by 
2016, which I thought was a little odd that it would be upon 
request.
    Then it had here that you estimate that 2,200 buildings in 
the United States house Category 1 or 2 levels of materials. We 
have only done 37 buildings so far.
    Do you think we can really meet this goal by 2016? It is 
almost like fixing infrastructure to me. By the time you get 
there, it would seem like you would have to do it all over 
again. So is this realistic, the way that we are doing it?
    Mr. Sheely. Well, no, that is a very good question. As you 
said, it is a very complex issue. But we feel pretty confident. 
We have been doing security best practices overseas for many 
years, as far as the GTRI program. It was actually a fairly 
recent GAO study done by Mr. Aloise's group saying, who was 
offering those same kinds of best practices to source holders 
here in the United States? That just recently, within the last 
year or so, that we have really been partnering with NRC and 
DHS to offer such activities. Right now, we actually have more 
volunteers than resources available to address those 
volunteers.
    Ms. Richardson. I am sorry. Here in Congress, we run pretty 
tight on time frames. Mr. Conklin took a while. I have 1 
minute.
    My question is, right now you say we have 2,200 buildings 
that need to be evaluated and only 37 have been done. Do you 
think it is possible that we are going to achieve that?
    I am sorry; I just want to respect my colleagues.
    Mr. Sheely. Okay. I think it is possible to achieve it 
because we have just begun the program, and it is expanding 
quickly.
    Ms. Richardson. Okay. Will it have to be done again after 
2016? Is it something that is done repeatedly?
    Mr. Sheely. It should not have to be redone again, no.
    Ms. Richardson. Okay. Then, how many cities do we know have 
participated in the Securing the Cities Initiative? Does anyone 
know that?
    Mr. Riggio. There are 150, approximately, maybe 154 law 
enforcement agencies across those three States. It encompasses 
approximately 60 counties. Because there is cross-jurisdiction 
with sheriffs' offices and small townships, I couldn't give you 
an exact number of cities.
    Ms. Richardson. But that is just within the three cities 
that you are working with. That is not all the cities in 
general.
    Mr. Riggio. No, the three States. New York----
    Ms. Richardson. Three States, okay.
    Mr. Riggio. Yes. Picture Manhattan as the focal point, and 
expand in a radius, a circular radius, outside. You pick up 
Long Island, Connecticut, upstate New York, and New Jersey all 
around.
    Ms. Richardson. But are other cities across the country 
doing the same thing?
    Mr. Riggio. To my knowledge, the New York-area Securing the 
Cities Initiative is the first, and it has not been expanded at 
this point.
    Ms. Richardson. Okay.
    Thank you very much, Madame Chairwoman.
    Ms. Clarke. Thank you, Ms. Richardson.
    I want to once again just thank our witnesses for their 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for questions.
    My first question is to Mr. Conklin. One issue we on the 
committee struggle with is in protecting our infrastructure and 
providing for security of privately held assets.
    Were our voluntary efforts effective, or where do we need 
to regulate? In the case of source security, have voluntary 
efforts really been enough, or have you benefited from the fact 
that the NRC is there to provide regulation when needed?
    Mr. Levis, would you care to comment on that?
    Mr. Lewis. Well, thank you for the question.
    I think that these two programs do complement each other. 
The NRC's increased controls set a baseline of safety. The 
security assistance and the hardening that are done are 
voluntary measures that go beyond the minimum requirements for 
security that apply to everybody. Those requirements reflect 
best practices for a particular type of licensee, geographical 
issues such as what is specific to New York, and other factors. 
I do think they complement.
    We are undergoing a regulation change. In the spring of 
next year, we expect to issue new regulations on materials 
security. One of the things we will be seeking in the proposed 
regulation is feedback on how the voluntary measures and the 
increased controls, which are required measures, complement 
each other or not and can be used to the same goal.
    The voluntary measures have the advantage of being able to 
be done more expeditiously than if NRC were to require them. We 
would have to do a regulatory change, and then there is no 
longer a central place dealing with the vendors to enact the 
changes. It would be decentralized, where all the licensees 
would do it themselves.
    Ms. Clarke. Mr. Conklin, do you have anything to add?
    Mr. Conklin. I would definitely say that the voluntary 
program has benefited from those regulations. Having a baseline 
of activity that has preceded our coming into the program, if 
you will, for years really helped identify where we stand and 
established a good starting point from which to then elevate 
the level of protection that we wanted for these sources.
    Ms. Clarke. Very well.
    Captain Riggio, in August, an iridium source was reported 
missing here in New York. The source was recovered within 2 
days.
    Can you please tell us about the incident and please 
indicate whether any of the enhanced security measures, 
including updated tracking procedures, helped in recovering the 
source, or did you have significant Federal and State 
cooperation?
    Mr. Riggio. Madame Chairwoman, with respect to that 
incident, essentially what happened, on the morning of the 
incident, the office manager came into the facility, did the 
morning routine, the facility inspection, and noticed a piece 
of equipment missing.
    Nine-one-one was immediately called. Routine patrol 
officers responded to the scene. When we realized what, in 
fact, we were dealing with, obviously more enhanced and 
specialized units were called: The counterterrorism division, 
the joint terrorism task force.
    To get to your question, some of the measures that were put 
in absolutely helped in recovering it, because, without getting 
into too much for operational security, certain codes had to be 
put in to get into the facility. There were some cameras that 
were working, and so we were able to figure out maybe which 
individuals had come in in recent hours and get some sort of 
picture from a videocamera afterwards.
    So, yes, certain things did help in the recovery, yes, and 
the quick identification of where it might be and leading us to 
persons who may be of interest using other computer systems 
that we have, where, in fact, they may be located and where to 
put our resources to try to find them.
    Ms. Clarke. Thank you.
    Mr. Sheely, we have been pleased to see the progress made 
in getting the engineering upgrades placed on over 20 blood 
irradiator machines. It is my impression that the fact that DOE 
is providing these free of charge has been a big key to your 
success.
    Do you feel that providing these for free is essential, 
even though the upgrades range from $5,000 to $20,000 a piece, 
which seems like a very small investment for a major hospital?
    Mr. Sheely. Yes, we do feel that, again, offering these 
free of charge, as Mr. Lewis mentioned, is really accelerating 
the ability to secure these cesium irradiators much more 
quickly.
    As I am sure other colleagues would atone, many of these 
hospitals, especially the large hospitals, have on the order of 
six or seven or even eight of these large irradiators. The 
costs do add up when you have that many. It is always a trade-
off, whether it is a university setting, a hospital setting, or 
in the case of the facility where we are now is both, there is 
always a trade-off between patient care and security upgrades.
    So we do feel that this is a very valuable service which 
will ultimately result in the quickest security upgrades.
    Ms. Clarke. Thank you.
    I now recognize the Ranking Member of the subcommittee, the 
gentleman from California, Mr. Lungren, for his questions at 
this time.
    Mr. Lungren. Thank you very much, Madame Chairwoman.
    I want to thank all of you for your testimony. I had an 
enjoyable ride on the train up here and got to read it all, and 
it was very, very helpful, and I appreciate it.
    Mr. Conklin, Mr. Sheely, Mr. Lewis, how much, if at all, is 
the problem that you have articulated exacerbated by nuclear 
radiological waste at hospitals and other institutions?
    Mr. Conklin. Well, I will kick it off.
    I think the biggest concern we have is a small percentage 
of the radiological waste, and that deals with the actually 
sealed sources themselves that either through the use of their 
lifetime they lose their strength and therefore they are not 
suitable for doing the job they are doing.
    The ability to dispose of those, the cost has gone up, the 
options have gone down. So there is a tendency, or there could 
be a tendency, to accumulate this waste and store it on-site 
versus pay the cost for getting rid of it.
    Mr. Lungren. You say there could be a tendency. Is there a 
tendency?
    Mr. Conklin. I believe there is, yes.
    Mr. Lungren. Mr. Sheely.
    Mr. Sheely. Well, as Craig was mentioning, I think the main 
issue is that approximately less than 1 percent of the overall 
medical waste is useful in an RDD-type dispersion. So, in that 
sense, from a security standpoint, the risk is manageable, and 
the key is to separate those sources which are Category 1, 2 
sources, which could be used in an RDD, from just other medical 
radioactive waste.
    Mr. Lewis. There is a lack of disposal access for these 
sources. They are low-level waste. They are not nuclear waste 
or high-level waste. But they are greater than Class C low-
level waste, which means they are not suitable for near-surface 
disposal, and there is no facility that can take those at this 
time.
    Mr. Lungren. So where do they go? What do they do?
    Mr. Lewis. They are stored or returned to vendors. 
Fortunately, they are small in number and volume, so storage is 
an option.
    Mr. Lungren. Dr. Arquilla, what do we need to do to bring 
our country up to the level that you would like to see, with 
respect to preparation of our hospitals for responding to an 
event if it should happen, No. 1; and, No. 2, doing a better 
job of informing people of exactly what a dirty bomb is and 
what it is not?
    As you say, 65 percent, I believe it was, of the people 
would self-evacuate, which sounds good. But it is also bad 
because, when they evacuate, they are going to go to the 
hospital. As I understand your testimony, most would probably 
need not go to the hospital, at least not go to the hospital 
immediately.
    Dr. Arquilla. Probably the most important, best thing is to 
start with educating the population in general about, you know, 
what radiation is. We have 70 years of ``You are all going to 
get radiated and turned into a carrot.'' So I think that that 
would be one step.
    I mean, if you look at curriculums within nursing schools, 
medical schools, there is very little in this kind of 
education. Unless you going into radiation oncology, you really 
don't know anything about it. So, to me, it would be to go from 
both directions, it would need to be that.
    I think that kind of risk communication is not that 
difficult, but it is not happening. It is more hysteria 
education than it is--you know, most physicists aren't worried 
at all about this. They think we are kind of crazy to be so 
upset, you know, if you actually sit down and speak with them.
    Getting that across is a generational thing, but I think 
that that would be the most important thing. We have nonfunded 
mandates to do this education. We can't do it like that.
    Mr. Lungren. Captain Riggio, your testimony is impressive 
with respect to what the NYPD can do. It has often been 
observed that you have many more officers per population than 
just about any community in the United States. I reflect when I 
used to represent the southern California area and when I was 
attorney general, I remember the comparisons of LAPD versus 
NYPD.
    The reason why I bring that up is, you folks have done a 
great job of coordinating and having your own special units and 
so forth. Is that actually replicable in other parts of the 
country? Are there lessons that can be learned from your 
experience even though very few departments, if any, can 
replicate your organization and the detail of your units and 
subunits?
    Mr. Riggio. I believe it can. I mean, obviously, having 
personnel above and beyond what everyone else has is a great 
advantage. But that being said, you know, we live in a time 
where we can't use personnel resources as an excuse. So there 
are absolutely lessons that--and that is kind of what the 
Securing the Cities program has done.
    Many of the departments that we work with are smaller in 
size than us, but we pass along the lessons that we have 
learned, whether it be source security, interdiction methods, 
setting up chokepoints, how we run everything, all of our 
terrorism, not just radiological, CBRNE, different trainings 
and practice.
    So it can be replicated, to answer your question. It is 
difficult. I know, I am sure, that in this time, if you ask 
many of these agencies, they will talk about fiscal 
responsibility and fiscal crisis that we are in now and that 
they would need help to do these things. But I do believe it is 
absolutely replicable.
    I mean, that is something that we like and we wish. Because 
we see it as, yes, while New York City is the target, what 
happens in Pennsylvania and Ohio affects us, because something 
can happen there and they come over and bring it over to us.
    So I hope I answered your question, sir.
    Ms. Clarke. I now recognize the gentlelady from California, 
Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Madame Chairwoman.
    Again, once again, thank you all. You seem to have a great 
array of people here in New York, in the New York area, with 
respect to this issue. I applaud both you, Ms. Clarke, for 
holding this hearing, for having these types of experts here. 
It has been very enlightening this morning.
    I also want to thank, of course, our Federal people who 
were here, who I know are on the front line every single day, 
trying to figure out how we make all of this happen correctly.
    I represent Orange County, California. That could be 
Disneyland, Anaheim Stadium, the largest convention center west 
of the Mississippi, the third venue in the Nation for concerts 
being our Honda Center, Knotts Berry Farm. I am about 20 
minutes away from the Long Beach and Los Angeles ports, which 
Ms. Richardson has in her backyard, and aside some beautiful 
beaches.
    So you can imagine the type of concentration of people in 
my area every single day of the year that don't necessarily 
live there but who come in for the day or come in for the 
week--much in the same way as we might see New York City, with 
its influx of visitors. So we are very, very concerned about so 
many of these issues.
    In identifying--I have been in the Congress 13 years, when 
this committee was set up. I am the vice chair of the Homeland 
Security Committee. We identified our main venues. For example, 
I will start with Disneyland, where they said if something goes 
off in the park, maybe it affects 10,000 people in the vicinity 
of the park, but 60,000 people who live within a mile of 
Disneyland will be rushing to my emergency room at my hospital, 
which of course might have two beds open, as we speak right 
now, because there is such a crunch. So we started working with 
UC-Irvine, in particular, which is my hospital there in trauma 
and hospital of the vicinity, to work on these issues.
    Doctor, you mentioned that you didn't think there was 
anybody who had a decontamination, sort of, 24-hour process 
going on. I might urge you to talk to them, because we just 
built the new hospital. They don't have 24-hour, on-the-line 
team, but they do have probably the best thing in the Nation 
that one could have for that. So I would--I don't know if you 
are talking to them.
    Dr. Arquilla. I am talking about personnel, not about toys.
    Ms. Sanchez. We are talking about personnel also. They 
have----
    Dr. Arquilla. I graduated from Irvine. I know it very well.
    Ms. Sanchez. They have done a pretty good job over there, 
so I just wanted to mention that.
    But my big issue is this issue about, how do we talk to our 
people? I mean, how do I tell my people who are living within a 
mile of Disneyland--and I do--that if they hear something on 
the radio happening at Disneyland, that they don't rush down to 
the hospital? What do you think is the most effective way?
    I also want to hear from Captain Riggio, because local law 
enforcement are the ones who have to handle this herd mentality 
of, ``Oh, my God, the world is ending. Let's get to the 
place.''
    How do you suggest we do that? Have you seen resources? How 
are you dividing your resources and trying to communicate or 
getting this information out to the general public?
    Dr. Arquilla. One way that I see to do it is, prior to an 
event, we really need to start look at the emergency care as 
not an excuse for a clinic. That would be one thing on a 
regular basis across the board for all CBRNEs. Remember ``B'' 
is ``biologic,'' and we are looking at a big flu season this 
year.
    So, to educate people as to what hospitals can and can't 
do, prior to the event. I think that, within New York City 
public schools, they are actually trying to pilot some ideas on 
that, you know, when to go to the hospital, when not, for the 
parents and those issues.
    I don't think--I mean, it may be a health care issue, but I 
can only say that, unless we create liaisons with other 
organizations, be it news, first responder, which was fire, 
police, whatever, to let them know about risk management and 
really what the risks are, because they are very different 
risks than what we think, then I don't have a perfect excuse.
    But I do think education of our risks and understanding our 
risks in this kind of a committee, where we are really 
evaluating risk, I think is key.
    Ms. Sanchez. Captain.
    Mr. Riggio. To answer your question, our primary goal, our 
mission, is to prevent, obviously, something from happening. In 
the event that something would happen, then our goal becomes to 
mitigate and save as many lives as possible on the scene.
    As far as the question that I think you are asking----
    Ms. Sanchez. How is your salary paid, for example? Is it 
coming in from Federal grants? Is it coming in from a State 
grant? Is it a body at the police station now that has to be 
put over to this?
    Mr. Riggio. No, I am--you know, we have a budget, the city 
has a budget, that accounts for the personnel within the New 
York City Police Department, and I am just one of them.
    Ms. Sanchez. So every time that we pull you away from 
crime-fighting because we need to do this, we need to ensure 
that is moneys that you all are spending out of your own 
pocket, that, you know, we expect you to be doing all this but 
there is no real money in it?
    Mr. Riggio. You know, Federal funding is an issue that 
comes up. My duties are 100 percent solely to counterterrorism, 
and so that is my function. Twice a month, I do go back to 
patrol. But, essentially, my duties are strictly for 
counterterrorism.
    I apologize, I am not sure which question I am trying to 
answer here.
    Ms. Sanchez. I am trying to figure out, in a time of a lack 
of resources, at a time when we don't have as many people as we 
want on the beat, if you will, how we are going to fund pulling 
people away from their basic mission, which is stop the bad 
guys, to education, synergy, having plans in place and action 
also. I am trying to figure out where you are getting the money 
to do this.
    Mr. Riggio. Well, like I said, we budget it through two 
channels: Through the city's budget, which comes from taxes 
right here within the city tax base, and, you know, 
fortunately, we look to get a lot of Federal funding, as well. 
I mean, we apply for grants just like everybody else, and we 
push and we push and we push, because we know that it takes two 
parts, it takes multi-jurisdictions to get this done.
    We couldn't do it on our own. That is certainly for sure. 
In this day and age, we can't. We know what the environment is 
going to look like ever since September 11. Nothing is going to 
change. The mentality that we have, as far as, ``work, work, 
work, don't stop, you have to keep being on top of this,'' it 
is not going to change. It is not going to change, as long as I 
am going. So there needs to be a combination of city resources 
and Federal resources, as well.
    Ms. Sanchez. Thank you, Madame Chairwoman.
    I actually have one more question. May I ask it at this 
point?
    This has to do with--and I guess I would like to bring our 
GAO specialist here. We just had a study done at the State 
level in California with respect to where the homeland security 
moneys are from the State. You know, pretty much, we send a lot 
of the Federal moneys to the State, and the State gets it down, 
supposedly, to the local levels. It was a pretty scathing 
report about how jurisdictions are spending the money that is 
given to them.
    In particular, some say, well, you know, I mean, if you are 
going to give me $90 because it is on a population-based 
formula or something and so I am a little city, I am going to 
get something, yes, I am going to buy, you know, ventilation 
something or another that costs $89. I mean, it is not really 
significant towards what we are really trying to do, in some 
ways. This study basically said people are just spending money 
because it is there, and they are spending it and they are not 
really that strategic.
    I am not saying all of them. I think I have, you know, 
Mutual Aid and Sheriff Baca out there and everything that we 
have going. But would it be more effective--I would like to ask 
to our GAO specialist--have we seen this at Federal level? Have 
we done a type of study recently that speaks to where the 
moneys from the homeland security grants and things are going 
to and how effective they have been?
    One of the reasons that I hear from local agencies as to 
why they are buying things is because, to a large extent, they 
are not allowed to spend it on people, on personnel.
    Can you talk a little to that? I don't know if it is your 
area of expertise, if there is a study, if I just haven't seen 
it or I have forgotten that I read it. Have we done it 
recently? Do you have any comment with respect to this buying 
things versus maybe putting the money more towards personnel?
    Mr. Aloise. Let me try to answer that based on the work 
that we have done in this area. There probably is a study; I 
will check and get back to you if I find one.
    What we found, talking to people at the Federal, State, and 
local level, is that the State and local folks, when they get 
this money, what they need is some guidance on what to buy, 
what makes sense, and they are not getting that from the 
Federal level. They need more help in terms of, what are we 
supposed to defend against and what is the best equipment to 
buy? Sometimes they just end up buying stuff because they don't 
know what the right thing is to buy.
    We have talked about this a lot in reports, that they need 
more Federal guidance on what are the best ways, most efficient 
ways to spend money, on what equipment. So there is a need to 
get help to these people in terms of guidance at the State and 
local levels.
    Ms. Sanchez. Great. Thank you.
    Thank you for your indulgence, Madame Chairwoman.
    Ms. Clarke. We are going to do another round of 
questioning. I hope that our witnesses will be able to just 
hang in there with us. This is very intriguing, very important 
information that this subcommittee needs.
    I want to go to Mr. Miskin and ask for--can you give us an 
update as to the installation of engineering upgrades in New 
York City hospitals? Is New York complete as far as these 
upgrades are concerned? If not, when you do anticipate that all 
of the irradiators in the city will have these security 
upgrades? Do you feel that Federal agencies have been effective 
in working with you to achieve this goal?
    Mr. Miskin. Madame Chairwoman, we have had three facilities 
that were part of a pilot project in 2008 to have their cesium 
chloride blood irradiators hardened. I understand that we will 
be visited soon by NNSA to see if other facilities in the city 
need to be upgraded and hardened, and we will be working with 
them.
    Ms. Clarke. So it is not quite complete as of yet?
    Mr. Miskin. It is not.
    Ms. Clarke. Okay. Okay.
    Let me then turn to Mr. Aloise. I will ask you a question 
about the challenges that cities would face with an RDD attack 
using cesium chloride as a source and the medical response. I 
think it is important for us to understand what we will be 
dealing with should one of these sources be stolen and used as 
a dirty bomb.
    What are the critical challenges and difficulties in 
recovering from an RDD attack, specifically using cesium 
chloride as a source?
    Mr. Aloise. Well, one of the problems with cesium--and this 
is why recovery planning is so important, because recovery 
planning starts in the response. We need to know how to clean 
up some of these areas. Cesium, in particular, if you do it the 
wrong way, it is going to end up costing you more money, and 
you may have to demolish a building rather than just clean it 
up. If you use a high-pressure hose on cesium, it actually 
pushes it further into the building and makes the condition 
worse.
    So there has to be--in the response phase, there has to be 
that recovery planning. After we have characterized what the 
material is, determine the best way to clean it up, and let the 
first responders know, ``On this particular building, you are 
not supposed to use a high-pressure hose because that makes 
things worse.''
    Ms. Clarke. Very well. I think, you know, that, in 
combination with the concern that Ms. Sanchez has about what we 
are purchasing, what we are actually teaching or giving 
guidance to with regard to jurisdictions around this Nation, it 
compounds the problem.
    Without the proper training and education and the 
purchasing of just, you know, equipment for equipment's sake, 
we are really building up a false sense of security in certain 
jurisdictions around this Nation. I think it is really 
important that DHS, sort of, gets on top of this.
    Let me just ask that similar question. I see you are back, 
Dr. Arquilla. What would you say are the most significant 
challenges that the city would face if there were an RDD attack 
using cesium chloride as a source, as far as the medical 
response?
    Dr. Arquilla. I mean, it is a really nasty radiation, so 
there will be sick people. I think that is the No. 1 thing. If 
I were to really boil it down, the greatest challenge is who is 
sick and who is not and being able to tell. Also, looking at, 
you know, who needs to be watched. If we were to, you know, use 
something like a blood test, then that means we are testing 
thousands and thousands of people and also waiting for the 
results to get back.
    So I think probably, from a medical point of view, the big 
challenge is who is sick, who is not sick, who needs to be 
watched and for how long. Some studies say you need to watch 
people for 25 years. You know, that is a huge, a huge question 
that you have to look at.
    Just one other thing, too, is, if you were to, like, say, 
``Okay, I don't know anything this, let me go to the CDC 
website and look it up,'' there are probably, oh, hundreds of 
documents on it. There is no easy, like, let me find it, this 
is yes, this is no. I think that that--you know, it is like too 
much knowledge is almost another part of what is going on.
    Thank you.
    Ms. Clarke. Thank you.
    I now recognize our Ranking Member, Mr. Lungren from 
California, for his questions at this time.
    Mr. Lungren. Thank you, Madame Chairwoman.
    In terms of replicating things, you ought to contact the 
people who manufacture your hand dryers in there. I went to the 
restroom, and I thought that there was a high-pressure hose in 
there. Either that or a jet engine. I have never heard so much 
noise. It dried my hands completely. So talk to those folks.
    Captain, when you talk about way of paying for these 
things, I looked at my bill from the hotel, and we are doing 
our part. We are paying the State $32, we are paying the city 
$21, and then you have an occupancy tax of $3.50.
    Mr. Riggio. We thank you for that.
    Mr. Lungren. It may be helping your salary.
    I think some people don't appreciate the Securing the 
Cities program. That is a program that is specifically for this 
three-State region. It is something that was supposed to be a 
seed money program. It has discontinued, although I know a 
number of people in the New York delegation are working hard 
for it. Peter King and I have spoken out for it, because I do 
think what you are doing here is important. But more than that, 
I think it does give us some examples of what we must and can 
do around the country.
    Ms. Clarke. Will the gentleman yield just a minute?
    Mr. Lungren. Yes, I would be happy to.
    Ms. Clarke. Yes, we were successful in getting the funding 
put into the appropriations bill. Hopefully it will remain 
through the Senate reconciliation.
    Mr. Lungren. So, I mean, it is important for us to 
understand what you are doing with these funds and how it is 
working in an effective way.
    One of the things I noted in your testimony, you talked 
about surveys and security recommendations, almost 100 
facilities within the city of New York. Are those only medical 
facilities, or are they industrial facilities?
    If they are industrial facilities, was the industrial 
facility in which you discovered that industrial radiograph 
missing one of those that you have given special attention to?
    Mr. Riggio. It was. The locations that I spoke about were 
combined; it was medical and industrial facilities. That was a 
facility that we had visited in the past. So we----
    Mr. Lungren. Is it a concern of yours that it is one of 
those that you visited in the past that had the understanding 
that they should report something like this to you right away? 
Or do you feel that that would be reported to your folks as a 
theft or missing inventory with the dispatch that this was 
reported to you?
    Mr. Riggio. We were happy with the reporting here, that it 
happened so quickly. Obviously, what we found out after the 
investigation we were not happy with. This practice that we are 
trying to uncover as to, is there more that happens with these 
employees once they get off?
    But as far as the reporting, I mean, they did exactly what 
they should. They came in; they noticed this right away. They 
called 
9-1-1.
    We handled it on two fronts: We handled internally within 
our city and what we needed to do to try to locate is this. 
But, also, the reason the Securing the Cities program exists is 
for situations just like this. So we actually initiated a 
Securing the Cities conference call and brought all our 
partners into what was happening and had them stand up to a 
certain level, as well.
    Mr. Lungren. One of the reasons why it is important to have 
this testimony from this panel is that, in the Congress, we 
have done something over the last number of years since 9/11 
which is a little different. We have tried to use homeland 
security funds, programs, on a bipartisan basis that are risk-
based as opposed to strict population formula-based. That 
debate continues to rage, and it is raised every single year.
    Because you have to understand, oftentimes there is a 
notion that funding ought to go fairly to everybody, no matter 
what the risk is. It is important for us to remind ourselves 
that risk-based funding is not only important from the 
standpoint of those of us in Congress, but also the Executive 
branch carrying that out, and then at the local and regional 
levels, that they understand that is what the focus of these 
programs are.
    So, Mr. Aloise, you indicated in your testimony that the 
GAO survey of agencies from these exercises that have occurred 
on the State and municipal level has revealed, I believe your 
language is, ``an overreliance on Federal help and the lack of 
Federal planning in the event of an attack.''
    Can you talk about that a little bit more?
    Mr. Aloise. Yes, I am talking about recovery planning. 
There has been lots of attention placed on response, not enough 
on recovery yet. I think our first exercise won't be until 2010 
on recovery. Most of the State and local people we surveyed see 
the need for that, want the involvement of Federal Government, 
want more interaction, including New York State, with the 
Federal Government on planning.
    As I mentioned earlier, part of a successful response is to 
have your recovery planning into that, so you are not doing 
things that are going to cause you problems in the long term.
    Mr. Lungren. Here we are in New York. You were ground zero, 
this city. We have just gone through the anniversary of 9/11. 
One of the concerns that I have had and continue to have is the 
lack of urgency we have, both on the Federal level and in local 
levels. We haven't had an attack since 9/11 so we have let our 
guard down. That would be the wrong message.
    I hope what we are talking about here with this specific 
problem is that we have to maintain or re-establish that 
urgency, but do it in an intelligent way, as Dr. Arquilla says. 
Let's understand what the threat is, not overhype it, not 
underestimate it, but know what the facts are and then deal 
with those facts.
    So I thank you for your testimony. It has helped us very, 
very much.
    Thank you, Madame Chairwoman.
    Ms. Sanchez. Madame Chairwoman.
    Ms. Clarke. Yes, Ms. Sanchez.
    Ms. Sanchez. Madame Chairwoman, because of the time 
constraints, I will be submitting some questions for the record 
for the witnesses to answer, if that is okay with you.
    Ms. Clarke. Before we conclude, I would just also like to 
ask unanimous consent to submit a statement by the IP Radiation 
Associates to the record.
    Hearing no objection, so ordered.
    [The information follows:]
             Statement of IP Radiation Security Associates
    Dear Chairwoman Clarke and Members of the subcommittee: My name is 
Keith Reynolds and I am the founder and principal of IP Radiation 
Security Associates. I am also a co-founder of a company that develops 
software to improve response procedures in the case of a radiological 
event. I continue to work with Internet Protocol-based security and 
radiation instrumentation companies to make our world safer from 
criminal use of radiological materials. We are employing Internet 
Protocol (IP) technologies to tie commercial, off-the-shelf (COTS) 
security systems together with a variety of radiation detectors.
    By networking radiation and various other COTS security systems we 
can enhance the security of radiological sources, improve first 
responder's ability to react to a radiological event and reduce costs 
compared to proprietary detection systems. The implementation of IP 
Radiation Security (IPRS) systems is especially important to the 
programs like the Global Threat Reduction Initiative (GTRI) and those 
considered under House Bill HR 2070, the Radiological Materials 
Security Act introduced by Chairwoman Clarke. As taxpayers we will be 
afforded greater protection for the money spent in this critical area.
    The threat of terrorists abusing radioactive materials is grave. 
The sheer availability of sources in facilities employing less than 
optimal security programs creates a need for more public and private 
investment in new security systems. We must also rethink how security 
is implemented based on the improvements new technologies enable. Such 
changes necessitate new knowledge and training to be sure. However, the 
risk posed by the status quo is high. In my own work over the last 
several years I have been in situations where I have had access to 
significant amounts of radiological materials in facilities I would 
consider less than secure.
    I submit this statement for the record to highlight the threats 
posed by radiological sources and offer a cost-effective solution for 
Government and private efforts to secure them.
         the threat posed by legitimate radiological materials
    In the United States of America alone, there are nearly 23,000 
licensees using radiological materials. These users are charged with 
the security of roughly 2 million sources. There are some 10 million 
sources worldwide.
    Radiological materials can uniquely help solve the world's food, 
energy, environmental, and cancer problems. However, growing use of 
radiological material in these sectors, combined with the global threat 
of terrorism, has increased the risk of unwanted radiation exposure. 
Accordingly, radiation security has become as important, if not more 
important, than the traditional Radiation Safety model, which has 
existed for over 50 years.
    A small amount of conventional explosives combined with stolen 
radiological material is enough to create a ``dirty bomb'' (or RDD, 
short for Radiological Dispersion Device). One thousand curies of 
Cesium-137 (Cs-137) could fit in a soda can. Between 50 and 100 curies 
of Cs-137 is enough to make a RDD that could shut a Grand Central 
Station-sized building for a year or more as crews clean up the 
facility to achieve Federally mandated background radiation levels.
    A dirty bomb would not likely kill large numbers of people from 
radiation poisoning. Such a device would certainly cause massive 
economic disruption. Estimates are for up to $100 billion to clean up 
dispersed material \1\ and as high as trillions in economic losses.\2\ 
A ``Radiological Emissions Device,'' where a relatively small amount of 
radiological material is left in a public facility, presents a scenario 
that could potentially injure or kill hundreds of people. Widespread 
societal panic will surely ensue in both cases.
---------------------------------------------------------------------------
    \1\ ``Public Still in the Dark When it Comes to Dirty Bomb 
Threat'', by Stew Magnuson June 2008.
    \2\ ``Testimony of Dr. Henry Kelly, President Federation of 
American Scientists before the Senate Committee on Foreign Relations'', 
March 6, 2002. On-line at: http://www.fas.org/ssp/docs/
kelly_testimony_030602.pdf.
---------------------------------------------------------------------------
     the problem of lost or stolen sources and illicit trafficking
    The International Atomic Energy Agency (IAEA) has recorded 1,562 
nuclear trafficking incidents from 1993 through 2008. Worldwide, the 
number of reported cases of lost and stolen radiological materials has 
been increasing according to the IAEA. These incidents range from 
illegal efforts to dispose of radioactive materials, to discovery of 
``orphaned'' nuclear material of unknown origin. In its 2008 annual 
report released in August of this year, the IAEA received reports of 15 
cases of clandestine nuclear possession, or related incidents and 16 
cases involving theft or loss of sensitive substances. According to the 
IAEA, these incidents are part of 119 events that were added to the 
IAEA's Illicit Trafficking Database in 2008, while this year to June, 
the agency has received reports of 215 incidents. That is up from 85, 2 
years prior, though the IAEA does have participation by additional 
countries.
    In an August 1, 2007 NY Times editorial entitled ``Seize the 
Cesium'' by PETER D. ZIMMERMAN, JAMES M. ACTON and M. BROOKE ROGERS: 
``In the United States, commercial users lose about one radioactive 
source a Day . . . through theft, accidents or poor paperwork. One of 
these is recovered perhaps every two days, either because the 
radioactive materials are voluntarily returned or because of good 
detective work.''
    I have been studying the daily incident report activity posted on 
the website of the Nuclear Regulatory Commission (NRC). Besides Cs-137, 
of greatest concern to me is the number of incidents involving 
significant amounts (30-100 Curies) of Iridium-192 (Ir-192) being 
deployed in the field of radiography for applications such as verifying 
pipeline welds. This survey of the NRC database of reported incidents 
over the last several months show just how prone to human error 
security is and highlights there is room for improvement. I submit for 
the record one of these incidents where an improved security system 
that integrates radiation detection, surveillance and communications 
could have helped. More are posted with comments on our website, 
www.IPradiationsecurity.com (with commentary) and at www.nrc.gov.
                      weapons of mass destruction
    The Commission on the Prevention of Weapons of Mass Destruction 
Proliferation and Terrorism's Report to U.S. Congress submitted 
December 3, 2008, quoted Dr. Mohamed ElBaradei, Director General of the 
International Atomic Energy Agency (IAEA) speaking to the United 
Nations General Assembly on October 28, 2008: ``The possibility of 
terrorists obtaining nuclear or other radioactive material remains a 
grave threat . . . It is more likely than not that a weapon of mass 
destruction will be used in a terrorist attack somewhere in the world 
by the end of 2013.'' In my own opinion, a RDD is probably the most 
likely weapon to be used.
    Programs to mitigate ``loose,'' or under-protected source materials 
are growing at home and abroad. In the United States of America, we 
have seen the NRC promulgate the Orders of Increased Control, GTRI has 
seen increased funding and the Radiological Materials Security Act has 
been introduced a second time. Abroad, radiological security has become 
a way for President Obama to engage the world from a foreign policy 
standpoint. Not only does the president advocate for the reduction of 
nuclear weapons through arms reduction agreements, but there is also a 
significant effort underway through these discussions to increase 
security of all other radiological material that are at risk.
    Funding security enhancements and implementing networked radiation-
monitoring systems that are interoperable with the security systems 
already in place are two large challenges that we face in addressing 
these security questions. Internet Protocol (IP)-based radiation 
detection systems can help make our Nation safer from radiological 
abuse by lowering costs and facilitating systems integration--just as 
the internet has revolutionized many aspects of our society, we can 
apply these technologies to do a better, faster, and more cost-
effective job protecting ourselves from the threats of radiological 
terrorism.
                     what is ip radiation security?
    A fully integrated enterprise security system provides near real-
time monitoring of persons who enter facilities that house radiological 
materials and enhances control and reporting capabilities. Such systems 
integrate and utilize information from many discreet security systems.
    IPRS combines digital, or ``IP-enabled'' radiation monitoring 
systems with other IP security tools, such as video surveillance, 
access control, motion detection, and the enterprise security 
management software in an integrated solution, or ``systems of 
systems'' approach. By combining specialized tools it is possible to 
better manage response procedures or ``CONOPS'' in case of a 
radiological event. Beyond better procedural response, IP Radiation 
Security tools can improve things such as forensic analysis, security 
policy, training and reporting. IPRS video systems can even 
automatically save video of an incident in a court-admissible format 
for evidentiary purposes.
    There are three major categories of radiological security:
    (1) Custodial--protecting materials in the places where they are 
        used.
    (2) Transport--monitoring the flow of goods and people to stop 
        unwanted movement of illicit materials.
    (3) Ingress--protecting potential target locations from a dirty 
        bomb, or possibly the arrival of patients to a medical facility 
        after a nuclear event.
    For the purposes of this hearing on Radiological Source Protection, 
I have highlighted the application of these systems to Custodial 
activities. It should be noted that IP security tools could also be 
applied to Transport and Ingress applications. The waste management 
industry is one additional sector that can also use IPRS tools to help 
eliminate radioactive materials from transfer stations and landfills; 
again, not the focus of this statement of record.
    The IAEA recently released publication number 1387, entitled 
Security of Radioactive Sources. It is an implementation guide for the 
security of facilities housing radiological sources that provides a 
comprehensive tool for legislators and regulators, physical protection 
specialists and facility and transport operators, as well as for law 
enforcement officers. (STI/PUB/1387, 66 pp.; 2009, ISBN 978-92-0-
102609-5, English. Date of Issue: 6 July 2009.)
    Below, I have enclosed Table 2 from IAEA's Security of Radioactive 
Sources publication, which outlines the specific objectives of a 
radiological security program, based on the prerequisite threat 
assessment that drives the prescribed security functions. This table 
identifies the many ways a fully integrated systems approach to 
radiation security can help to achieve the program recommended by the 
IAEA.
    IPRS systems can be designed for a stand-alone facility, or to be 
incorporated into an enterprise security management software 
environment to maximize the scope of response capabilities. Systems can 
even enable communications that span across organizational boundaries. 
In all cases a threat assessment is conducted, and a security plan is 
developed, prior to systems design.
    Below the IAEA's Table, I have taken the recommended security 
functions and measures presented in the IAEA guide and provided a lower 
level of detail to show how a range of commercial IP security systems, 
configured to work together with IP-enabled radiation instrumentation, 
can increase the likelihood of achieving the IAEA's stated security 
objectives.

                                TABLE 2.--SECURITY LEVELS AND SECURITY OBJECTIVES
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
                                                                  Security Objectives
                                      --------------------------------------------------------------------------
Security functions...................  Security Level A Goal:   Security Level B Goal:   Security Level C Goal:
                                        Prevent unauthorized     Minimize likelihood of   Reduce likelihood of
                                        removal \1\              unauthorized removal     unauthorized removal
                                                                 \1\                      \1\
                                      --------------------------------------------------------------------------
Detect...............................    Provide immediate detection of any unauthorized access to the secured
                                                                  area/source location
                                      --------------------------------------------------------------------------
                                       Provide immediate        Provide detection of     Provide detection of
                                        detection of any         any attempted            unauthorized removal
                                        attempted unauthorized   unauthorized removal     of the source
                                        removal of the source,   of the source
                                        including by an
                                        insider
                                      --------------------------------------------------------------------------
                                                       Provide immediate assessment of detection
                                      --------------------------------------------------------------------------
                                                 Provide immediate communication to response personnel
                                      --------------------------------------------------------------------------
                                             Provide a means to detect loss of source through verification
                                      --------------------------------------------------------------------------
Delay................................  Provide delay after      Provide delay to         Provide delay to reduce
                                        detection sufficient     minimize the             the likelihood of
                                        for response personnel   likelihood of            unauthorized removal
                                        to interrupt the         unauthorized removal
                                        unauthorized removal
                                      --------------------------------------------------------------------------
Response.............................  Provide immediate        Provide immediate        Implement appropriate
                                        response to assessed     initiation of response   action in the event of
                                        alarm with sufficient    to interrupt the         unauthorized removal
                                        resources to interrupt   unauthorized removal     of a source
                                        and prevent the
                                        unauthorized removal
                                      --------------------------------------------------------------------------
Security management..................     Provide access controls to source location that effectively restrict
                                                            access to authorized persons only
                                      --------------------------------------------------------------------------
                                                    Ensure trustworthiness of authorized individuals
                                      --------------------------------------------------------------------------
                                                       Identify and protect sensitive information
                                      --------------------------------------------------------------------------
                                                                Provide a security plan
                                      --------------------------------------------------------------------------
                                           Ensure a capability to manage security events covered by security
                                                         contingency plan (see the Definitions)
                                      --------------------------------------------------------------------------
                                                       Establish security event reporting system
----------------------------------------------------------------------------------------------------------------
\1\ Achievement of these goals will also reduce the likelihood of a successful act of sabotage.

                     systems and their capabilities
  <bullet> Radiation Detection.--Alerts from ``stand-off'' IP sensors 
        that sit on the security network and are strategically placed 
        in a facility. These sensors can transmit the ``activity'' 
        levels in terms of dose rate to first responders. These sensors 
        give an indication of the strength of the source and ``energy 
        level,'' which helps to provide an indication of the isotope 
        that has been detected. Software from Defentect in Norwalk, CT 
        can gather specialized radiological data from many types of 
        detectors from manufacturers like Ludlum Measurements, located 
        in Sweetwater, TX, and transmit ``intelligent'' alerts to the 
        other components of the security framework to help radiation 
        safety personnel, security professionals, and public safety 
        officials better understand the situation to which they are 
        responding.
  <bullet> Video Surveillance.--Video from cameras in the area that 
        would capture a person's image and for storage in Digital Video 
        Recorders. Robust video surveillance software addresses many 
        other functions. Systems, like those from OnSSI of Pearl River, 
        NY, enable customized viewing of many cameras, pushing of video 
        to specified personnel on preset events, storage, and archival 
        management of thousands of hours of recorded video, easy search 
        interfaces to help security and radiation safety personnel 
        investigate incidents, and saving of video in tamperproof 
        court-admissible format. These systems offer ``analytics,'' 
        such as license plate recognition and specific detection rules 
        for identifying suspicious activities.
  <bullet> Access Control.--Authorized persons requiring access to a 
        facility are required to provide information for use in 
        conjunction with a magnetic swipe, or RFID card. Identity 
        confirmation is made whenever the card (with PIN if required) 
        is used to access a door in the facility. The database record 
        created in the system can include the person's name, the door 
        accessed and date/time of the attempt to access a doorway. This 
        information can be combined with other elements of a 
        comprehensive security management system.
  <bullet> Interaction with a ``tamper strap'' device used to monitor 
        the containment receptacles in which radiological materials are 
        stored can trigger video surveillance, text messaging and calls 
        for personnel to investigate the incident.
  <bullet> Motion detection, a common feature of IP video surveillance 
        management systems from companies such as OnSSI, triggers 
        alerts to be generated to the system. Infrared sensors can also 
        identify motion in a facility.
  <bullet> Dry contact devices, which indicate that an analog 
        electronic circuit has either been opened or closed. These 
        enable a wide range of capabilities from identifying open 
        windows to taking the pulse from an analog radiation detector. 
        Equipment from companies like Defentect now exists to 
        ``digitize'' the pulse from analog radiation instrumentation, 
        so that the signal can be included into an IP radiation 
        security system to enhance required security procedures.
  <bullet> Systems can automatically generate instructions based on 
        predetermined events to minimize injury, or loss of life. 
        Documented response procedures, or CONOPS can be presented to 
        responders in a variety of formats, so that they react to an 
        event in the best possible fashion as outlined in planning and 
        training.
    Finally, all of these components must be configured to enable a 
faster, more informed response by police, fire, medical, and private 
security--in addition to management and regulatory officials. A 
security infrastructure must offer multifaceted communications and 
messaging between humans and machines. Examples of such communication 
ranked in order of response criticality include:
    (1) Send relevant data to other components of the security system 
        on the IP Network using a protocol called ``XML.''
    (2) Broadcast video to guard stations, cars, handheld devices, cell 
        phones, laptop computers.
    (3) Send SMS text messages with incident details to responder cell 
        phones and pagers.
    (4) Send emails with incident details to personnel who need to be 
        informed, but not necessarily respond immediately.
    (5) Log all data (including video) to a database for later 
        reporting, forensic analysis, training or policy analysis, and 
        future personnel training.
    With proper design and integration, mobile and wireless systems can 
also be supported to extend the security zone.
                               conclusion
    Certainly, terrorists have proven their capability to commit crimes 
against unsuspecting targets, making radiological security a bigger 
concern than ever before. While radioactive materials offer significant 
benefits to society and the vast majority is in well-secured 
environments, there are cases where responsible licensees have lost 
control of those sources. These cases represent only a small fraction 
of the total sources in use, but there have been a few cases of 
accidents, which have yielded serious consequences. Terrorism would 
make a radiation situation far worse and create serious consequences 
for civil society.
    Vendors have begun to market COTS IPRS solutions that need broader 
consideration. A growing number of radiation control, physical and 
homeland security, and information technology professionals believe 
additional safeguards, including the networking of radiation detectors 
with IP-based security systems, is needed.
    By including IPRS as part of an overall program that utilizes 
industry standard IP security and surveillance tools, users of 
radiological materials--and others concerned about securing facilities 
from threats posed by radioactive materials--can implement radiation 
security and response systems on a broader and much more cost-effective 
basis than the proprietary systems deployed since 9/11.
    IPRS is a natural extension of ``digital convergence'' in the 
disciplines of security and information technology. IPRS offers a 
reliable and cost-effective means to provide higher security for 
radiological materials. Security tools that are commercially available 
today can not only increase security, but also reduce start-up and 
operating costs in implementing large-scale source protection 
initiatives.
    Thank you for the opportunity to submit this statement for the 
record. I am available to answer any questions you may have.
appendix a.--nrc incident report post from ipradiationsecurity.com blog
    This is a case where IP radiation security systems would improve 
the understanding of what happened. Networked surveillance video and IP 
radiation sensors that work in concert with each other should have 
monitored the door and strategic internal locations. The video images 
and any radiation information (dose rate, count rate, energy level, 
isotope) could have been immediately transmitted to guard stations, 
corporate RSOs, local and State authorities, etc. as part of the 
standard response procedures in a comprehensive security plan.

------------------------------------------------------------------------
       General Information or Other              Event Number: 45301
------------------------------------------------------------------------
Rep Org: GEORGIA RADIOACTIVE MATERIAL PGM   Notification Date: 08/26/
Licensee: KAISER PERMANENTE                  2009
Region: 1                                   Notification Time: 16:00
City: JONESBORO State: GA                    [ET]
County: CLAYTON                             Event Date: 08/22/2009
License No.: GA1276-1                       Event Time: 07:30 [EDT]
Agreement: Y                                Last Update Date: 08/26/2009
Docket:
NRC Notified By: ERIC JAMESON
HQ OPS Officer: DAN LIVERMORE
------------------------------------------------------------------------
Emergency Class: NON EMERGENCY              Person (Organization):
10 CFR Section:                             JOHN WHITE (R1DO)
AGREEMENT STATE                             LANCE ENGLISH (ILTA)
                                            GREG SUBER (FSME)
------------------------------------------------------------------------

Event Text
AGREEMENT STATE REPORT--EXTERIOR ACCESS DOOR TO RADIOLOGY LAB FOUND 
OPEN
    While responding to an audible alarm, the Clayton County Police 
Department found an exterior door open to the Radiology Lab at the 
Kaiser Permanente Nuclear Medicine Clinic located in Jonesboro, 
Georgia. The Clayton County Police Department notified the Federal 
Bureau of Investigations and the Georgia Information Sharing and 
Analysis Center. The Georgia Information Sharing and Analysis Center 
then contacted the Georgia Radioactive Materials Program.
    The licensee is authorized to possess diagnostic imaging isotopes. 
At this time, no information is available whether radiological material 
is missing, or if the open door was the cause of the alarm. The 
investigation is on-going.
* * * UPDATE FROM IRENE BENNETT TO JOHN KNOKE AT 1036 EDT ON 09/04/09 * 
* *
    The State conducted an inspection at the licensee's facility and 
determined that no material was missing. A complete report will follow 
later.
    Notified FSME (Angela McIntosh), R1DO (James Dwyer), and ILTAB (via 
e-mail).
    These ``Event Notification Reports'' are posted to the NRC website 
for public review.

    Ms. Clarke. I would like to thank the witnesses for your 
valuable testimony and for your willingness to participate in 
today's hearing.
    I would also like to thank the subcommittee Members that 
traveled to Brooklyn yesterday to participate, all the way from 
California. I hope you enjoyed your stay in our great borough, 
our great city, and our great State.
    Members will have 10 days to submit questions for the 
record. Witnesses are reminded that Members may submit 
additional questions in writing, and we ask that you reply to 
the committee in writing in an expeditious manner.
    Hearing no further business----
    Mr. Lungren. Madame Chairwoman.
    Ms. Clarke. The gentleman from California.
    Mr. Lungren. Before I respond to your inquiry about how we 
enjoyed this, can I say am I going to wait until I get my ride 
back to the train station before I can respond?
    Ms. Clarke. That will be fine, Mr. Lungren. See you in 
Washington.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
